<html>
<title> - THE DEPARTMENT OF ENERGY FISCAL YEAR 2011 RESEARCH AND DEVELOPMENT BUDGET PROPOSAL</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                        THE DEPARTMENT OF ENERGY
                     FISCAL YEAR 2011 RESEARCH AND
                      DEVELOPMENT BUDGET PROPOSAL

=======================================================================


                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 3, 2010

                               __________

                           Serial No. 111-81

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
55-839                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        MICHAEL T. McCAUL, Texas
JIM MATHESON, Utah                   MARIO DIAZ-BALART, Florida
LINCOLN DAVIS, Tennessee             BRIAN P. BILBRAY, California
BEN CHANDLER, Kentucky               ADRIAN SMITH, Nebraska
RUSS CARNAHAN, Missouri              PAUL C. BROUN, Georgia
BARON P. HILL, Indiana               PETE OLSON, Texas
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
JOHN GARAMENDI, California
VACANCY
                            C O N T E N T S

                             March 3, 2010

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........    10
    Written Statement............................................    10

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    11
    Written Statement............................................    11

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    12

Prepared Statement by Representative John Garamendi, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    13

                               Witnesses:

Dr. Steven Chu, Secretary of Energy, U.S. Department of Energy
    Oral Statement...............................................    14
    Written Statement............................................    16

Discussion
  The Cancellation of Yucca Mountain.............................    30
  Creating and Retaining Domestic Jobs...........................    30
  Buy American Strategies........................................    31
  The Ultra-Deepwater Program....................................    32
  Energy Hub Goals...............................................    34
  Funding for Nuclear Power......................................    36
  Solar Energy...................................................    37
  Commercializing Technologies...................................    38
  The Mix of Domestic Energy Sources.............................    39
  Potential Energy Efficiency Strategies.........................    41
  High-Performance Computing at DOE..............................    43
  Spent Nuclear Fuel Recycling...................................    44
  More on Yucca Mountain and Nuclear Waste Storage...............    45
  More on Nuclear Waste..........................................    47
  DOE Research Infrastructure....................................    57
  Public Access of High-Performance Computers....................    58
  The Government Tools for Reducing Energy Use...................    68
  Coal and the DOE...............................................    69
  Smart Grid and Wind Energy Transmission........................    71
  Cap and Trade..................................................    72
  More on the Ultra-Deepwater Program............................    72
  Energy Efficiency..............................................    75
  Closing........................................................    76

             Appendix 1: Answers to Post-Hearing Questions

Dr. Steven Chu, Secretary of Energy, U.S. Department of Energy...    78

             Appendix 2: Additional Material for the Record

Nuclear Regulatory Commission Motion To Withdraw Yucca Mountain 
  License Application............................................    98


  THE DEPARTMENT OF ENERGY FISCAL YEAR 2011 RESEARCH AND DEVELOPMENT 
                            BUDGET PROPOSAL

                              ----------                              


                        WEDNESDAY, MARCH 3, 2010

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 12 p.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                            hearing charter

                     U.S. HOUSE OF REPRESENTATIVES

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                        The Department of Energy

                     Fiscal Year 2011 Research and

                      Development Budget Proposal

                        wednesday, march 3, 2010
                          12:00 p.m.-2:00 p.m.
                   2318 rayburn house office building

Purpose

    On Wednesday, March 3, 2010, the Committee on Science and 
Technology will hold a hearing entitled ``The Department of Energy 
Fiscal Year 2011 Research and Development Budget Proposal.'' The 
purpose of the hearing is to receive testimony from the Secretary of 
Energy on the President's Fiscal Year 2011 budget request for energy 
research and technology development programs at the Department, 
including activities under the Offices of Science, Energy Efficiency 
and Renewable Energy, Fossil Energy, Nuclear Energy, Electricity 
Delivery and Energy Reliability, the Advanced Research Projects Agency-
Energy, and the Loan Guarantee Program.

Witness

        <bullet>  Dr. Steven Chu, U.S. Secretary of Energy. Prior to 
        his appointment as the 12th Secretary of Energy, Dr. Chu was 
        the Director of DOE's Lawrence Berkeley National Laboratory, 
        and a professor of Physics and Molecular and Cell Biology at 
        the University of California. Dr. Chu was the co-winner of the 
        1997 Nobel Prize for Physics.

Background

    The Fiscal Year 2011 budget request for the Department of Energy is 
$28.4 billion, which represents a $1.8 billion or 6.8 percent increase 
over FY 2010. This supports a wide range of activities within the DOE 
mission, including maintaining nuclear weapons deterrence capabilities, 
securing nuclear materials, improving energy efficiency, incentivizing 
production of renewable energy, curbing greenhouse gas emissions, and 
investing in research and innovation to enhance the nation's economic 
competitiveness. The FY 2011 budget request builds on $36.7 billion in 
funding from the American Recovery and Reinvestment Act of 2009 which 
is expected to be completely obligated by the end of FY 2010.
    Of the total budget for DOE, approximately one-third is allocated 
for civilian energy research and technology development programs within 
the Science and Technology Committee's jurisdiction. The remainder is 
designated for weapons stockpile stewardship and nonproliferation 
activities in the National Nuclear Security Administration (NNSA) as 
well as both Defense and Non-Defense Environmental Cleanup (EM).
    The FY 2011 budget request continues support for crosscutting 
initiatives that draw on the various program offices within DOE, 
including both new and existing proposals for Energy Innovation Hubs, 
and science and engineering education activities through RE-ENERGYSE 
(Regaining our ENERGY Science and Engineering Edge).

The Advanced Research Projects Agency-Energy (ARPA-E)
    The Fiscal Year 2011 budget request for ARPA-E is $299.9 million. 
This will be the first year that ARPA-E receives full operational 
funding through the annual appropriations process. ARPA-E was 
established in 2009 with $15 million from the Omnibus Appropriations 
Act of 2009 and $400 million from the American Recovery and 
Reinvestment Act of 2009.
    ARPA-E was originally authorized in the America COMPETES Act of 
2007 (P.L. 110-69). That Act followed on the direct recommendations of 
the National Academies seminal 2005 report, ``Rising Above the 
Gathering Storm.'' The Gathering Storm panel was chaired by retired 
Lockheed Martin Chairman and CEO Norman Augustine, and included, among 
a number of notable experts Secretary Chu. The panel made a 
recommendation to create a new energy research agency (ARPA-E) within 
the Department of Energy patterned after the successful Defense 
Advanced Research Projects Agency (DARPA) within the Department of 
Defense.
    According to the Gathering Storm report, ARPA-E should be 
structured to ``sponsor creative, out-of-the-box, transformational, 
generic energy research in those areas where industry itself cannot or 
will not undertake such sponsorships, where risks and potential payoffs 
are high, and where success could provide dramatic benefits for the 
Nation . . . . It would be designed as a lean, effective, and agile--
but largely independent--organization that can start and stop targeted 
programs based on performance and ultimate relevance.''
    Shortly after receiving Recovery Act funding, ARPA-E released its 
first Funding Opportunity Announcement (FOA) in April 2009, and it 
received an unprecedented response of almost 3,700 concept papers. 
After an intensive selection process utilizing expert volunteers from 
industry and academia, 334 of those were chosen to submit full 
applications. Ultimately, 37 projects were chosen to participate, 
totaling over $150 million in awards to a diverse range of technologies 
and performers.
    A second round of solicitations totaling $100 million was announced 
in early December. Informed by a series of open workshops the second 
round focuses on three distinct areas: innovative materials and 
processes for carbon capture, transportation batteries, and liquid 
fuels from carbon dioxide. Despite the comparatively narrow scope of 
this solicitation, ARPA-E received over 600 concept papers. It is 
expected that awards will be announced in the coming this spring, and 
total 30-40 projects. A third round of solicitations is expected soon.
    Given the high demand evidenced by the responses to the first and 
second rounds of funding, DOE and ARPA-E leadership acknowledged that 
it had the capacity to accommodate only a small percentage of 
applications. Consequently, the Department is hosting an ARPA-E Energy 
Innovation Summit on March 1-3rd to highlight some award-winning 
projects as well as those that did not receive awards but would likely 
still be of interest to the investor community.

Office of Science

    The FY 2011 budget request for the DOE Office of Science is $5.1 
billion. This represents an increase of $218 million or 4.4 percent 
over the FY 2010 enacted level of funding.
    The request for Basic Energy Sciences (BES) is $1.84 billion, an 
increase of $198.5 million or 12.1 percent over enacted FY 2010 
funding. As the largest program within the Office of Science, BES 
conducts research and supports major user facilities to examine the 
cross-cutting areas of materials and chemical sciences. In FY 2009, the 
program began support for 46 Energy Frontier Research Centers (EFRCs) 
focusing on specific research areas for energy applications that were 
identified in a series of recent reports and workshops. The annual 
budget for each EFRC is $2-5M per year, and each supports 6-12 
researchers from a variety of institutions. In FY 2010, DOE is 
initiating an Energy Innovation Hub on producing liquid transportation 
fuels directly from sunlight, carbon dioxide, and water through a 
chemical process analogous to photosynthesis in plants, but without the 
need to maintain life processes. The Hub was funded in FY 2010 by DOE's 
Office of Energy Efficiency and Renewable Energy in accordance with the 
FY 2010 Energy & Water Development Appropriations Act, but it is being 
managed by BES. In FY 2011, DOE has proposed to formally fund this Hub 
through BES as well. In addition, DOE is proposing the establishment of 
a Hub on Batteries and Energy Storage in BES, with a request of $34 
million for FY 2011. Energy Innovation Hubs have annual budgets of $25 
million, and will be able to support much larger research teams than 
EFRCs. No Federal funds for EFRCs or Hubs can be used for construction 
of permanent infrastructure, and all awardees must recompete every five 
years.
    The budget would provide $426 million for Advanced Scientific 
Computing Research (ASCR), an increase of $32 million or 8.1 percent 
over enacted FY 2010 funding. This includes funds to continue upgrading 
the Leadership Class Facilities at Oak Ridge National Laboratory and 
Argonne National Laboratory.
    Biological and Environmental Research (BER) would receive $626.9 
million under the President's budget, which is $22.7 million or 3.8 
percent over current year funding. In addition to the role of BER in 
areas such as genomics, climate change research, and environmental 
remediation, the FY 2011 request supports continued funding for three 
bioenergy research centers established in FY 2008.
    The request for Fusion Energy Sciences (FES) is $380 million, a 
decrease of $46 million or 10.8 percent below enacted FY 2010 funding. 
This decrease largely reflects a one-year reduction in the U.S. 
contribution to the ITER international fusion project, from $135 
million to $80 million, consistent with the project's current status as 
a final design is determined this year.
    The FY 2011 funding request for High Energy Physics (HEP) is $829 
million, which is $18.5 million or 2.3 percent more than the enacted FY 
2010 level. This program conducts fundamental research in elementary 
particle physics and accelerator science and technology, including 
support for research on collaborative international projects such as 
the Large Hadron Collider.
    Nuclear Physics (NP) would receive $562 million, an increase of $27 
million or five percent over FY 2010 funding. NP supports research to 
discover and understand various forms of nuclear matter. It also 
supports the production and development of techniques to make isotopes 
that are in short supply for medical, national security, environmental, 
and other research applications.

Energy Efficiency and Renewable Energy (EERE)
    The President's proposal of $2.35 billion for the Office of Energy 
Efficiency and Renewable Energy at the Department of Energy represents 
a 5% increase from the enacted FY 2010 level. Under this request 
renewable energy investments would significantly increase for large-
scale demonstrations in biopower, concentrating solar power, offshore 
wind, and advanced hydropower. Energy efficiency activities would 
continue to support R&D for innovative new building technologies and a 
new focus on retrofitting existing buildings. For the second year in a 
row the Administration is including a proposal to fund a new program 
coordinated with the National Science Foundation called RE-ENERGYSE. 
This would provide educational and training support to universities and 
community colleges.
    The proposed funding for the Solar Energy program is $302.4 
million, an increase of $55.4 million or 22.4 percent over FY 2010 
levels. This reflects an increase of $23.5 million to the Photovoltaic 
R&D subprogram covering the first full year of funding for its PV 
Manufacturing Initiative, a $48.5 million increase to the Concentrating 
Solar Power subprogram to accelerate the installation of large-scale 
solar thermal demonstration projects in the American Southwest, and a 
proposed shift of support for the Fuels from Sunlight Energy Innovation 
Hub from EERE to the Office of Science, as described above.
    The FY 2011 funding request for the Wind Energy program is $122.5 
million, an increase of $42.5 million or 53.1 percent. This increase 
primarily reflects the establishment of a significant subprogram to 
accelerate the advancement of offshore wind through demonstrations and 
technology development.
    The FY 2011 Biomass and Biorefinery Systems request would stay flat 
at $220 million. This program seeks to produce cost-competitive 
renewable fuels from biomass feedstocks, (grass, trees etc.) through 
the advancement of technologies and practices to make the entire 
biomass supply chain more efficient. In coordination with the Office of 
Fossil Energy, the program will also establish a new $50 million 
biopower initiative to accelerate the commercialization of technologies 
which produce electricity and heat from biomass.
    The Buildings Technologies Program (BTP) would receive $231 
million, a 3.9 percent increase over FY 2010 enacted levels. This 
includes an increased emphasis on technology research and development 
for retrofitting the nation's existing building portfolio. The program 
will also focus on promoting the use of more efficient appliances. The 
Buildings Technology program seeks to complete legally required 
efficiency standards pursuant to the Energy Policy Act of 2005 and the 
Energy Independence and Security Act of 2007. Standards will be issued 
for a variety of appliances and equipment including fluorescent lamp 
ballasts, clothes dryers, residential refrigerators, furnaces and 
boilers.
    Additionally, the request includes $24 million for the Energy 
Efficient Buildings Systems Design Hub. This will focus on state-of-
the-art energy science and technologies that integrate smart materials, 
designs, and systems to increase energy efficiency in buildings. This 
approach would maximize the efficiency of different components and 
systems in a building. This Hub would be a part of the Administration's 
proposed Energy Regional Innovation Cluster (E-RIC), a multi-agency 
initiative to spur regional economic growth while making buildings more 
energy efficient. This initiative involves six Federal agencies and up 
to $129.7 million over five years to create a regional research center 
that will develop new building efficiency technologies and work with 
local partners to implement these technologies in area buildings.
    The Administration's budget request would provide a total of $40 
million for the Water Power program. This provides support to advance 
both conventional hydropower and marine and hydrokinetic (MHK) 
technologies, each with $20 million for FY 2011. This request is $30 
million below the explicit $50 million authorization in the EISA for 
R&D for MHK technologies. The $20 million request for FY 2011 is also 
below the FY 2010 appropriation of close to $40 million for MHK 
technologies.
    The proposed funding level for the Geothermal Technology program is 
$55 million, up by $10 million from the FY 2010 appropriation, but 
still $35 million below the $90 million authorized from EISA. This 
funding will continue the Department's focus on Enhanced Geothermal 
Systems (EGS), including three existing EGS demonstration projects, and 
add three new projects.
    The Industrial Technologies Program would receive $100 million, an 
increase of $4 million from the FY 2010 appropriation. The program 
focuses on reducing energy-intensity by 25 percent in the U.S. 
industrial sector by 2017, a goal established by EPAct '05. This 
funding will focus on new initiatives in the chemical and cement 
industries and continue activities in other energy-intensive industry 
sectors, while also focusing more attention on crosscutting activities. 
Specifically, the program will continue to support Combined Heat and 
Power (CHP) activities in the industrial sector through its existing 
projects funded through Recovery Act funds and new R&D on cutting edge 
technologies.

Nuclear Energy (NE)
    For FY 2011 the Administration requests $503 million for the Office 
of Nuclear Energy research and development, representing an increase of 
$37 million over the FY 2010 enacted funding level. Close to eighty 
percent of that request is dedicated to the Fuel Cycle Research and 
Development and Reactor Concepts RD&D programs. The Administration 
recently expressed support for the expansion of nuclear power, and 
increased its commitment to loan guarantees for new reactors as well as 
commissioned a Blue Ribbon panel to consider long-term strategies for 
used nuclear fuel and waste storage.
    The United States has been conducting research on the reprocessing 
of spent nuclear fuel since 2002 under the Advanced Fuel Cycle 
Initiative and more recently under the Fuel Cycle Research and 
Development program. In April 2009, the Administration signaled a 
change in this initiative when it announced it was no longer pursuing 
domestic commercial reprocessing under the Global Nuclear Energy 
Partnership (GNEP) program, which had sought near-term reprocessing 
technology development and deployment. GNEP had drawn criticism based 
on the substantial costs estimated for implementing the program and the 
technical challenges associated with developing, demonstrating, and 
deploying advanced technologies for recycling spent nuclear fuel that 
do not separate out a stream of weapons-ready plutonium. The National 
Academies expressed similar concerns in a series of reports. The new 
strategy of this program will be to examine three distinct fuel cycle 
strategies: once-through, modified-open, and full-recycle.
    The Administration reorganized NE's advanced reactor research 
efforts and created the Reactor Concepts RD&D program. This new program 
will include Generation IV Nuclear Energy Systems, Next Generation 
Nuclear Power, a new focus on Small Modular Reactor design, and other 
advanced reactor initiatives. The Administration recognized that 
advanced reactor design is a vital part of closing the fuel cycle and 
increasing the efficiency and longevity of both the current nuclear 
fleet and those plants expected to be built in the near-term. 
Furthermore, next generation advanced reactors are expected to provide 
the capacity to utilize advanced fuels reclaimed through reprocessing.
    The FY 2011 budget request also establishes the Nuclear Energy 
Enabling Technologies (NEET) program to provide support to the 
aforementioned programs and develop crosscutting technologies. Amongst 
the goals of this program will be exploration of advanced fuels and 
concepts that will increase the performance of technologies developed 
in the Reactor Concepts RD&D and Advanced Fuel Cycle Initiative 
programs. NEET will also encourage research into high-risk, high-reward 
concepts aimed at providing technological leaps for nuclear generation. 
Furthermore, under the NEET program, the Administration provides $24.3 
million for the Energy Innovation Hub for Modeling and Simulation. This 
hub program will continue its 2010 work in providing validated advanced 
modeling and simulation tools necessary to enable fundamental changes 
in how the U.S. designs and licenses nuclear power and waste management 
technologies.
    An additional $5 million is requested for RE-ENERGYSE under the 
Nuclear Energy Program.

Fossil Energy R&D
    The proposed FY 2011 budget includes a significant reduction for 
Office of Fossil Energy (FE) funding. The Fossil Energy R&D program 
would receive $587 million in FY 2011, a decrease of $85 million 
compared to FY 2010 appropriations. Pursuant to the Administration's 
policy to cut oil and gas subsidies the reduction comes largely from 
the proposed cancellations of the Natural Gas Technologies program and 
the Unconventional Fossil Energy Technologies program as well as no 
planned FY 2011 Congressionally Directed Projects. Coal-related 
projects would receive $404 million, similar to FY 2010's funding 
levels.
    The FY 2011 budget request for FE's Coal program will be a driver 
to accomplish the Administration's recently announced pledge to develop 
5-10 Carbon Capture and Sequestration (CCS) demonstration projects by 
2016. The Fuels and Power Systems program initiatives will focus on 
research, development, and deployment of technologies to use fossil 
fuels more cleanly and efficiently. This program also supports 
demonstration projects including the Clean Coal Power Initiative (CCPI) 
and FutureGen, though both of those programs will not receive funding 
for demonstrations under the FY 2011 plan, and instead FE will focus on 
project execution in all Rounds of CCPI and completion of National 
Environmental Policy Act (NEPA) procedures for ongoing projects. 
Included in this request is $143.0 million for FE's Carbon 
Sequestration program including the Regional Carbon Sequestration 
Partnerships, $65 million for the Innovations for Existing Plants 
program, and $55 million for the Advanced Integrated Gasification 
Combined Cycle (IGCC) program. The Administration will continue to 
explore fuel cell and advanced turbine technologies for deployment in 
central coal power generation facilities. Furthermore, the Advanced 
Research program would receive $47.9 million for its continued 
activities to improve efficiency and reduce costs of advanced coal-
based systems. The Administration will propose a new budget structure 
for the FY 2012 Clean Coal program to align the four key research areas 
of efficiency, carbon capture, geologic storage, and cross-cutting 
research.

Electricity Delivery and Energy Reliability
    The Office of Electricity Delivery and Energy Reliability (OE) is 
charged with managing programs to modernize the electric grid, enhance 
security and reliability of the energy infrastructure, and facilitate 
recovery from disruptions to our energy supply. The Administration's FY 
2011 request for OE's Research and Development is $144 million, a $19 
million increase over last year's funding. Included is additional 
funding for smart grid and energy storage technologies R&D. Within the 
smart grid research activities there will be a new focus on power 
electronics. These activities help utilities effectively deliver power 
to customers while providing increased reliability to bulk power 
systems. An integral part of this research will be on promising 
materials for semiconductors. A funding increase of $26 million for 
energy storage technology research will be used to initiate activities 
in community energy systems based on vehicle batteries and the 
development of significantly larger lithium ion cells for stationary 
applications. Additionally, increased basic research and improved 
modeling capacities for Compressed Air Energy Storage (CAES) systems 
will be conducted. Also notable is a reduction in funding of $10 
million for Cyber Security for Energy Delivery Systems.

Loan Guarantee Program
    The FY 2011 budget request proposes funding and authority to 
support approximately $40 billion in additional loan guarantees for 
renewable energy, energy efficiency, and nuclear energy projects.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Gordon. The hearing will come to order.
    Let me just bring everybody up to speed on where we are. 
Although the memorial service is over, the House, I understand, 
may still be technically in recess for a few more minutes. We 
have the right to move forward, but I have consulted with the 
Minority, and I want to be sure they feel comfortable with that 
because we are going to then have a series of votes in an hour 
and a half or so and I want to be sure that Dr. Broun has 
plenty of time to ask all he wants to ask. So if we are going 
to do that, we need to get started. So with no objection, then 
we will begin now. I thank you all.
    Good morning. I want to welcome everyone to today's hearing 
on the Department of Energy's Fiscal Year 2011 Budget Request, 
and I especially want to welcome our witness, Dr. Chu. In an 
effort also for brevity, Mr. Hall has suggested that we either 
waive or make our opening statements brief, and so I will be 
brief and simply say that for those that believe in destiny, 
Dr. Chu, your destiny was to be here at this moment and this 
time to bring your unique set of skills, maybe not here at this 
hearing room but here as the Secretary of Energy. You do have a 
unique set of skills that are needed, I think, as we are moving 
really both for national security as well as economic security, 
a time of losing jobs in the 21st century, as we are looking 
for the new jobs of the 21st century.
    So we welcome you here and I congratulate you on a 
tremendous turnout yesterday for the ARPA-E [Advanced Research 
Projects Agency-Energy]. For those that weren't there, there 
were over 2,000 people that came to the ARPA-E. If I could just 
real quickly, since Ralph always tells stories, I will tell a 
quick one. Tony Tether, who was a former director of DARPA, 
when we were talking to him about ARPA-E and how it should be 
set up, he recommended that if he could, he would have ARPA-E--
I mean DARPA--all on one floor and there would be unisex 
bathroom in the middle of it so that everybody would have to 
come there at some time and have interaction. Well, there was 
only one coffeepot at this meeting yesterday with 2,000 people 
and they were all around the coffeepot. You could hear the 
really the stimulating discussions about what about this, what 
about that. So I think it was a great success.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    I want to welcome everyone to today's hearing on the Department of 
Energy's Fiscal Year 2011 Budget Request.
    I especially want to welcome our witness, Secretary Chu.
    Dr. Chu, you have sat before this committee on a number of 
occasions, and your testimony is always valuable and appreciated. With 
all of the changes at the Department we certainly look forward to an 
interesting discussion today.
    It has been an exciting and historic year for the Department of 
Energy. The 2009 Recovery Act provided DOE with almost $40 billion to 
jumpstart our green economy, and to lay a strong foundation for our 
country's future through significant investments in research and 
development.
    While this is a tremendous opportunity for the Secretary, it also 
presents an unprecedented challenge in ramping up programs that, at 
best, spend around one-tenth of that in a normal year.
    I believe we entrusted the right person with this task, and that we 
will look back on this investment as the one that sowed the seeds of 
change for a new U.S. economy.
    The Recovery Act included $400 million in start-up funding for the 
Advanced Research Projects Agency for Energy--ARPA-E--a program we 
authorized in the America COMPETES Act two years earlier.
    As Secretary Chu knows well, I have a strong interest in the 
success of ARPA-E, and our Committee has been engaged in rigorous 
oversight of the agency throughout its inception and early development.
    Today, I am pleased to say that we are impressed with the progress 
that you and Dr. Majumdar, ARPA-E's new Director, have made in such a 
short amount of time.
    In DOE's history, it had been unheard of to carry out technical 
reviews of some 3700 proposals--and then to get the money out the door 
to the winners--within just a few months. We have heard stories on how 
this experience compares to previous applications to, and negotiations 
with, DOE. I'd like to hear if there are any positive lessons we can 
learn from this process that can be applied to the rest of the 
Department.
    So obviously I am happy to see the Administration's request of $300 
million for ARPA-E in FY 11, and I believe ARPA-E is moving fast enough 
to justify an even larger investment in the very near future. But it 
appears to be an appropriate, well-justified amount to build on the 
successes we're seeing today.
    I am also pleased with the request for the DOE Office of Science, 
which--along with the Administration's requests for NSF and NIST--
continues this agency on a doubling path as recommended by the National 
Academies' Gathering Storm report to keep America competitive well into 
the future.
    We will be taking another look at these agencies in the 
reauthorization of the America COMPETES Act this year, and look forward 
to working with you to make this new bill as strong and effective as we 
can.
    Another area we will be focusing on this year is nuclear energy. 
I'm sure there will be some lively discussions this afternoon on the 
Administration's decision to cut funding for Yucca Mountain, but given 
the recent assessments by the Nuclear Regulatory Commission and the 
National Academies that a major repository isn't needed anytime soon--
and may never be needed--I'm most interested in where we go from here.
    I am pleased that loan guarantees for the first new nuclear plants 
in three decades have finally been issued, and I'm impressed with the 
quality of members selected for the bipartisan Blue Ribbon Commission 
on nuclear waste, just announced by the President.
    I understand that the Department will also be releasing a nuclear 
energy R&D plan in the near future, and we look forward to reviewing it 
as soon as possible. We expect this plan to be an important reference 
as we craft a comprehensive nuclear energy research and development 
bill this year.
    In closing, Secretary Chu, I've appreciated working with you over 
the past year, and urge you and DOE to continue reaching out to us on 
anything we can do to help you make the Department as effective as 
possible. With that, I'd like to yield to the Committee's distinguished 
Ranking Member, Mr. Hall.

    Chairman Gordon. With that, I will yield to my newly 
championed Ranking Member on his way to his 14th term, 
undefeated--16th? What is it, no knockdowns, no--anyway, he is 
back and I am glad.
    Mr. Hall. I will just ask unanimous consent to place my 
statement that you ought to have to listen to into the record. 
Without objection?
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    Thank you, Mr. Chairman, for holding this hearing today. I want to 
welcome Secretary Chu back for his second visit to the Committee. I 
look forward to continuing to work with you on the energy challenges 
that are central to DOE's mission and the Nations well-being.
    When it comes to energy and DOE's budget there is of course an 
abundance of important issues to discuss, but I want to focus my 
comments on three high level areas: (1) energy independence and 
security; (2) the status and outlook for nuclear energy; and (3) 
science and innovation as a priority investment toward maintaining 
America's long-term economic competitiveness.
    Most important--and most concerning--to me in this budget is its 
approach to energy security. While I recognize and generally support 
efforts to advance energy efficiency and renewable energy sources, any 
serious approach to strengthening American energy independence must be 
``All of the Above,'' and complemented by a comprehensive effort to 
expand traditional sources of domestic energy, primarily oil and 
natural gas. We are all concerned about jobs, so this Administration 
should be heartened by the fact that the domestic oil and natural gas 
industry experienced nine percent job growth from 2002-2008. 
Unfortunately, this budget proposes dramatic tax hikes on domestic 
energy development and aims to eliminate the fossil energy R&D 
programs, including the proven and successful Ultra-Deep program that I 
helped to establish in the Energy Policy Act of 2005. These actions--
combined with delays in opening up new areas for domestic energy 
production and efforts to ration carbon use through Cap and Trade--will 
result in higher energy costs, reduced job growth, and increase our 
dependence on foreign energy sources, including those provided by 
regimes hostile to American interests.
    With respect to nuclear energy, I appreciate the Secretary's stated 
desire to ``restart the nuclear energy industry in America.'' However, 
the signals on nuclear remain mixed, and I hope to see the 
Administration's desire translated into real action and support, from 
loan guarantees, to licensing to R&D. Nuclear waste storage is critical 
and the Administration's determination that Yucca Mountain is not a 
workable option seems cavalier when not based on any scientific, 
engineering or economic analysis. I have written the Secretary asking 
for more information on his decisions and plans in this area. I look 
forward to his thorough and timely response, and to working with him on 
this as we go forward.
    Last, I want to reiterate my strong support for investments in the 
basic research activities that drive American innovation and 
competitiveness. In 2007, the S&T Committee led passage of the America 
COMPETES Act, which placed the DOE Office of Science on a path to 
double over seven years. While I am pleased that the President appears 
mindful of the need for basic research and development, I am concerned 
with how the Administration is choosing to direct the American 
taxpayer's research dollars. I have long feared that ARPA-E would 
divert funding from the Office of Science, and it appears that this 
budget reflects that reality. Moreover, there seem to be multiple other 
programs with overlapping goals and activities that must be better 
explained and distinguished from traditional agency activities. For 
example, it is unclear how the activities supported by the newly 
established and requested energy innovation hubs, the energy frontier 
research centers and traditionally applied energy programs are 
different. We need improved clarity on this question to enable 
prioritization and minimize confusion and potential duplication of 
effort.
    In our current economy we need to be judicious with taxpayer 
dollars. I am concerned with where this budget is taking us and the 
ways the Administration is choosing to direct energy research dollars.
    While I have many more questions and concerns that I hope to cover 
in our discussion and subsequent interactions, these are my top 
priorities that I look forward to hearing from the Secretary on.
    Thank you again for taking the time to be with us today.

    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good Morning. Thank you, Mr. Chairman, for holding today's hearing 
on the Department of Energy (DOE) research and development (R&D) budget 
for Fiscal Year 2011 (FY 11).
    The President's budget calls for $28.4 billion in FY 11 for Energy 
R&D, a $1.8 billion increase from FY 10. The President's budget 
continues to invest in a balanced energy R&D program that emphasizes 
the development of renewable energy sources, such as ethanol and 
biodiesel, while continuing to use our most abundant and affordable 
domestic source of energy, coal. I applaud the administration's strong 
support of the Office of Fossil Energy's (FE) Coal R&D program. Fifty-
one percent of electricity produced in the U.S. is generated by coal, 
and 49 percent of the electricity in my home state, Illinois, comes 
from coal.
    The administration's $400 million investment will expand research, 
development, and deployment of clean coal technologies, including 
carbon capture and storage (CCS), to ensure this stable and affordable 
source of energy remains clean and efficient.
    I was pleased with the DOE's decision last year to continue 
investing in FutureGen, the world's first commercial-scale CCS 
demonstration project. I have been a firm supporter of the FutureGen 
project since its inception, and DOE's $1 billion investment through 
last year's American Recovery and Reinvestment Act reinvigorated the 
project. Since DOE's investment, FutureGen is on the fast-track towards 
completion and has welcomed two new members, Illinois-based Caterpillar 
and Exelon. Despite this progress, DOE's FY 11 budget does not provide 
any further funding for FutureGen, and I would like to hear how DOE 
will continue to support and invest in FutureGen without additional 
funding.
    In addition, I also strongly support the DOE's decision to focus 
the next round of the Advanced Research Projects Agency-Energy (ARPA-E) 
funding on high-risk, high-reward carbon capture research. The results 
of these projects will show us the future of CCS and coal in the U.S., 
and the projects will build on the work being done now at universities 
and research centers across the U.S., including the Coal Research 
Center at Southern Illinois University-Carbondale.
    Balancing this investment in fossil energy, the budget invests $2.4 
billion in Renewable Energy and Energy Efficiency R&D, including 
biofuels and biomass. I strongly support this ongoing investment in 
developing these new renewable energy sources and ensuring our national 
energy policy is sustainable and balanced.
    Finally, the President's budget represents a change in direction 
for the national nuclear energy policy. The budget requests $503 
million for the Office of Nuclear Energy (NE), an increase of $37 
million over FY 10. This increased funding, in addition to $54.5 
billion in loan guarantees for the construction of new reactors, 
demonstrates the administration's support for the expansion of nuclear 
power. About 49 percent of Illinois' power is generated through nuclear 
energy, and we should continue to develop our nuclear energy program. 
Since the administration decided to eliminate funding for Yucca 
Mountain while expanding our reliance on nuclear energy, I would like 
to hear what steps DOE is taking to store nuclear waste as more nuclear 
energy is produced.
    I welcome Secretary Chu, and I look forward to his testimony. Thank 
you again, Mr. Chairman.

    [The prepared statement of Mr. Garamendi follows:]
          Prepared Statement of Representative John Garamendi
    Thank you Mr. Chairman for holding this important hearing on the 
Department of Energy's (DOE) Fiscal Year 2011 budget.
    Secretary Chu, welcome to the Committee and thank you for your 
testimony. I am very pleased to see the commitment to research, 
science, engineering and STEM education at DOE in the President's 
budget. These investments in our children's future are long overdue.
    In addition to being home to Lawrence Livermore and to the Joint 
Genome Institute, my district is adjacent to the 9th Congressional 
District represented by Congresswoman Barbara Lee that is home to 
another world leading research and institution, the Lawrence Berkeley 
National Laboratory. Berkeley Lab, under the new leadership of Dr. Paul 
Alivisatos, is making great progress on the development of advanced 
energy and environmental solutions.
    As home to four major national scientific user facilities--the 
Advanced Light Source, the National Center for Electron Microscopy, the 
Molecular Foundry and the National Energy Research Scientific Computing 
Center--the Lab serves thousands of scientists annually from around the 
world. From supporting Nobel prize-winning work to finding solutions to 
health, energy and climate challenges, these user facilities are the 
best that our country has to offer and I urge the Department to fully 
fund and support them aggressively.
    In particular, I urge the Department to adequately fund the 
research needed for the next generation of photon light sources. There 
is great potential here for understanding materials and chemical 
reactions at a scale unmatched by current tools.
    Additionally, I want to take this opportunity to praise the 
National Energy Research Scientific Computing Center. It is THE work 
horse of the Office of Science advanced computing program serving over 
3,000 users annually. I strongly urge the Department to more fully 
utilize NERSC for working with industry and academia to address our 
energy and environmental challenges.

    Chairman Gordon. Without objection. And Dr. Chu, as you 
know, your written statement will be made a part of the record 
and so we welcome your oral statement followed by each Member 
will have an opportunity to question you for five minutes.
    So with that, Dr. Chu, the Secretary of Energy for the U.S. 
Department of Energy, welcome. You may begin.

    STATEMENTS OF DR. STEVEN CHU, SECRETARY OF ENERGY, U.S. 
                      DEPARTMENT OF ENERGY

    Secretary Chu. Thank you, Chairman Gordon, and thank you, 
Ranking Member Hall. Members of the Committee, I thank you for 
having the opportunity to be here before you today to discuss 
the President's fiscal year 2011 budget request for the 
Department of Energy.
    President Obama has stated that a nation that leads the 
world in creating new sources of clean energy will be the 
Nation that leads in the 21st century global economy, and I 
fervently share this view. The President's fiscal year 2011 
budget request for $28.4 billion for the Department of Energy 
will help position the United States to be a global leader in 
this new energy economy. The budget request makes much-needed 
investments to harness the power of American ingenuity. This 
request will create clean energy jobs, expand the frontiers of 
science, reduce nuclear dangers and help curb the carbon 
pollution that threatens our planet.
    The President's budget request includes an investment of 
$2.4 billion in energy efficiency and renewable energy sources. 
It also promotes innovative energy efficiency and renewable 
energy projects through $500 million in credit subsidies that 
will support $3 billion to $5 billion in lending. It expands 
the Advanced Manufacturing Tax Credit by $5 billion to help 
build a robust domestic manufacturing capacity. Through this 
budget, we will increase research, demonstration and deployment 
of wind, solar, geothermal energies, make buildings more 
efficient, develop energy-efficient vehicles, and pursue carbon 
capture and sequestration.
    Nuclear energy must also be part of our clean energy mix. 
Our budget request includes an additional $36 billion in loan 
guarantee authority for the nuclear power sector as well as 
$495 million for nuclear energy research and development.
    On February 16th, President Obama announced conditional 
commitments for more than $8 billion in loan guarantees for 
what will be the first nuclear power plants to break ground in 
nearly three decades.
    We have many technologies on hand today to begin the 
transition to a low-carbon economy but we will need further 
breakthroughs and better technologies to meet our long-term 
goals. The budget request invests in basic and applied research 
and puts us on a path to doubling the funding for science.
    I know this Committee is deeply interested in the 
Department's research agenda. Indeed, you have been 
instrumental in some of the key R&D initiatives in this budget 
request. I thank the Committee for your efforts to pass the 
America COMPETES Act and for your work to reauthorize this 
important legislation.
    The budget request supports the Department's three new 
complementary approaches to marshalling the Nation's brightest 
minds to accelerate energy breakthroughs. The first approach is 
energy innovation hubs. The hubs are multidisciplinary, goal 
oriented and will be managed by top teams of scientists and 
engineers with enough resources and authority to move quickly 
and respond to new developments. They are to be modeled after 
laboratories such as MIT's radiation laboratory, which 
developed radar during World War II and Bell Laboratories which 
invented and developed the transistor. Ideally, this work will 
be done under one roof. The Department will continue funding 
the three energy innovation hubs introduced in fiscal year 
2010, but in addition we are proposing a new hub to 
dramatically improve batteries and energy storage.
    The second approach is the Energy Frontier Research 
Centers. The EFRCs are mainly university-based, problem-
oriented research. We have identified key scientific barriers 
to energy breakthroughs and we believe we can clear these 
roadblocks faster by linking together small groups of 
researchers across departments, schools and institutions. The 
Department proposes expanding the Energy Frontier Research 
Centers to capture emerging opportunities in new materials and 
basic research for energy needs.
    The third funding approach is one that was made possible by 
this Committee, the Advanced Research Projects Agency-Energy, 
or ARPA-E. ARPA-E is technology oriented. We seek the boldest 
and best ideas for potentially transformative energy 
technologies and funding them to see if they will work. ARPA-E 
is also dedicated to the market adoption of these new 
technologies. The fiscal year 2011 budget request includes $300 
million for ARPA-E. This week, ARPA-E sponsored a successful 
conference here in Washington, as Chairman Gordon mentioned, to 
bring together our Nation's energy innovators. I want to thank 
Chairman Gordon for taking part in this event and for his 
continued leadership on ARPA-E.
    To develop clean energy solutions and maintain nuclear 
security, the Department must cultivate the workforce of the 
next generation. In fiscal year 2011, we are requesting $55 
million to start a ``RE-ENERGYSE'' initiative to support K-20-
plus science and engineering education.
    In addition to the health of our economy and our planet, 
the Department of Energy is focused on the safety and security 
of our people. The Department is requesting a significant 
increase, more than $550 million, in new funding for the NNSA 
Defense Nuclear Nonproliferation program to help the 
President's goals of securing vulnerable nuclear materials 
around the world in four years.
    To ensure the safety, security and effectiveness of our 
nuclear stockpile, we are requesting $7 billion to upgrade our 
infrastructure, support the work of our national labs and 
recruit the skilled workforce we need.
    The budget also protects public health and safety by 
cleaning up the environmental legacy of our Nation's nuclear 
weapons program. In 2010, the Department will discontinue its 
application to the Nuclear Regulatory Commission for a license 
to construct a high-level waste geologic repository at Yucca 
Mountain. To deal with our nuclear waste management needs, the 
Administration has announced an independent bipartisan 
commission co-chaired by General Brent Scowcroft and 
Congressman Lee Hamilton to conduct a comprehensive review of 
the back end of the fuel cycle and make recommendations for 
safe, long-term solutions.
    Building a clean energy future won't be easy but it is 
necessary for our economy and our security. As a scientist, I 
am optimistic and I believe we can meet these challenges and 
lead the world in the 21st century. President Obama and I look 
forward to working with this Committee and this Congress to 
build a stronger, safer, more prosperous future. I would be 
pleased to answer any questions at this time.
    [The prepared statement of Secretary Chu follows:]
               Prepared Statement of Secretary Steven Chu
    Chairman Gordon, Ranking Member Hall, and Members of the Committee, 
thank you for the opportunity to appear before you today to discuss the 
President's Fiscal Year 2011 budget request for the Department of 
Energy.
    President Obama has stated, ``The nation that leads the world in 
creating new sources of clean energy will be the Nation that leads the 
21st century global economy.'' I fervently share this view. The 
President's FY 2011 budget request of $28.4 billion will help position 
the United States to be the global leader in the new energy economy. 
The budget request makes much-needed investments to harness the power 
of American ingenuity. This request will create clean energy jobs, 
expand the frontiers of science, reduce nuclear dangers, and help curb 
the carbon pollution that threatens our planet. As part of this 
Administration's commitment to fiscal responsibility, the Department of 
Energy is also proposing several program reductions and terminations.

American Recovery and Reinvestment Act

    The FY 11 budget request builds on the investments in the American 
Recovery and Reinvestment Act. Through the $36.7 billion the Department 
received from the Recovery Act, we are putting Americans to work, while 
helping to build a clean energy economy, spur energy innovation, and 
reduce our dependence on oil. We've begun to make our homes and offices 
more energy efficient, modernize our grid, and invest in key renewable 
energy projects. Getting this money out the door quickly, carefully, 
and transparently has been and will continue to be a top priority for 
me.

FY11 Budget Supports Strategic Priorities

    To continue the progress we have made, the FY 11 budget request 
supports the Department's strategic priorities of:

        <bullet>  Transitioning to a low-carbon economy by developing 
        and deploying clean and efficient energy technologies, 
        increasing generation capacity and improving our transmission 
        capabilities;

        <bullet>  Investing in scientific discovery and innovation to 
        find solutions to pressing energy challenges and maintain 
        American economic competitiveness; and

        <bullet>  Enhancing national security by ensuring the safety, 
        security and effectiveness of the nuclear stockpile without 
        testing. The budget request also includes funds to work with 
        our international partners to secure vulnerable nuclear 
        material around the world within four years, and advance our 
        nuclear legacy cleanup.

    These strategic priorities will be enabled by a continued 
commitment to improving the management and fiscal performance of the 
Department.

Energy

    To transition to a low-carbon future, we must change the way we 
generate and use energy. The President's budget request invests in 
clean energy priorities, including an investment of $2.4 billion in 
energy efficiency and renewable sources of energy. It also promotes 
innovative energy efficiency and renewable energy projects through $500 
million in credit subsidy that will support $3 to $5 billion in 
lending. It expands the Advanced Manufacturing Tax Credit by $5 billion 
to help build a robust domestic manufacturing capacity for clean energy 
technologies. Through this budget, we will increase research, 
demonstration, and deployment of wind, solar and geothermal energies; 
make buildings and homes more efficient; develop energy efficient 
vehicles; and pursue carbon capture and sequestration.
    Nuclear energy must also be a part of our clean energy mix. During 
his State of the Union address, President Obama said, ``To create more 
of these clean energy jobs, we need more production, more efficiency, 
more incentives. And that means building a new generation of safe, 
clean nuclear power plants in this country.'' The President and I are 
committed to restarting our domestic nuclear industry. Our budget 
request includes an additional $36 billion in loan guarantee authority 
for the nuclear power sector to help construct the first new nuclear 
plants in decades, as well as $495 million for research and development 
to support the competitiveness, safety and proliferation resistance of 
nuclear energy in the United States and abroad. On February 16, 
President Obama announced conditional commitments for more than $8 
billion in loan guarantees for what will be the first U.S. nuclear 
power plant to break ground in nearly three decades.

Innovation

    We have many technologies in hand today to begin the transition to 
a low-carbon economy, but we will need breakthroughs and better 
technologies to meet our long-term goals. I know that this committee is 
keenly interested in the Department's research agenda. Indeed, this 
committee has been instrumental in laying the groundwork for some of 
the key research and development initiatives in this budget request 
through its efforts to pass the America COMPETES Act. I know that the 
committee continues to work during this Congress to reauthorize this 
legislation.
    The budget request invests in basic and applied research and puts 
us on the path to doubling funding for science, a key presidential 
priority. We are also requesting $55 million to start the RE-ENERGYSE 
initiative to help educate the next generation of scientists and 
engineers.
    The budget request also supports the Department's three new, 
complementary approaches to marshalling the nation's brightest minds to 
accelerate energy breakthroughs.
    The first approach is the Energy Innovation Hubs. The Hubs are 
multidisciplinary, goal-oriented, and will be managed by top teams of 
scientists and engineers with enough resources and authority to move 
quickly in response to new developments. They are to be modeled after 
laboratories such as MIT's Radiation Laboratory, which developed radar 
during World War II, and Bell Laboratories when it invented and 
developed the transistor. Ideally, this work will be conducted under 
one roof. The Department will continue funding the three Energy 
Innovation Hubs introduced in FY 2010. In addition, we are proposing a 
new Hub to dramatically improve batteries and energy storage.
    The second approach is the Energy Frontier Research Centers. The 
EFRCs are mainly university-based, problem-oriented research. We have 
identified key scientific barriers to energy breakthroughs, and we 
believe we can clear these roadblocks faster by linking together small 
groups of researchers across departments, schools, and institutions. 
The Department proposes expanding the Energy Frontier Research Centers 
to capture emerging opportunities in new materials and basic research 
for energy needs.
    The third funding approach is the Advanced Research Projects 
Agency-Energy (ARPA-E). ARPA-E is technology-oriented. We are seeking 
the boldest and best ideas for potentially transformative energy 
technologies and funding them to see if they work. The FY 2011 budget 
request includes $300 million for ARPA-E. ARPA-E is also dedicated to 
the market adoption of these new technologies. This week, ARPA-E 
sponsored a very successful conference here in Washington to bring 
together our nation's energy innovators. I want to thank Chairman 
Gordon for attending this event, and for his continued leadership on 
ARPA-E.

Security

    In addition to the health of our economy and our planet, the 
Department of Energy is focused on the safety and security of our 
people. Last April in Prague, President Obama outlined an ambitious 
agenda to address the greatest threat to global security--the danger of 
terrorists getting their hands on nuclear weapons or the material to 
build them. The Department is requesting a significant increase in the 
budget--more than $550 million in new funding--for the NNSA Defense 
Nuclear Nonproliferation program to help meet the President's goal of 
securing all vulnerable nuclear materials around the world in four 
years.
    The President has also made clear that, as long as nuclear weapons 
continue to exist, it is essential that we ensure the safety, security 
and effectiveness of our nuclear stockpile. With the $7 billion in 
funds we have requested, we can upgrade our infrastructure that has 
been allowed to decay in the past decade, support the cutting-edge work 
of our National Labs, and recruit the skilled workforce we need today 
and in the future. Over the next five years, we intend to boost this 
funding by more than $5 billion. Even in a time of tough budget 
decisions, we must make this investment for the sake of our security.
    The budget also protects public health and safety by cleaning up 
the environmental legacy of the Nation's nuclear weapons program.
    In 2010 the Department will discontinue its application to the 
Nuclear Regulatory Commission (NRC) for a license to construct a high-
level waste geologic repository at Yucca Mountain, Nevada. Both the 
President and I have made clear that Yucca Mountain is not an option. 
To deal with our nuclear waste management needs, the Administration has 
brought together a range of experts to conduct a comprehensive review 
of the back end of the fuel cycle. The Blue Ribbon Commission announced 
recently, and co-chaired by General Brent Scowcroft and Congressman Lee 
Hamilton, will provide recommendations for developing a safe, long-term 
solution to managing the Nation's used nuclear fuel and its nuclear 
waste.
    As part of our comprehensive strategy to restart the nuclear 
industry, we also propose breaking down artificial stovepipes and 
merging the Office of Civilian Radioactive Waste Management into the 
Office of Nuclear Energy.

Management

    Finally, in order to transform the way Americans generate and use 
energy, we must transform the Department itself. As part of the Obama 
Administration's reform agenda, the budget request includes $2 million 
to establish a new Management Reform initiative to provide strategic 
direction, coordination and oversight of reform initiatives. This 
initiative will report directly to me and will receive close personal 
attention. We made important reforms when we began to implement the 
Recovery Act, and now we need to institutionalize those reforms and 
apply them across the Department.
    Additionally, we are committed to being good stewards of the 
taxpayers' money. As we developed the budget, we looked to eliminate or 
reduce programs where we could. For example, we eliminated more than 
$2.7 billion in tax subsidies for oil, coal and gas industries. This 
step is estimated to generate more than $38.8 billion in revenue for 
the Federal Government over the next 10 years.
    Building a clean energy future won't be easy, but it is necessary 
for our economy and our security. As a scientist, I am an optimist, and 
I believe that we can meet this challenge and lead the world in the 
21st century.

HIGHLIGHTS OF THE FY 2011 DEPARTMENT OF ENERGY BUDGET

    The Department's Fiscal Year (FY) 2011 budget request of $28.4 
billion, a 6.8 percent or $1.8 billion increase from FY 2010, supports 
the President's commitment to respond in a considered, yet expeditious 
manner to the challenges of rebuilding the economy, maintaining nuclear 
deterrence, securing nuclear materials, improving energy efficiency, 
incentivizing production of renewable energy, and curbing greenhouse 
gas emissions that contribute to climate change. Together with the 
American Recovery and Reinvestment Act of 2009 (Recovery Act) and FY 
2010 budget, the FY 2011 budget request supports investment for a 
multi-year effort to address these interconnected challenges.
    The FY 2011 budget builds on the $36.7 billion in Recovery Act 
funding. By the end of FY 2010, the Department expects to obligate 100 
percent and outlay roughly 35-40 percent of Recovery Act funds. In 
developing the FY 2011 budget request, the Department has taken these 
investments into account. Recovery Act investments in energy 
conservation and renewable energy sources ($16.8 billion), 
environmental management ($6 billion), funds supporting loan guarantees 
for renewable energy and electric power transmission projects ($4 
billion), grid modernization ($4.5 billion), carbon capture and 
sequestration ($3.4 billion), basic science research ($1.6 billion), 
and the establishment of the Advanced Research Projects Agency-Energy 
($0.4 billion) will continue to strengthen the economy by providing 
much-needed investment, by saving or creating tens of thousands of 
direct jobs, cutting carbon emissions, and reducing U.S. dependence on 
oil.
    The President's FY 2011 Budget supports our three strategic 
priorities:

        <bullet>  Innovation: Investing in science, discovery and 
        innovation to provide solutions to pressing energy challenges

        <bullet>  Energy: Providing clean, secure energy and promoting 
        economic prosperity through energy efficiency and domestic 
        forms of energy

        <bullet>  Security: Safeguarding nuclear and radiological 
        materials, advancing responsible legacy cleanup, and 
        maintaining nuclear deterrence

    These strategic priorities will be enabled by a continued 
commitment to management excellence:

        <bullet>  Management: Transforming the culture of the 
        Department with a results-oriented approach

Innovation: Investing in Science, Discovery and Innovation to Provide 
                    Solutions to Pressing Energy Challenges

    As President Obama made clear in his remarks to the National 
Academy of Sciences in April 2009, the public sector must invest in 
research and innovation not only because the private sector is 
sometimes reluctant to take large risks, but because the rewards will 
be broadly shared across the economy. Leading requires assembling a 
critical mass of the best scientists and engineers to engage in 
mission-oriented, cross-disciplinary approaches to addressing current 
and future energy challenges. To develop clean energy solutions and 
maintain nuclear security, the Department must cultivate the science, 
technology, engineering, and mathematics workforce of the next 
generation. The FY 2011 budget request of $55 million for RE-ENERGYSE 
(Regaining our ENERGY Science and Engineering Edge) supports K-20+ 
science and engineering education.
    With every initiative the Department undertakes, sound science must 
be at the core. In FY 2011 the Department will increasingly emphasize 
cross-cutting initiatives to link science throughout the Department, 
specifically with energy and national security programs. These cross-
cutting initiatives will enhance science capabilities to create 
knowledge and innovative technologies that can be brought to bear on 
national energy and security issues, leverage world-class science and 
engineering expertise to establish global leadership as clean energy 
innovators, and employ use-inspired research to reduce the cost and 
time to bring technologies to market at scale. The Department believes 
that it will deliver solutions more quickly and efficiently through our 
efforts to break down the traditional stovepipes and operate in a more 
integrated and coordinated manner. The FY 2011 Budget continues to 
address the President's priorities in an integrated and efficient 
manner, and to deliver results for the American taxpayer.
    The Department continues its strong commitment to basic research 
and supports the President's Plan for Science and Innovation by 
requesting funding for the Office of Science at $5.1 billion, a 4.4 
percent or $218 million increase from FY 2010. The FY 2011 budget 
request will support the training of students and researchers in fields 
critical to national competitiveness and innovation, and will support 
investments in areas of research essential for a clean energy future. 
The President's Plan commits to doubling Federal investment in basic 
research at select agencies. The Department supports an overarching 
commitment to science by investing in basic and applied research, 
creating new incentives for private innovation and promoting 
breakthroughs in energy.
    To help achieve the game-changing breakthroughs needed to continue 
leading the global economy, the FY 2011 budget request includes $300 
million for the Advanced Research Projects Agency-Energy (ARPA-E). 
Introduced in FY 2009, ARPA-E is responsible for enabling specific 
high-risk and high-payoff transformational research and development 
projects. Beyond simply funding transformational research that creates 
revolutionary technologies, ARPA-E is dedicated to the market adoption 
of those new technologies to meet the Nation's long-term energy 
challenges. This funding, along with the $400 million made available 
through the Recovery Act, will provide sustained investment in this 
pioneering program.
    The Department will continue funding the three Energy Innovation 
Hubs introduced in FY 2010 to focus on developing fuels that can be 
produced directly from sunlight, improving energy efficient building 
systems design, and using modeling and simulation tools to create a 
virtual model of an operating advanced nuclear reactor. In addition, 
DOE is proposing a new Hub to focus on batteries and energy storage. 
Each of these Hubs will bring together a multidisciplinary team of 
researchers in an effort to speed research and shorten the path from 
scientific discovery to technological development and commercial 
deployment of highly promising energy-related technologies.
    Complementing the Hubs, the Department proposes expanding the 
Energy Frontier Research Centers in FY 2011 to capture new, emerging 
opportunities by furthering its scientific reach and potential 
technological impact by competitively soliciting in two categories: 
discovery and development of new materials critical to science 
frontiers and technology innovations, and basic research for energy 
needs.

Energy: Providing Clean, Secure Energy and Promoting Economic 
                    Prosperity through Energy Efficiency and Domestic 
                    Forms of Energy

    In Copenhagen, President Obama emphasized that climate change is a 
grave and growing danger. The imperative now is to develop the capacity 
to confront the challenges climate change poses and seize the 
opportunity to be the global leader in the clean energy economy. 
Meeting the Administration's goal to reduce carbon emissions by more 
than 80 percent by 2050 will be achieved by addressing supply and 
demand through increased energy efficiency, renewable generation, and 
grid modernization, as well as improvements in existing technologies 
and information analysis. An important tool that will continue to be 
used to address these issues will be loan guarantees. The Department's 
FY 2011 budget request, building on the FY 2010 budget and the Recovery 
Act, invests in the research, development, and deployment of 
technologies that will position the United States to lead international 
efforts to confront climate change now and in the future. The long-term 
economic recovery will be sustained by these continued investments in 
the new energy economy.

        <bullet>  Loan Guarantees

    The Loan Guarantee Program Office (LGPO) is a vital tool for 
promoting innovation in the energy sector across a broad portfolio of 
clean and efficient energy technologies. In FY 2011, the Department is 
requesting funding and authority to support approximately $40 billion 
in additional loan authority for innovative energy technology 
development. During FY 2010, the LGPO streamlined the application 
review process. The new authority requested will help the Department to 
encourage and to accelerate the availability of loans to leverage 
private sector investment in clean energy projects.

        <bullet>  Energy Efficiency

    In August 2009, President Obama said, ``If we want to reduce our 
dependence on oil, put Americans back to work and reassert our 
manufacturing sector as one of the greatest in the world, we must 
produce the advanced, efficient vehicles of the future.'' In FY 2011, 
the Department will promote energy efficiency in vehicles technologies, 
at $325 million. No less important to achieving the President's stated 
ambitions is decreasing energy consumption through developing and 
advancing building technologies ($231 million) and industrial 
technologies ($100 million). Federal assistance for state-level 
programs, such as State Energy Program grants ($75 million, a 50 
percent increase from FY 2010) and Weatherization Assistance grants 
($300 million, a 43 percent increase from FY 2010), will help States 
and individuals take advantage of efficiency measures for buildings and 
homes, lower energy costs and greenhouse gas emissions, and develop an 
ever-evolving, technically proficient workforce.

        <bullet>  Clean, Renewable Energy Generation

    The FY 2011 budget request will modernize the Nation's energy 
infrastructure by investing in a variety of renewable sources such as 
solar ($302 million), wind ($123 million), water ($41 million), 
hydrogen ($137 million), biomass ($220 million) and geothermal ($55 
million). These sources of energy reduce the production of greenhouse 
gas emissions and continue the pursuit of a clean energy economy built 
on the next generation of domestic production. The Department is also 
continuing to promote domestic clean energy through the four Power 
Marketing Administrations, which market and deliver electricity 
primarily generated by hydroelectric dams.

        <bullet>  Grid Modernization

    In support of the modernization of the electricity grid, the 
President's FY 2011 Budget requests $144 million for research and 
development to improve reliability, efficiency, flexibility, and 
security of electricity transmission and distribution networks. The 
``Smart Grid'' will integrate new and improved technologies into the 
energy mix, ensuring reliability, integration of renewable energy 
resources, and improving security.
    While investing in energy efficiency, renewable energy generation, 
and grid modernization are fundamental steps necessary for creating a 
clean energy economy; investing in the improvement of existing sources 
of energy will provide a bridge between current and future technologies 
These technologies are already a major segment of the energy mix and 
will play a critical role in providing a solid foundation that will 
make possible the creation of this new economy.

        <bullet>  Safe and Secure Nuclear Energy

    Nuclear energy currently supplies approximately 20 percent of the 
Nation's electricity and 70 percent of the Nation's clean, non-carbon 
electricity. The request for the Office of Nuclear Energy includes $495 
million for research, development, and demonstration in addition to 
investments in supportive infrastructure. Work on advanced reactor 
technologies, fuel cycle technologies, waste management, and cross-
cutting technologies and transformative concepts will help ensure that 
nuclear energy remains a safe, secure, economical source of clean 
energy. The Department will also promote nuclear energy through the 
Loan Guarantee Program, which is requesting an additional $36 billion 
in loan authority for nuclear power in FY 2011 (for a total of $54.5 
billion).

        <bullet>  Clean and Abundant Fossil Energy

    The world will continue to rely on coal fired electrical generation 
to meet energy demand. It is imperative that the United States develop 
the technology to ensure that base-load electricity generation is as 
clean and reliable as possible. The Office of Fossil Energy will invest 
$438 million in the research and development of advanced coal-fueled 
power systems and carbon capture and storage technologies. This will 
allow the continued use of the abundant domestic coal resources in the 
U.S. while reducing greenhouse gas emissions.
    Accurate energy information and analysis play a critical role in 
promoting efficient energy markets and informing policy-making and 
strategic planning. This budget requests a total of $129 million for 
the Energy Information Administration, the statutory statistical agency 
within the Department, to improve energy data and analysis programs.

Security: Safeguarding Nuclear and Radiological Materials, Advancing 
                    Responsible Legacy Cleanup and Maintaining Nuclear 
                    Deterrence

        <bullet>  Reduces the Risk of Proliferation

    In an April 2009 speech in Prague, the President called the threat 
of nuclear proliferation ``the most immediate and extreme threat to 
global security'' and announced his support for a new international 
effort to secure all vulnerable nuclear material around the world 
within four years. The FY 2011 budget for the NNSA Defense Nuclear 
Nonproliferation program supports this effort, recognizing the urgency 
of the threat and making the full commitment to global cooperation that 
is essential to addressing this threat. The budget provides $2.7 
billion in FY 2011, and $13.7 billion through FY 2015 to detect, 
secure, and dispose of dangerous nuclear and radiological material 
worldwide. This request is an increase of 26 percent or $550 million 
from FY 2010. The budget supports cooperative nonproliferation 
initiatives with foreign governments and the effort and expertise to 
forge them into durable international partnerships, achieving the 
objective of a world without nuclear weapons. The budget continues the 
installation of radiation detection equipment at international border 
crossings and Megaports, significantly expands materials protection and 
control security upgrades at selected sites in foreign countries to 
address outsider and insider threats, and accelerates the pace of 
highly enriched uranium research reactor conversions with an urgent 
focus to develop the capability to produce the medical isotope 
molybdenum-99 in the U.S. using low enriched uranium. The FY 2011 
budget request provides $4.4 billion over five years for Fissile 
Materials Disposition including the construction of U.S. facilities for 
the disposition of U.S. weapons-grade plutonium in fulfillment of our 
commitment with the Russian Federation under the Plutonium Management 
and Disposition Agreement of September 2000, and provides the first 
$100 million of a $400 million U.S. commitment to advance the 
construction of plutonium disposition facilities in the Russian 
Federation. The FY 2011 budget request also supports a funding increase 
for Nonproliferation and Verification Research and Development for new 
technologies in support of treaty monitoring and verification.

        <bullet>  Leverages Science to Maintain Nuclear Deterrence

    The FY 2011 budget request advances the Department's commitment to 
the national security interests of the United States through 
stewardship of a safe, secure and effective nuclear weapons stockpile 
without the use of underground nuclear testing. As the role of nuclear 
weapons in our Nation's defense evolves and the threats to national 
security continue to grow, the focus of this enterprise must also 
change and place its tremendous intellectual capacity and unique 
facilities in the service of addressing other challenges related to 
national defense. NNSA is taking steps to move in this direction, 
including functioning as a national science, technology, and 
engineering resource to other agencies with national security 
responsibilities. NNSA must ensure our evolving strategic posture 
places the stewardship of our nuclear stockpile, nonproliferation 
programs, counterterrorism, missile defenses, and the international 
arms control objectives into one comprehensive strategy that protects 
the American people and our allies. Through the NNSA, the Department 
requests $7.0 billion for the Weapons Activities appropriation, a 9.8 
percent or $624 million increase from the FY 2010 appropriation. This 
increase provides a strong basis for transitioning to a smaller nuclear 
stockpile, strengthens the science, technology and engineering base, 
modernizes key nuclear facilities, and streamlines the enterprise's 
physical and operational footprint.
    These investments will enable execution of a comprehensive nuclear 
defense strategy based on current and projected global threats that 
relies less on nuclear weapons, yet enhances national security by 
strengthening the NNSA's nuclear security programs. This improved NNSA 
capability base will mitigate the concerns regarding ratification of 
the follow-on Strategic Arms Reduction Treaty and the Comprehensive 
Test Ban Treaty. The FY 2011 request for Weapons Activities has four 
major components. The request for Stockpile Support increases, 
reflecting the President's commitment to maintain the safety, security 
and effectiveness of the nuclear deterrent without underground nuclear 
testing, consistent with the principles of the Stockpile Management 
Program outlined in Section 3113 (a)(2) of the National Defense 
Authorization Act of Fiscal Year 2010 (50 U.S.C. 2524). The request for 
Science, Technology and Engineering increases by over ten percent, and 
provides the funding necessary to protect and advance the scientific 
capabilities at the U.S. nuclear security laboratories supporting the 
stockpile and broader national security and energy issues. The budget 
request for Infrastructure supports the operation and maintenance of 
the government-owned, contractor-operated facilities in the nuclear 
security enterprise, as well as special capabilities for secure 
transportation and construction. The security and counterterrorism 
component of the budget provides for physical and cyber security in the 
NNSA enterprise, as well as emergency response assets and NNSA's 
focused research and development contribution to the Nation's 
counterterrorism efforts.

        <bullet>  Advances Responsible Environmental Cleanup

    The FY 2011 budget includes $6 billion for the Office of 
Environmental Management to protect public health and safety by 
cleaning up hazardous, radioactive legacy waste from the Manhattan 
Project and the Cold War. This funding will allow the program to 
continue to accelerate cleaning up and closing sites, focusing on 
activities with the greatest risk reduction.
    As the Department continues to make progress in completing clean-
up, the FY 2011 budget request of $189 million for the Office of Legacy 
Management supports the Department's long-term stewardship 
responsibilities and payment of pensions and benefits for former 
contractor workers after site closure.
    The Administration has determined that the Yucca Mountain 
repository is not a workable option and has decided to terminate the 
Office of Civilian Radioactive Waste Management. The core functions and 
staff to support efforts under the Nuclear Waste Policy Act to meet the 
obligation of the Government will transfer to the Office of Nuclear 
Energy by the end of FY 2010.

Management: Transforming the Culture of the Department with a Results-
                    Oriented Approach

    In order to transform the way Americans use and produce energy, we 
must transform the Department of Energy. The Department is committed to 
strengthening its management culture and increasing its focus on 
results. The implementation of the Recovery Act provided the Department 
with an opportunity to continue to refine best practices in management, 
accountability, operations, and transparency. These best practices will 
be applied in executing the FY 2011 budget.
    To achieve our strategic priorities, the Department requests a net 
of $169 million for Departmental Administration. These funds, along 
with resources in individual program offices, will help transform key 
functional areas such as human, financial, project, and information 
technology management. The request includes $2 million for Management 
Reform within the Office of the Secretary, which will provide the 
Department with strategic direction, coordination, and oversight of 
reform initiatives.

DEPARTMENT OF ENERGY FY 2011 PROGRAM OFFICE HIGHLIGHTS

Office of Science: Supporting Cutting-Edge Foundational Scientific 
                    Research

    The Department of Energy's Office of Science (SC) delivers 
discoveries and scientific tools that transform our understanding of 
energy and matter and advance the national, economic, and energy 
security of the United States. SC is a primary sponsor of basic 
research in the United States, leading the Nation to support the 
physical sciences in a broad array of research subjects in order to 
improve energy security and address issues ancillary to energy, such as 
climate change, genomics, and life sciences. In FY 2011, the Department 
requests $5.1 billion, an increase of 4.4 percent over the enacted FY 
2010 appropriation, to invest in science research. The FY 2011 request 
supports the President's Plan for Science and Innovation, which 
encompasses the entire SC budget, as part of a strategy to double 
overall basic research funding at select agencies. As part of this 
plan, the budget request supports the training of students and 
researchers in fields critical to our national competitiveness and 
innovation economy, and supports investments in areas of research 
critical to our clean energy future and to making the U.S. a leader on 
climate change.
    SC is addressing critical societal challenges and key missions of 
the Department of Energy through significant improvements in existing 
technologies and development of new energy technologies. SC will 
accomplish this by: (1) sustained investments in exploratory and high-
risk research in traditional and emerging disciplines, including the 
development of new tools and facilities; (2) focused investments in 
high-priority research areas; and (3) investments that train new 
generations of scientists and engineers to be leaders in the 21st 
century. The FY 2011 budget request supports all three of these 
investment strategies.
    Two of the four Energy Innovation Hubs being requested in FY 2011 
are through the Office of Science; these Hubs will bring together teams 
of experts from multiple disciplines to focus on two grand challenges 
in energy: (1) Fuels from Sunlight, a Hub established in FY 2010 and 
(2) Batteries and Energy Storage, a new Hub in the FY 2011 request.
    The Energy Frontier Research Centers (EFRC) program will be 
expanded in the FY 2011 request to capture new, emerging opportunities 
by furthering its scientific reach and potential technological impact. 
New EFRCs will be competitively solicited in two categories: discovery 
and development of new materials that are critical to both science 
frontiers and technology innovations, and basic research for energy 
needs in a limited number of areas that are underrepresented in the 46 
original EFRC awards.
    The FY 2011 request for the U.S. ITER Project ($80 million, a 
decrease of $55 million from FY 2010) is a reflection of the pace of 
ITER construction as of the end of 2009. The Administration is engaged 
in a range of efforts to implement management reforms at the ITER 
Organization and accelerate ITER construction while minimizing the 
overall cost of the Construction Phase for the U.S. and the other ITER 
members.
    The Office of Science supports investigators from more than 300 
academic institutions and from all of the DOE laboratories. The FY 2011 
budget request will support approximately 27,000 Ph.D.s, graduate 
students, undergraduates, engineers, and technicians. Nearly 26,000 
researchers from universities, national laboratories, industry, and 
international partners are expected to use SC scientific user 
facilities in FY 2011.

Advanced Research Projects Agency-Energy: Transformational Research and 
                    Development

    The FY 2011 budget request includes $300 million for the Advanced 
Research Projects Agency-Energy (ARPA-E), a program launched in FY 2009 
that sponsors specific high-risk and high-payoff transformational 
research and development projects that overcome the long-term 
technological barriers in the development of energy technologies to 
meet the Nation's energy challenges, but that industry will not support 
at such an early stage. An essential component of ARPA-E's culture is 
an overarching focus on accelerating science to market. Beyond simply 
funding transformational research creating revolutionary technologies, 
ARPA-E is dedicated to the market adoption of those new technologies 
that will fuel the economy, create new jobs, reduce energy imports, 
improve energy efficiency, reduce energy-related emissions, and ensure 
that the U.S. maintains a technological lead in developing and 
deploying advanced energy technologies.

Office of Energy Efficiency and Renewable Energy: Developing and 
                    Deploying Clean, Reliable Energy

    The Office of Energy Efficiency and Renewable Energy (EERE) 
strengthens the energy security, environmental quality, and economic 
vitality of the U.S. through the research, development, demonstration 
and deployment (RDD&D) of clean energy technologies and generation and 
advances in energy efficiency. EERE's activities are critical to 
creating a low carbon economy and sustaining strong economic growth and 
job creation while dramatically reducing greenhouse gas emissions and 
energy imports. EERE programs link advances in basic research and the 
creation of commercially successful products and services to ensure 
delivery to the marketplace for general use and implementation.
    The FY 2011 budget request of $2.4 billion, an increase of five 
percent over FY 2010, is aimed at accelerating revolutionary change in 
the Nation's energy economy. The request includes programs associated 
with meeting the President's goals of investing in the next generation 
of clean energy technologies, vehicles and fuels, and energy efficiency 
measures that reduce energy use in Federal agencies and the industrial 
and building sectors.

Clean, Renewable Energy Generation
    The FY 2011 budget request continues to work to transform the 
Nation's energy infrastructure by investing over $650 million in a 
variety of renewable sources of electrical generation such as solar 
($302 million, a 22 percent increase over FY 2010), and wind ($123 
million, a 53 percent increase over FY 2010), as well as deploy clean 
technologies to reduce our dependence on oil. The request includes 
expansions on Concentrating Solar Power, biopower and off-shore wind, 
which will provide new, additional avenues for clean energy development 
and deployment.
    These technologies will reduce the production of greenhouse gas 
emissions and revitalize an economy built on the next generation of 
domestic production.

Energy Efficiency
    The Department implements a number of efforts to increase energy 
efficiency and conservation in homes, transportation, and industry. The 
FY 2011 budget requests $758 million to accelerate deployment of clean, 
cost-effective, and rapidly deployable energy conservation measures in 
order to reduce energy consumption in residential and commercial 
buildings, and the industrial and Federal sectors. The Department will 
invest $231 million in the Building Technologies program, a 16 percent 
increase over FY 2010 for built environment R&D. Federal assistance for 
state-level programs such as State Energy Program grants ($75 million) 
and Weatherization Assistance Program ($300 million), will continue to 
help citizens implement energy conservation measures, lower energy 
costs and greenhouse gas emissions, and build a technical workforce. 
The FY 2011 request also includes $545 million to accelerate research, 
development and deployment of advanced fuels and vehicles to reduce the 
use of petroleum and greenhouse gas emissions. The FY 2011 budget 
complements the Recovery Act funding for these programs ($3.1 billion 
for State Energy Programs, $5 billion for Weatherization Assistance, $2 
billion for Advanced Battery Manufacturing and $400 million for 
Transportation Electrification).

Office of Electricity Delivery and Energy Reliability: Moving Toward a 
                    More Intelligent Grid to Power the Digital Economy

    The FY 2011 budget request for the Office of Electricity Delivery 
and Energy Reliability (OE) budget is $186 million, an increase of 
eight percent over FY 2010. These funds will build on the ``Smart 
Grid'' investments and other activities.
    The ability of the United States to meet the growing demand for 
reliable electricity is challenged by an aging power grid under 
mounting stress. Despite the increasing demand for reliable power 
brought on by the modern digital economy, the power grid in the U.S. 
has suffered from a long period of underinvestment. Much of the power 
delivery system was built on technology developed over 50 years ago and 
thus responds to disturbances with speed limited by the technology of 
that period. This limitation increases the vulnerability of the power 
system to outages that can spread quickly and impact whole regions. 
Breakthroughs in digital network controls, transmission, distribution, 
and energy storage will make the power grid more efficient, alleviating 
the stress on the system, as well as enable greater use of clean and 
distributed energy sources. The return on these investments will come 
from a reduction in economic losses caused by power outages and the 
delay or avoidance of costly investment in new generation and 
transmission infrastructure.
    The budget request provides $144 million for research and 
development, which supports development of technologies that will 
improve the reliability, efficiency, flexibility, functionality, and 
security of the Nation's electricity delivery system. It accelerates 
investment in energy storage capabilities and funds two new research 
initiatives: Advanced Modeling Grid Research, to develop grid-modeling 
capabilities using the large volumes of data generated by advanced 
sensors deployed on the grid; and Power Electronics, to develop new 
power control devices in collaboration with universities. The proposal 
also continues to support the development of ``Smart Grid'' 
technologies and cyber security systems for the power grid.
    The budget request continues support for Permitting, Siting, and 
Analysis ($6.4 million) to assist States, regional entities, and other 
Federal agencies in developing policies and programs aimed at 
modernizing the power grid; and for Infrastructure Security and Energy 
Restoration ($6.2 million) to enhance the reliability and resiliency of 
U.S. critical infrastructure and facilitate its recovery from energy 
supply disruptions.

Office of Environmental Management: Reducing Risks and Making Progress

    The mission of the Office of Environmental Management (EM) is to 
complete the safe cleanup of the environmental legacy brought about 
from over six decades of nuclear weapons development, production, and 
Government-sponsored nuclear energy research. This cleanup effort is 
the largest in the world, originally involving two million acres at 107 
sites in 35 states, dealing with some of the most dangerous materials 
known to man.
    EM continues to pursue its cleanup objectives within the overall 
framework of achieving the greatest comparative risk reduction benefit 
and overlaying regulatory compliance commitments and best business 
practices to maximize cleanup progress. To support this approach, EM 
has prioritized its cleanup activities:

        <bullet>  Activities to maintain a safe and secure posture in 
        the EM complex

        <bullet>  Radioactive tank waste stabilization, treatment, and 
        disposal

        <bullet>  Used nuclear fuel storage, receipt, and disposition

        <bullet>  Special nuclear material consolidation, processing, 
        and disposition

        <bullet>  High priority groundwater remediation

        <bullet>  Transuranic and mixed/low-level waste disposition

        <bullet>  Soil and groundwater remediation

        <bullet>  Excess facilities deactivation and decommissioning

    The FY 2011 budget request for $6.0 billion will fund activities to 
maintain a safe and secure posture in the EM complex and make progress 
against program goals and compliance commitments, including reduction 
of highest risks to the environment and public health, use of science 
and technology to reduce life cycle costs, and reduction of EM's 
geographic footprint by 40 percent by 2011. EM continues to move 
forward with the development of the capability for dispositioning tank 
waste, nuclear materials, and used nuclear fuel. The budget request 
includes the construction and operation of three unique and complex 
tank waste processing plants to treat approximately 88 million gallons 
of radioactive tank waste for ultimate disposal. It will also fund the 
solid waste disposal infrastructure needed to support disposal of 
transuranic and low-level wastes generated by high-risk activities and 
the footprint reduction activities. In addition to the FY 2011 budget 
request, EM will continue to expend the $6 billion in Recovery Act 
funding provided by Congress to complete lower-risk footprint reduction 
and near-term completion cleanup activities.
    EM carries out its cleanup activities with the interests of 
stakeholders in mind. Most importantly, EM will continue to fulfill its 
responsibilities by conducting cleanup within a ``Safety First'' 
culture that integrates environment, safety, and health requirements 
and controls into all work activities to ensure protection to the 
workers, public, and the environment, and adheres to sound project and 
contract management principles. EM is also strengthening its project 
and planning analyses to better assess existing priorities and identify 
opportunities to accelerate cleanup work. Working collaboratively with 
the sites, EM continues to seek aggressive but achievable strategies 
for accelerating cleanup of discrete sites or segments of work. In 
addition, functional and cross-site activities such as elimination of 
specific groundwater contaminants, waste or material processing 
campaigns, or achievement of interim or final end-states are being 
evaluated.
    After the EM program completes cleanup and closure of sites that no 
longer have an ongoing DOE mission, post closure stewardship activities 
are transferred to the Office of Legacy Management (LM). LM also 
receives sites remediated by the U.S. Army Corps of Engineers (Formerly 
Utilized Sites Remedial Action Program) and private licensees (Uranium 
Mill Tailings Radiation Control Act, Title II sites). Post closure 
stewardship includes long-term surveillance and maintenance activities 
such as groundwater monitoring, disposal cell maintenance, records 
management, and management of natural resources at sites where active 
remediation has been completed. At some sites the program includes 
management and administration of pension and post-retirement benefits 
for contractor retirees.
    The Administration has determined that developing a repository at 
Yucca Mountain, Nevada, is not a workable option and has decided to 
terminate the Office of Civilian Radioactive Waste Management (RW). The 
Nation needs a different solution for nuclear waste disposal. As a 
result, in 2010, the Department will discontinue its application to the 
U.S. Nuclear Regulatory Commission for a license to construct a high-
level waste geologic repository at Yucca Mountain and establish a Blue 
Ribbon Commission to inform the Administration as it develops a new 
strategy for nuclear waste management and disposal. All funding for 
development of the Yucca Mountain facility and RW will be eliminated by 
the end of FY 2010. The Administration remains committed to fulfilling 
its obligations under the Nuclear Waste Policy Act. The Office of 
Nuclear Energy will develop an integrated approach to improve the waste 
management options for the Nation and support the Blue Ribbon 
Commission. Ongoing responsibilities under the Nuclear Waste Policy 
Act, including administration of the Nuclear Waste Fund and the 
Standard Contract, will continue under the Office of Nuclear Energy, 
which will lead future waste management activities.

Innovative Technology Loan Guarantee Program and Advanced Technology 
                    Vehicle Manufacturing Program: Supporting 
                    Investment in Innovation and Manufacturing

    To encourage the early commercial production and use of new or 
significantly improved technologies in energy projects, the Department 
is requesting an additional $36 billion in authority to guarantee loans 
for nuclear power facilities and $500 million in appropriated credit 
subsidy for the cost of loan guarantees for renewable energy systems 
and efficient end-use energy technology projects under section 1703 of 
the Energy Policy Act of 2005. The additional loan authority for 
nuclear power projects will promote near-term deployment of new plants 
and support an increasing role for private sector financing. The 
additional credit subsidy will allow for investment in the innovative 
renewable and efficiency technologies that are critical to meeting the 
Administration's goals for affordable, clean energy, technical 
leadership, and global competitiveness.
    The FY 2011 budget also requests $58 million to evaluate 
applications received under the eight solicitations released to date 
and to ensure efficient and effective management of the Loan Guarantee 
Program. This request will be offset by collections authorized under 
Title XVII of the Energy Policy Act of 2005 (P.L. 109-8).
    The Advanced Technology Vehicle Manufacturing program requests $10 
million to support ongoing loan and loan monitoring activities 
associated with the program mission of making loans to automobile and 
automobile part manufacturers for the cost of re-equipping, expanding, 
or establishing manufacturing facilities in the United States to 
produce advanced technology vehicles or qualified components, and for 
associated engineering integration costs.

Office of Nuclear Energy: Investing in Energy Security and Technical 
                    Leadership

    The Department is requesting $912 million for the Office of Nuclear 
Energy (NE) in FY 2011--an increase of five percent over the FY 2010 
enacted level. NE's funding supports the advancement of nuclear power 
as a resource capable of meeting the Nation's energy, environmental, 
and national security needs by resolving technical, cost, safety, 
proliferation resistance, and security barriers through research, 
development, and demonstration as appropriate.
    Currently, nuclear energy supplies approximately 20 percent of the 
Nation's electricity and over 70 percent of clean, non-carbon producing 
electricity. Over 100 nuclear power plants are offering reliable and 
affordable baseload electricity in the United States, and they are 
doing so without air pollution and greenhouse gas emissions. NE is 
working to develop innovative and transformative technologies to 
improve the competitiveness, safety and proliferation resistance of 
nuclear energy to support its continued use.
    The FY 2011 budget supports a reorganized and refocused set of 
research, development, and demonstration (RD&D) activities. This 
program is built around exploring, through RD&D: technology and other 
solutions that can improve the reliability, sustain the safety, and 
extend the life of current reactors; improvements in the affordability 
of new reactors to enable nuclear energy to help meet the 
Administration's energy security and climate change goals; 
understanding of options for nuclear energy to contribute to reduced 
carbon emissions outside the electricity sector; development of 
sustainable nuclear fuel cycles; and minimization of risks of nuclear 
proliferation and terrorism.
    NE is requesting $195 million for Reactor Concepts Research, 
Development and Deployment. This program seeks to develop new and 
advanced reactor designs and technologies. Work will continue on 
design, licensing and R&D for the Next Generation Nuclear Plant to 
demonstrate gas-cooled reactor technology in the United States. The 
program also supports research on Generation IV and other advanced 
designs and efforts to extend the life of existing light water 
reactors. In FY 2011, NE will initiate a new effort focused on small 
modular reactors, a technology the Department believes has promise to 
help meet energy security goals.
    The FY 2011 request includes $201 million for Fuel Cycle Research 
and Development to perform long-term, results-oriented science-based 
R&D to improve fuel cycle and waste management technologies to enable a 
safe, secure, and economic fuel cycle. The budget also requests $99 
million to support a new R&D program, Nuclear Energy Enabling 
Technologies, focused on the development of cross-cutting and 
transformative technologies relevant to multiple reactor and fuel cycle 
concepts. The Crosscutting Technology Development activity provides 
crosscutting R&D support for nuclear energy concepts in areas such as 
reactor materials and creative approaches to further reduce 
proliferation risks. The Transformative Nuclear Concepts R&D activity 
will support, via an open, competitive solicitation process, 
investigator-initiated projects that relate to any aspect of nuclear 
energy generation including, but not limited to, reactor and power 
conversion technologies, enrichment, fuels and fuel management, waste 
disposal, and nonproliferation, to ensure that good ideas have 
sufficient outlet for exploration. The Energy Innovation Hub for 
Modeling and Simulation will apply existing modeling and simulation 
capabilities to create a ``virtual'' reactor user environment to 
simulate an operating reactor. NE will also continue its commitments to 
investing in university research, international cooperation, and the 
Nation's nuclear infrastructure--important foundations to support 
continued technical advancement.

Office of Fossil Energy: Abundant and Affordable Energy for the 21st 
                    Century

    The FY 2011 budget request of $760 million for the Office of Fossil 
Energy (FE) will help ensure that the United States can continue to 
rely on clean, affordable energy from traditional domestic fuel 
resources. The United States has 25 percent of the world's coal 
reserves, and fossil fuels currently supply 86 percent of the Nation's 
energy.
    The Department is committed to advancing Carbon Capture and Storage 
(CCS) technologies in order to promote a cleaner and more efficient use 
of fossil fuels. In addition to significant Recovery Act funds, 
Advanced CCS with $438 million requested in FY 2011 is the foundation 
of the Department's clean coal research program which seeks to 
establish the capability of producing electricity from coal with near-
zero atmospheric emissions.
    In addition, $150 million of FE's $760 million request will be used 
to promote national energy security through the continued operations of 
both the Strategic Petroleum Reserve and Northeast Home Heating Oil 
Reserve programs. These programs protect the Nation and the public 
against economic damages from potential disruptions in foreign and 
domestic petroleum supplies.

Energy Information Administration: Providing Independent Statistics and 
                    Analysis

    The FY 2011 request for the Energy Information Administration (EIA) 
is $128.8 million, which is an $18.2 million increase over the FY 2010 
current appropriation. EIA conducts a comprehensive data collection 
program through more than 60 surveys that cover the full spectrum of 
energy sources, end uses, and energy flows; generates short- and long-
term domestic and international energy projections; and performs 
informative energy analyses. EIA disseminates its data products, 
analyses, reports, and other information services to customers and 
stakeholders primarily through its website.
    The increased funding improves EIA's capability to close energy 
information gaps, strengthen analysis, and address significant data 
quality issues. It provides for an expanded survey of energy 
consumption in commercial buildings that will provide more baseline 
information critical to understanding energy use. That survey also is a 
basis for benchmarking and performance measurement for energy 
efficiency programs. The budget request also provides for: expanded 
analysis of energy market behavior and data to address the increasingly 
important interrelationship of energy and financial markets; continued 
implementation of improvements in data coverage, quality and 
integration; upgrades to the National Energy Model; and initiation of 
efforts to track and analyze the adoption of ``Smart Grid'' 
technologies and dynamic electricity pricing plans.

The National Nuclear Security Administration: Ensuring America's 
                    Nuclear Security and Reducing the Global Threat of 
                    Nuclear Proliferation

    The National Nuclear Security Administration (NNSA) continues 
significant efforts to meet Administration priorities, leveraging 
science to promote U.S. national security objectives. The FY 2011 
President's budget request is $11.2 billion, an increase of 13 percent 
from the enacted FY 2010 appropriation. The FY 2011-2015 President's 
Request for the NNSA is a significant funding increase over FY 2010 
levels, reflecting the President's priorities on global nuclear 
nonproliferation and for strengthening the nuclear security posture of 
the United States to meet defense and homeland security-related 
objectives:

        <bullet>  Broaden and strengthen the NNSA's science, technology 
        and engineering mission to meet national security needs

        <bullet>  Work with global partners to secure all vulnerable 
        nuclear materials around the world within four years

        <bullet>  Work towards a world with no nuclear weapons. Until 
        that goal is achieved, ensure the U.S. nuclear deterrent 
        remains safe, secure and effective

        <bullet>  Transform the Nation's Cold-War era weapons complex 
        into a 21st century national security enterprise

        <bullet>  Provide safe and effective nuclear propulsion for 
        U.S. navy warships

    The FY 2011 budget request of $7.01 billion for the Weapons 
Activities appropriation provides funding for a wide range of programs. 
Some activities provide direct support for maintaining the nuclear 
weapon stockpile, including stockpile surveillance, annual assessments, 
life extension programs, and warhead dismantlement. Science, Technology 
and Engineering programs are focused on long-term vitality in science 
and engineering, and on performing R&D to sustain current and future 
stockpile stewardship capabilities without the need for underground 
nuclear testing. These programs also provide a base capability to 
support scientific research needed by other elements of the Department, 
to the Federal Government national security community, and the academic 
and industrial communities. Infrastructure programs support facilities 
and operations at the government-owned, contractor-operated sites, 
including activities to maintain and steward the health of these sites 
for the long term. Security and counterterrorism activities leverage 
the unique nuclear security expertise and resources maintained by NNSA 
to other Departmental offices and to the Nation.
    The Weapons Activities request is an increase of 9.8 percent over 
the FY 2010 enacted level. This level is sustained and increased in the 
later outyears. The multi-year increase is necessary to reflect the 
President's commitment to maintain the safety, security and 
effectiveness of the nuclear deterrent without underground nuclear 
testing, consistent with the principles of the Stockpile Management 
Program outlined in Section 3113 (a)(2) of the National Defense 
Authorization Act of Fiscal Year 2010 (50 U.S.C. 2524). Increases are 
provided which directly support of the nuclear weapon stockpile, for 
scientific, technical and engineering activities related to maintenance 
assessment and certification capabilities, and for recapitalization of 
key nuclear facilities. The President's Request provides funding 
necessary to protect the human capital base at the national 
laboratories--including the ability to design and certify nuclear 
weapons--through a stockpile stewardship program that fully exercises 
these capabilities. Security and nuclear counterterrorism activities 
decrease about three percent from the FY 2010 appropriated levels, 
leveraging the continuing efficiencies in the Defense Nuclear Security 
budget.
    The FY 2011 request for Defense Nuclear Nonproliferation is $2.7 
billion, an increase of 25.8 percent over the FY 2010 appropriation. 
The increase is driven by the imperative for U.S. leadership in 
nonproliferation initiatives both here and abroad. In addition to the 
programs funded solely by the NNSA, our programs support the Department 
of Energy mission to protect our national security by preventing the 
spread of nuclear weapons and nuclear materials to terrorist 
organizations and rogue states. These efforts are implemented in part 
through the Global Partnership against the Spread of Weapons and 
Materials of Mass Destruction, formed at the G8 Kananaskis Summit in 
June 2002, and the Global Initiative to Combat Nuclear Terrorism, 
launched in Rabat, Morocco, in October 2006.
    The FY 2011 President's request for International Nuclear Materials 
Protection and Cooperation reflects selective new security upgrades to 
buildings and areas that were added to the cooperation after the 
Bratislava Summit, additional Second Line of Defense sites, and 
sustainability support for MPC&A upgrades. The Global Threat Reduction 
Initiative increases by 68 percent in support of the international 
effort to secure vulnerable nuclear materials around the world within 
four years. The Fissile Materials Disposition program increases by 47 
percent reflecting continuing domestic construction of the MOX Fuel 
Fabrication Facility and the Waste Solidification Building, as well as 
design documentation for a related pit disassembly and conversion 
capability. A portion of the funding increase results from the transfer 
of funding associated with the latter activity from the Weapons 
Activities appropriation starting in 2011.
    The President's request of $1.1 billion for Naval Reactors is an 
increase of 13.3 percent over the FY 2010 appropriated level. The 
program supports the U.S. Navy's nuclear fleet, comprised of all of the 
Navy's submarines and aircraft carriers, including 52 attack 
submarines, 14 ballistic missile submarines, 4 guided missile 
submarines, and 11 aircraft carriers. These ships are relied on every 
day, all over the world, to protect our national interests. Starting in 
FY 2010, there are major new missions for the NNSA Naval Reactors 
program. A significant funding increase is requested for the OHIO Class 
submarine replacement and for the related activity which will 
demonstrate new submarine reactor plant technologies as part of the 
refueling of the land-based prototype reactor. R&D is underway now, and 
funding during this Future Years Nuclear Security Program is critical 
to support the long manufacturing spans for procurement of reactor 
plant components in 2017, and ship procurement in 2019. Resources are 
also included in FY 2011 to support commencement of design work for the 
recapitalization of used nuclear fuel infrastructure.
    The Office of the Administrator appropriation provides for Federal 
program direction and support for NNSA's Headquarters and field 
installations. The FY 2011 request is $448.3 million, a 6.5 percent 
increase over the FY 2010 appropriation. This provides for well-
managed, inclusive, responsive, and accountable organization through 
the strategic management of human capital, enhanced cost-effective 
utilization of information technology, and integration of budget and 
performance through transparent financial management practices.

Management: Transforming the Culture of the Department with a Results-
                    Oriented Approach

    To transform the way Americans use and produce energy, we need to 
transform the Department of Energy. Because the mission of the 
Department is vital and urgent, it must be pursued using a results-
oriented approach that is safe, fiscally responsible, and legally and 
ethically sound. The Department has developed strong management and 
oversight capabilities during implementation of the Recovery Act, and 
these lessons will be applied to the FY 2011 budget. The budget request 
of $337 million for corporate management includes $75 million for the 
Office of Management, $102 million for the Office of the Chief 
Information Officer, $43 million for the Inspector General's office, 
$62.7 million for the Office of the Chief Financial Officer, $37 
million for the Office of General Counsel, and $2 million for 
Management Reform within the Office of the Secretary. The Management 
Reform effort will provide the Department with strategic direction, 
coordination, and oversight of management initiatives. The primary 
mission of this new office is to identify operational efficiencies to 
free up resources for priority mission activities. The Department is 
also requesting $12 million for a new Acquisition Workforce Improvement 
initiative which will be utilized to increase the size and improve the 
training of our acquisition professionals.
    The Department's human capital management efforts are focused on an 
integrated approach that ensures human capital programs and policies 
are linked to the Department's missions, strategies, and strategic 
goals, while providing for continuous improvement in efficiency and 
effectiveness. To accomplish this goal, the Department will develop 
different strategies to attract, motivate and retain a highly skilled 
and diverse workforce to meet the future needs of the Nation in such 
vital areas as scientific discovery and innovation.
    To improve stewardship of taxpayer dollars, the Department will 
continue to issue audited financial statements in an accelerated 
timeframe and provide assurance that the Department's financial 
management meets the highest standards of integrity. The Department's 
FY 2009 financial statements were reviewed by independent auditors and 
received an unqualified opinion. This was made possible by implementing 
an aggressive plan to mitigate and remediate a number of financial 
management challenges that were identified by the Department and its 
independent auditors. In addition, the Department continues to 
strengthen the execution of program funding dollars by having regular 
execution reviews that will ensure funding is processed, approved and 
spent quickly and responsibly. The Department in FY 2011 will continue 
its effort to build and improve its integrated business management 
system.
    The Department is continuing to make progress in improving project 
management and is implementing an action plan with scheduled milestones 
and aggressive performance metrics. The focus of the action plan is to 
successfully address the root causes of the major challenges to 
planning and managing Department projects. The action plan identifies 
eight measures that, when completed, will result in significant, 
measurable, and sustainable improvements in the Department's contract 
and project management performance and culture.
    To improve financial performance in project management, the 
Department has increased the use of Earned Value Management (EVM) 
techniques within program offices. These techniques objectively track 
physical accomplishment of work and provide early warning of 
performance problems. A certification process was instituted for 
contractors' EVM systems to improve the definition of project scope, 
communicate objective progress to stakeholders and keep project teams 
focused on achieving progress. Currently, 70 percent of the 
Department's capital asset projects have certified EVM systems.
    The Department continues to strengthen information technology 
management by consistent execution of robust IT Capital Planning and 
Investment Control oversight and reporting processes designed to ensure 
successful investment performance, including the use of EVM Systems as 
appropriate, and the remediation of poorly performing investments. 
Through the establishment and use of an Enterprise Architecture that 
aligns to the Federal Enterprise Architecture, the Department has 
ensured that all IT investments follow a comprehensive Modernization 
Roadmap.
    The Department continues to take significant actions to improve its 
cyber security posture by implementing its Cyber Security 
Revitalization Plan to address long-standing, systemic weaknesses in 
the Department's information and information systems. Specifically, the 
Department seeks to ensure that 100 percent of operational information 
technology systems are certified and accredited as secure and that the 
Department's Inspector General has rated the certification and 
accreditation process as ``satisfactory.'' Additional steps will be 
taken to ensure that electronic classified and personally identifiable 
information are secure.

                               Discussion

    Chairman Gordon. Thank you, Dr. Chu. Questions begin now. I 
recognize myself for five minutes.

                   The Cancellation of Yucca Mountain

    The Administration's decision to cancel funding for Yucca 
Mountain has proven to be perhaps the most controversial change 
that the Department has undertaken, yet the Administration 
originally signaled its support for nuclear power and its 
interest in expanding the advanced nuclear fleet through its 
loan guarantee announcement. So in your professional opinion, 
what is the impact of the Administration's Yucca Mountain 
decision on the expansion of nuclear power in the United 
States?
    Secretary Chu. I believe it is going to have no impact on 
our expansion. The NRC has declared that nuclear waste where it 
is now and moving to dry cask storage will be safe for many 
decades. That gives us time to prepare a much better, more 
comprehensive view of what is going on. We know a lot more than 
we did in the early and mid 1980s when the Nuclear Waste Act 
was passed. So this blue ribbon commission now has an 
opportunity to step back, look at the whole template of options 
that exist today and could be developed in the next 20, 30, 50 
years and that is where we are heading.
    Chairman Gordon. As I understand it, they have 18 months to 
report or give an interim report and then six more months to do 
a final report. That seems like a long time. Are you expecting 
it to take that--I mean, is that the outside of it? Are you 
expecting it take that long?
    Secretary Chu. No, that is the outer limit. I think both 
chairmen are very anxious to get started. The first meeting 
will be held, I believe it is March 24th and 25th.
    Chairman Gordon. You have put together a good, balanced 
group so I think that this is an Augustine type of group and so 
we look forward to that particular report.

                  Creating and Retaining Domestic Jobs

    You know, and oftentimes too, we are all concerned about 
taxpayer dollars being used to develop technology through the 
Department of Energy or elsewhere here in this country that 
winds up creating jobs elsewhere. And so with ARPA-E and the 
other programs that you are putting together, are you doing 
anything to help make sure that, you know, the bulk of those 
jobs will stay here in the United States?
    Secretary Chu. It is certainly our intent and our interest. 
First you have to develop the ideas, but you are quite right, 
Mr. Chairman, that you need a comprehensive plan. You need 
investment tax credits, you need a number of things so that you 
keep the manufacturing of these new technologies here in the 
United States. I think that is a very important part of our 
path towards economic--
    Chairman Gordon. So are you working on that package, or is 
it here yet, or when will that be rolled out?
    Secretary Chu. Well, we are working on it but you have to 
get some of the incentives and so that when a manufacturing 
company says--let me just say one of the biggest incentives is 
a home market. If you have a home market for some of the energy 
technologies, what any manufacturer, multinational manufacturer 
wants to do is, they want to manufacture in that home market; 
so the best incentive is to create that home market and that 
demand, and so that is one of the crucial things that will 
hopefully help us.

                        Buy American Strategies

    Chairman Gordon. And when you think of home markets, the 
biggest buyer is of course the Federal Government, and we have 
seen the analogy that with DARPA, that they had a buyer already 
there with the Department of Defense. You know, are there 
efforts to look at how we can make the Federal Government the 
buyer of some of these new technologies even if they may be 10 
percent or 20 percent more expensive? You know, if a new light 
bulb is more expensive than, for example, the contemporary one, 
is there a way that we can give some preference to some level 
so that we can then get that supply chain and can we look at 
with DOD on islands and other remote areas that don't have a 
grid there where the alternative energies, you know, could be 
placed?
    Secretary Chu. That is being done. In fact, DOD as one 
prime example is looking very actively. They have a new, I 
think it is at an assistant secretary level for energy now at 
the Department of Defense. Because of their budget, they can 
actually create some market draw, if you will, and to adopt new 
technologies. They are very concerned about these things, and 
that is precisely one of the strategies we are looking at.
    Chairman Gordon. Well, I think this Congress has shown over 
and over a preference to buy American. I think we might add to 
that, you know, buy American new technology. And so I hope as 
you discuss this that you will come to us if there are 
authorizations or something we need to do to help expand those 
markets.
    Secretary Chu. Oh, I will raise one thing. The budget 
request for $5 million in this advanced manufacturing thing, 
the so-called 48C, that was oversubscribed three to one for the 
first part of it in the Recovery Act, and so we hope that 
Congress will be willing to support that. That is again a key 
to keeping manufacturing here in the United States.
    Chairman Gordon. Thank you, Secretary Chu.
    Mr. Hall is recognized for five minutes.
    Mr. Hall. Thank you, Mr. Chairman.

                      The Ultra-Deepwater Program

    Mr. Secretary, I think we are very fortunate to have more 
than 50 years of natural gas supply, according to the Energy 
Information Administration, and natural gas is a clean source 
of energy. It can help bridge the transition from fossil fuels 
to next-generation fuels. Yet a lot of these reserves are in 
areas that are little difficult to produce economically and 
efficiently, and I have been working for 10 years on the Ultra-
Deep legislation. I know you are very familiar with it. We 
finally passed it and got it in the energy bill that was 
passed, I think, two years ago. 2005, how many years is that? 
You remember my problem with mathematics. But anyway, we 
finally got it into that bill and that bill was passed, and I 
flew out west to Arizona to sign that bill with Senator 
Domenici, the President did, and Joe and I flew with him, and 
at that time he gave everybody a pen but he turned to me and 
said, ``Hall is with us here. He just came along because he 
wanted some free coffee on Air Force One.'' What he didn't know 
was, I had six of his mugs in my briefcase at that time.
    But the long and the short is, we went out there, we signed 
that bill and it was in the bill and our President signed it 
then, and since has tried to take it out, was unable to take it 
out because the House Floor voted not to take it out and it is 
there now. You know, it is based on the fact that we know 
energy is there but we can't get it up, and if we get 
technology to get it up and we trade the energy that they get 
up that they won't get up if they don't get the technology. It 
looks like it makes sense to me.
    Last year I stated my disappointment with the President's 
2010 budget to terminate the Ultra-Deepwater and unconventional 
natural gas and other petroleum resource programs. So again, 
let me express my disappointment that even after our discussion 
on that day in March of 2009, the budget seeks to eliminate the 
Ultra-Deep program, and for that matter, the fossil fuels 
research and development budget. Let me reiterate, I strongly 
disagree with this policy which ignores the ongoing importance. 
Even your own EIA says oil and natural gas will play in our 
domestic energy picture through the year 2035. The energy 
security aspects of this issue are obvious, and after last 
year's hearing where you promised to look into and educate 
yourself to the programs created by section 999 of the Energy 
Policy Act of 2005, I had hoped the scientific and technologic 
contribution would be just as obvious to you.
    I am not going to take up all my time with my question, Mr. 
Chairman. The policy of terminating the Ultra-Deep program is 
especially troubling in light of the fact that this 
Administration has approved a preliminary commitment to lend up 
to $2 billion to Brazil's state-owned oil company, Petrobras, 
to finance offshore deepwater oil exploration in the Santos 
basis near Rio de Janeiro. I don't understand something like 
that. I don't think it makes any sense at all to do that. While 
I am not necessarily opposed to technology transfer to develop 
natural gas resources in our pursuit of energy security, we 
ought to be promoting and using innovative technologies for our 
own domestic exploration. So I guess my question to you is, do 
you support the termination of the Ultra-Deep program?
    Secretary Chu. Yes, I do. If you will allow me to explain, 
I did look into it after our first discussion. First, I do 
believe that natural gas is a transition fuel in this century 
in order to get a clean energy supply. I might also add that 
the Department of Energy since 1978 has explored--and this is, 
I think, one of our real success stories--has explored natural 
gas development in methane coal beds and especially in shale 
gas at a time when the oil and gas companies didn't want to 
look at that, and that is effectively the shale gas supplies 
and the methane coal bed supplies. Most people think it has 
increased our gas reserves from 30 percent to as much as 
doubling our gas reserves.
    My feeling about Deepwater is, we have a methane hydrates 
program that is now shifted over to the Office of Science, but 
it is a program I feel that we should develop. That is still at 
a time when the oil and gas industry does not want to invest in 
it. They are willing to go along but as soon as--I feel and the 
Administration feels, as soon as the oil and gas industry sees 
this and they have the commercial means, the financial means to 
develop that, then we want to let the companies take it over. 
In those instances where commercial companies say this is too 
speculative, we don't want to do this, I think that is the role 
in the Department of Energy. And so the methane hydrates 
program is something I support, the shale gas program 
historically over the years, for 15 years. We stopped it one 
year before that, Chalmers picked it up and said it is perfect. 
And so that is really the strategy we want to use.
    Mr. Hall. But the program has been working the last three 
and a half years at about 20 universities that are producing 
and contributing to it. It pays for itself out of energy that 
we won't get if we don't get the technology. If we get the 
technology, we will get it. And now we are talking about 
transferring that. Let me ask you this. Do you think it is 
acceptable to fund exploration in other countries but not 
domestically?
    Secretary Chu. I am not actually familiar with this loan 
you spoke of, of funding Petrobras, so I would have to look at 
the----
    Mr. Hall. Please do.
    Chairman Gordon. If the Secretary would yield, I think what 
happened is, I think the XM Bank has loan money to Brazil for 
their drilling, but the XM Bank did it at the request of 
American industry. It is American companies' equipment. And so 
it is not the Federal Government, it is XM Bank loaning money 
to buy American equipment then to go to Brazil, as I understand 
it.
    Mr. Hall. And I will repeat my question. It is not who does 
it, but do you think it is acceptable to fund exploration in 
other countries but not domestically when we should be able to 
do it here, when it is proven that we have the repay with what 
we get that we won't get if we don't get it?
    Secretary Chu. I think, you know, the university research 
you speak of, I think that is wonderful but I also think gas 
companies do have the financial resources to support that.
    Mr. Hall. But you will look into it, won't you?
    Secretary Chu. I will look into it again. I will.
    [Additional material submitted for the record follows:]
                   Prepared Response of Secretary Chu
    DOE acknowledges that applied research and development does help 
industry increase domestic resources in an environmentally responsible 
manner. However, given current world oil prices, we expect that major 
oil companies can support ongoing levels of offshore activity.
    Regarding Brazil, the Export-Import Bank of the U.S. (EXIM) decided 
to offer at least $2 billion in loans or loan guarantees to help 
finance purchases of U.S. goods and services by Petrobras. According to 
EXIM's President Fred P. Hochberg, ``This increases the likelihood that 
American--not foreign--workers will be employed to satisfy part of the 
company's planned $175 billion investment during the next five years.'' 
Mr. Hochberg also noted that the mandate of the EXIM is to help create 
and sustain U.S. jobs by financing U.S. exports.

    Mr. Hall. I will ask you next time about it. You are very 
pleasant.
    Secretary Chu. I try to be.
    Mr. Hall. I yield back.
    Chairman Gordon. Mr. Hall is very serious about this too.
    Secretary Chu. I understand.
    Chairman Gordon. We want to look at it and see if there are 
incentives to bring the oil companies to bear here.
    Mr. Wu, you are recognized.
    Mr. Wu. Thank you very much, Mr. Chairman.

                            Energy Hub Goals

    I will be very brief in my questioning, Mr. Secretary, to 
encourage you to take as much time as you in discussing this 
particular topic. I find your rollout of the hub lab concept 
very, very interesting. There are three that are out for 
proposals, and if you could discuss some of your goals, what 
are you looking for in proposals and what you hope to achieve 
over time. I would be very interested, perhaps with the most 
emphasis on the most recent rollout on energy-efficient 
buildings.
    Secretary Chu. Well, the goal is the following. I look 
back, I started thinking about this maybe three or four years 
ago. How do you accelerate innovation? And there were times in 
the United States where you really wanted to accelerate 
innovation. In particular during wartime, we wanted to 
accelerate innovation in the Manhattan Project and the 
development of radar. There was a time when Bell Labs took a 
very long-term view but they also, for example, wanted to 
accelerate innovation in getting rid of those vacuum tubes that 
kept on burning out on them, and so they entered into a program 
to develop a solid-state version of the vacuum tube. So what 
were the common denominators in all these aspects? They put 
scientists together with engineers. They said, we want a 
leadership team and so they are going to span the whole gamut. 
These are the scientific questions we have to answer, but we 
are not going to stop at answering scientific questions. We 
have to go all the way to delivering the goods, put radar on a 
ship or an airplane. We have to deliver the goods and so we 
want this team to be very dedicated. Or we are not going to 
fund the project. You didn't ask Oppenheimer and Fermi and all 
those people, well, give us your idea, we will decide whether 
it is good or not and then after a while we will decide if you 
want us to do something else, we will decide whether you want 
to go. No, we assembled the best team and said solve the 
problem, and you have got to solve it quickly. And because of 
that, these teams of scientists very actively managed, knew on 
a day-by-day, week-by-week basis what was going on, so they 
were much more intimately connected with what was going on than 
one can ever be in Washington. And it was the management team 
of people like Glenn Seaborg who was developing ways to 
separate plutonium chemically, that when you read his diaries, 
he was on top of what was happening every day and said OK, we 
can do this, and something happened. We couldn't get a 
detector, we are going to invent a detector; we can't wait for 
it to be developed by a commercial company. OK. So you can go 
lickety split, and that is the idea. You want to go lickety 
split, you want to go with a team that can actually--the top 
scientists who are actually participating but also great 
managers.
    The selection of these Hubs in large part will be dependent 
on how dedicated and how good these managers will be, not how 
good as scientists but also how good as science managers they 
will be, and that is one of the keys. We want to replicate what 
did work in times of real national need before but now in the 
energy sector.
    Mr. Wu. Mr. Secretary, how do you calibrate the, if you 
will, divide, and perhaps ``divide'' is too strong a term, 
between the research side of the enterprise and the 
engineering/dissemination/economic development side of the 
equation?
    Secretary Chu. Well, let me give you an example of a DOE 
hub, although it is not called a hub. In fact, this was also 
what was in my mind. It was in my old laboratory, Lawrence 
Berkeley Laboratory. It had to do with bioenergy. They came up 
with a breakthrough. The leaders of this hub were some of the 
world leaders in a new field of science called synthetic 
biology, and so they reprogrammed bacteria to, when fed simple 
sugars, produce a direct substitute for gasoline, not something 
that they later refined--you can almost put it in the tank--and 
to overproduce it. I learned about this. It was published in a 
very prestigious journal called Nature. I e-mailed my friend 
and director of the Laboratory, ``this is great, what is the 
time scale, how good does it have to be to be commercially 
viable without subsidy, question number one? What's the 
timeline when you will get an up and down vote?'' He said it is 
going to be within 90 percent of what we think is the 
theoretical maximum. Already, a company, LS9, is running with 
that, and the same team that did the basic research is making a 
little pilot. So those scientists are walking over and they are 
saying we are going to do this, and he said within two years we 
will have an up/down vote to see whether this flies both in the 
LS9 commercial work and from what we are doing.
    So those scientists are actually part of delivering the 
goods, and that institute was founded on a more corporate 
structure, so it is not that a basic scientist hands off to an 
engineer that hands off to some development group. No, they are 
going to walk it. So that is exactly the type of thing I am 
looking for in the other hubs.
    Mr. Wu. Thank you very much, Mr. Secretary. As 
knowledgeable as you are, I think that what I find most 
appealing about your presentation is the passion which you are 
able to convey. Thank you.
    Chairman Gordon. Comrade Rohrabacher.

                       Funding for Nuclear Power

    Mr. Rohrabacher. Mr. Secretary, how much money have we been 
spending on research into nuclear power over the last few years 
and how much are you proposing that we spend this year?
    Secretary Chu. I am going to have to go back and look at 
the exact number but it is on the scale of certainly tens of 
millions. You mean on the very research----
    Mr. Rohrabacher. Research.
    Secretary Chu. I think on the scale of tens to perhaps 100 
million. I have to----
    Mr. Rohrabacher. Annually?
    Secretary Chu. Yes.
    Mr. Rohrabacher. OK. And----
    Secretary Chu. I just reminded myself, the whole nuclear 
R&D, fiscal year 2011 is $503 million, fiscal year 2011 request 
is $500.
    Mr. Rohrabacher. Five hundred million?
    Secretary Chu. Yes.
    Mr. Rohrabacher. And over the years is this an interest or 
this is about what we have been spending?
    Secretary Chu. I have to plead ignorance on what the 
history is.
    Mr. Rohrabacher. OK. Fine. Well, Mr. Secretary, we have 
been spending considerable money on R&D research into nuclear 
energy over the years, and $500 million is a sizable sum. The 
Administration just has announced that the President is behind 
this idea of moving forward, offering some sort of loan 
guarantees that will be available to build a new nuclear power 
plant for the first time in over two decades. Can you tell us 
how that--will there be preconditions that that power plant is 
different than the power plants that were built two decades ago 
before all of this money was spent on trying to research and 
come up with newer ways and better ways of producing nuclear 
energy?
    Secretary Chu. OK. So certainly the power plant, the first 
loan, is a Westinghouse designed power plant. The engineers 
feel it is considerably safer than the older designs of the 
last generation.
    Mr. Rohrabacher. Is it a light water reactor?
    Secretary Chu. It is a light water reactor.
    Mr. Rohrabacher. Mr. Secretary, they were building light 
water reactors 50 years ago.
    Secretary Chu. Absolutely, so----
    Mr. Rohrabacher. Why is it that we are building a light 
reactor that still has leftover waste when there are several 
companies, very substantial companies who say they can build 
reactors that will basically not have that waste problem? 
General Atomics to be one, which is a high-temperature gas-
cooled reactor which says they are going to actually take stuff 
out of Yucca Mountain rather than put it in.
    Secretary Chu. So there is a difference between--let me 
take the questions one at a time. There is a difference with 
this light water reactor. It is much more passively safe. 
Instead of feedback, you know, backup after backup systems, you 
are storing water up high so that if something goes wrong, the 
water runs down due to gravity. It is much, much less likely to 
have any issue based on, oh, if something goes wrong, there is 
another system that backs it up, and if that goes wrong, there 
is another system that backs it up. Because of that, people 
feel that it could be made much less expensively, much less 
investment and also much safer. The reactor you are talking 
about, the General Atomics one, that is part of our $500 
million that we are investing. The next-generation reactor 
after that would be called Gen 4, gas-cooled reactors. We want 
to support that as well.
    But nuclear takes time and so even developing the next 
generation of light water, still safer reactors, while you are 
doing that, we also want to support these things like the 
General Atomics reactor.
    Mr. Rohrabacher. Mr. Secretary, I would suggest that we 
should not be basing our next generation of nuclear energy that 
now we are investing in with something that substantial is an 
old concept, they are steam engines, when we have some 
revolutionary ideas coming out and that should be our focus 
rather than spending money on the old stuff.

                              Solar Energy

    Mr. Secretary, are you aware that the Bureau of Land 
Management has not given one permit for a solar energy project 
on Bureau of Land Management land? There are 105 of them that 
have been waiting five years. Are you aware of that?
    Secretary Chu. No, I am not.
    Mr. Rohrabacher. OK. Well, I would hope that you would look 
into this. This is unconscionable. At a time when we are 
talking about developing alternative sources of energy, making 
us self-sufficient, and is it your understanding--I have got 
about 15 seconds left--that we can now build solar facilities 
in places like the desert that would be competitive with 
producing electricity with the coal-fired plants and oil-fired 
plants?
    Secretary Chu. Getting there. In all honesty, not quite. 
They still need a little help. But let me return a little bit 
back to, there is a distinction between our $500 million in 
research. We are not researching light water reactors of the 
type that are being--you know, like the Westinghouse AP-1000. 
We are researching the gas-cooled reactors of General Atomics. 
The loan guarantees which are scored--the Department is Energy 
is tasked to convince OMB that it will cost the taxpayer zero 
dollars and so I think this is not fully appreciated. So those 
loan guarantees are self-pay, you know, the assets of the 
company, the stability of the company, the fact that they are 
loan guaranteed for the first run, went to a consortium of 
companies that already had pre-purchased power agreements for 
the nuclear power, very, very different. That is to just get, 
you know, today's technology going again--it is actually not 
today's, it is tomorrow's in the sense that we don't have 
operating in the world an AP-1000. But in the meantime, the 
$500 million are to look at much better reactors, much newer 
concepts, smaller modular reactors, things of that nature, and 
so that is what we are--
    Mr. Rohrabacher. We are capable of doing that. We should be 
building them rather than just research upon research.
    Secretary Chu. I agree. I mean, the small modular reactors, 
Babcock and Wilcox wants to develop them. We will help to down-
select which ones will apply for an NRC license.
    Mr. Rohrabacher. Thank you very much, Mr. Secretary.
    Chairman Gordon. Thank you, Mr. Rohrabacher.
    And Dr. Baird is recognized--excuse me. Mr. Lujan is 
recognized.

                      Commercializing Technologies

    Mr. Lujan. Mr. Chairman, thank you very much. Mr. Chairman, 
thank you very much as well.
    Secretary Chu, I want to commend you on a recent 
appointment that you made in appointing Karina Edmonds as 
National Technology Transfer Coordinator in the Office as well. 
I think this signals an important relationship going forward 
with our DOE laboratories and moving forward towards 
commercializing some of the technology that is being developed 
by some of the brightest that we have in the country. Your 
emphasis in your statements around innovation, that there that 
will be breakthroughs and better technologies to meet our long-
term goals, these efforts that were highlighted by the 
President as well and as reflected in the budget with 
innovation, investments in science, discovery and innovation, 
to provide solutions to pressing energy challenges. And Mr. 
Secretary, as we talk about these programs and completely 
understanding how we can create more jobs, we can do a better 
job of commercializing some of these big ideas and finding ways 
to get them to the marketplace so that we engage in 
manufacturing domestically, so that is something that I am 
anxious to see more of.
    Two weeks ago, I had a visit to Los Alamos National 
Laboratories and talked to them about a program that is 
supported by corporate funding called North New Mexico Connect, 
which supports opportunities for small businesses and for some 
of our scientists, physicists, engineers to use 
entrepreneurialship to commercialize these ideas and to take 
part in these projects, but I was discouraged that there didn't 
seem to be a serious investment coming from DOE itself as 
opposed to the partnership that was put together with the 
corporate funding, and so Mr. Secretary, I would ask for you to 
comment on what you feel the role of DOE is, what can we expect 
from a funding perspective to support efforts like that within 
our DOE laboratories, specifically at NNSA DOE laboratories, to 
help engage in promoting some of these big ideas, creating the 
jobs which will lead to some commercialization manufacturing 
domestically?
    Secretary Chu. Well, first, thank you for recognizing that 
appointment. I think she is wonderful, and it is something--
when I walked into the--before I walked into the job, when I 
walked into the job of laboratory director of the Lawrence 
Berkeley Lab, one of the first things I did was to get the 
person in charge of technology licensing from Stanford, which 
has a very good reputation and a truly outstanding reputation 
nationwide, worldwide, for taking discoveries out of the 
laboratory and getting them into the commercial sector. And so 
this person as a favor to me came over and spent a day to say 
how we can improve things. Probably the most important thing I 
did when I was director is--you know, every year there is a 
merit review. There is no salary adjustment of our scientists 
and engineers. So every year there is a merit review, and there 
were many criteria, about 12, 15. I lowered it to four or five. 
Number two after quality of papers, was patents and 
disclosures. It wasn't listed before. And a remarkable thing 
happened. The number of patents and disclosures all of a sudden 
started to pick up just by that single stroke of the pen; you 
know, you are going to be judged on how many patents and 
disclosures you produce.
    And so there are many things that actually can be done for 
free. We want to do this now Department-wide. There is a reason 
why--I mean, we in the Department of Energy feel that we are 
going to be responsible for the entire innovation chain from 
the basic research all the way to not only the applied 
research, development, piloting, getting it out to deployment, 
but also deployment to scale, and so we--and the entire energy 
sector because we feel that the energy sector, since it reaches 
every part of U.S. life, will be a key future to our future 
prosperity. So we want very much for the private sector to be 
picking up these things because of the fact that we fund the 
most physical science in the United States, you know, the 
national lab assets, the people in universities are some of the 
best things we have in the United States. That is our 
competitive edge. And so we are going to be very focused on 
that.
    Mr. Lujan. Well, I appreciate that very much, Mr. 
Secretary, and would ask for your consideration on how we could 
tie fees with our laboratories to exactly what you saw from 
behavior with getting more patents out and things of that 
nature.
    And lastly, Mr. Secretary, I just want to tell you that I 
anxiously await the announcement for consideration for an 
individual to fill the Administrator position for Defense 
Nuclear Nonproliferation as we talk about the concerns and what 
has been highlighted by this Administration to make sure we 
bring attention to securing loose nuclear materials in addition 
to everything else associated with it. I very much appreciate 
that.
    Thank you very much for my time today, Mr. Chairman.
    Chairman Gordon. Dr. Bartlett is recognized for five 
minutes.
    Mr. Bartlett. Thank you.

                   The Mix of Domestic Energy Sources

    Mr. Secretary, I would like to ask a couple of questions to 
kind of put our energy challenge in perspective. France gets, 
what, 75, 80 percent of its electricity from nuclear. Are you 
pretty sanguine about our and the world's electricity energy 
future with more nuclear, with wind, with solar, with 
microhydro, with true geothermal where we are tapping into the 
molten core of the earth?
    Secretary Chu. I think we are going to need all those 
things as well as much improved generation of conventional 
sources to use our fossil fuel sources in a much cleaner way. 
For example, as you well know, we are deeply committed to 
developing the technologies in carbon capture and sequestration 
so we can continue to use coal in the United States but in an 
environmentally responsible way. So we need all these things.
    Mr. Bartlett. Is not the liquid fuels energy future a bit 
more challenging? I understand that the world is now pumping 
and using about 84 million barrels of oil a day. That is 
correct?
    Secretary Chu. I agree with you. The liquid fuels part is 
the most challenging. So the strategy, if you will bear with me 
for 30 seconds, it has to be multifaceted. Number one, we are 
investing in trying to electrify personal vehicle 
transportation for short range, 50 miles to a couple hundred 
miles. That would offload some of it. We are investing in next-
generation biofuels that will give you much less fossil fuel 
investment in order to get per liter of fuel. We quite frankly 
see ethanol as a transition fuel. It is fine for now but we 
would like to, like that experiment I just told you about----
    Mr. Bartlett. May I ask you a question about liquid fuels 
future? The world uses about 84 million barrels of oil a day. 
We use a fourth of that. We are going to find more oil but we 
would like to use more oil because we like our economy to grow. 
The industrialized world would like to use more oil. The 
developing world, like India and China, would like to use a lot 
more oil. Would you agree that the more oil that we all like to 
use, that we will be kind of lucky if we can find that much 
more oil in the world?
    Secretary Chu. I actually think, so what is happening now 
is, there is conventional oil and then there is what is called 
non-conventional oil or deep offshore oil and so as the demand 
grows, especially in the developing countries, the overall 
world demand is projected by IEA [International Energy Agency], 
the EIA [Energy Information Administration], all these--to 
actually grow, the OECD countries probably to plateau but 
because of China, India and other developing countries, the 
overall demand will grow. But I see a transition already 
happening now from conventional oil on shore to offshore to 
harder-to-get oil to things of that nature.
    Mr. Bartlett. That is true, sir. The more expensive oil is, 
the more oil we are going to be able to pump because the new 
oil we are finding is more difficult to get. We use 84 million 
barrels of oil a day. That means in roughly 12 days we use a 
billion barrels of oil, correct? It is pretty simple 
arithmetic.
    Secretary Chu. Yes. I will trust you.
    Mr. Bartlett. Eighty-four million barrels of oil a day. 
That means in 12 days we use a billion barrels of oil. So when 
somebody talks about that we found 10 billion barrels of oil, 
that is going to last us 120 days.
    Secretary Chu. That is right.
    Mr. Bartlett. Big deal.
    Secretary Chu. Well----
    Mr. Bartlett. I use the numbers from your Department, the 
reserves that Saudi Arabia has, the reserves that Russia has 
and the percentage of the world's oil. They have roughly the 
same figure when I use those, when I compute from those.
    The world has today about 1.2, 1.3 trillion barrels of oil. 
I think there is general agreement. There has been general 
agreement on that for about a decade now, that that is the 
amount of oil we find. Sir, if I divide into that, you know, 
every 12 days we use a billion barrels of oil, we have enough 
oil at the rate we are now using it to last 40 years. That is 
all. Now, it is not going to be 40 years like we are using it 
now and then fall off a cliff. It is going to be ever harder 
and harder to get, more and more expensive.
    Sir, I don't see this budget anywhere near recognizing the 
urgency that we need to have to address that. You agreed that 
the amount of oil that we are likely to find, we are going to 
be more than lucky if the more oil we find is equal to the more 
oil that we would like to use and the developing world would 
like to use. So with almost seven billion people facing 40 
years of oil, don't you think we ought to have more urgency 
about substitutes?
    Secretary Chu. We are working very hard on that, but let me 
also remind you that the oil recovery is getting better and 
better. Before--you know, you stick a hole in the ground, you 
get five percent out. You start pumping water though it, you 
get more out. Now the average oil recovery is around 30, 35 
percent of the oil in the ground and those reservoirs can 
actually be pumped up, moving to 50 percent, so a lot of things 
are happening that enable you to recover more oil in your 
proven reservoirs. Saudi Arabia is now talking 50 percent 
recovery average of their reservoirs and they think they can 
get to 70 percent. So I would say it is not clear to me that we 
will run out of oil in 40 years based on these trends, and 
based on the fact that we are learning how to recover what we 
used to think were inaccessible forms of oil. But let me also 
say that there is an urgency, I feel an urgency for--
transportation fuel is the hardest. If you look at the energy 
density in jet plane fuel and diesel fuel, it is astoundingly 
high. To replace an airplane or a long-haul truck or a boat 
with something else aside from liquid fuel is difficult and so 
we are looking towards ways of getting substitutes. You know, 
the Secretary of the Navy wants, I think by 2030, to decrease 
fossil fuel use in the Navy, to get substitutes which include 
efficiency and also biofuels, to decrease fossil fuel use by 50 
percent. So there are plans out there. You know, I hope we can 
get there. There are plans out there that we want to look at 
this very aggressively and so there is a sense of urgency 
because it will take time to deploy these things to scale, but 
also we want to clean up our oil supply as well because there 
is a carbon issue. That is why electrification of personal 
vehicles is something I think we can do and so there is urgency 
there. We do want to decrease our imports of foreign oil.
    Chairman Gordon. Dr. Chu, I suggest that you recommend Dr. 
Bartlett for a position in OMB. I think that would improve your 
budget much.
    Dr. Baird is recognized.

                 Potential Energy Efficiency Strategies

    Mr. Baird. Thank you, Dr. Chu. Good to see you. Having had 
the privilege of spending most of the day yesterday at the 
ARPA-E summit and the day before and then much of this morning 
there, I want to commend you and Dr. Majumdar for the success 
and also Chairman Gordon for writing the legislation that 
created this. My wife and I were talking this weekend about 
some of the many challenges the country faces, and she said 
what are we doing right? And I said I think the Department of 
Energy and ARPA-E but I also want to acknowledge the national 
labs in addition for their ongoing work which has done so much 
over the years, so well done on that.
    As we look at meeting energy needs, my own belief is that 
the problem is urgent, as Dr. Bartlett has said many times in 
this Committee. I think we can save 20 percent of our energy 
budget in 20 weeks, I don't think we have to wait, through 
fairly simple behavioral adaptations, and I don't mean some 
voodoo social science stuff, I mean just making the right 
decisions like inflating your tires, et cetera, which have been 
subject to derision but are actually legitimate measures. If we 
just drove the bloody speed limit, we would save a fair amount. 
We don't have to lower the speed limit, just drive it.
    There are some other things I think we can do. The 
President rolled out the HOMESTAR program yesterday, I 
understand, and let me give you just a couple of examples of 
things we have kicked around. When you buy a house in this 
country, you get information about what the kind of heating or 
air conditioning is but you get no useable cost information. If 
we just put MLS listings required in some fashion that when you 
buy a house, you get the annual energy budget, the actual 
expenditures month by month, two houses that look like the same 
purchase price but one has $150 greater monthly output for 
energy is a much more expensive house over time, vastly more 
expensive, and you now reward people who make the investments 
both in behavior change and technology just by listing it, no 
costly audits, no intrusive anything, just list the energy 
price for the year.
    Secondly, transportation audits that just give people 
information. You could use Google Earth to do this and say what 
is the real cost of this home you are buying? Because it is 
cheaper in the 'burbs but you can spend an hour and a half 
commuting into Washington, D.C., what is the real cost in terms 
of your time value and the energy transportation cost? Again, 
it is free but gives people information they can make a 
decision with.
    Regarding the HOMESTAR program, the best time to make an 
energy investment in your home is at point of purchase for two 
reasons: the cost of the borrowing, if you are borrowing 
$200,000 for a home, another $20,000 to energy retrofit is 
additional but small relative to the base cost, but secondly, 
you are not in the home. You don't have a bunch of people 
trooping through with insulation or new windows. Some way, 
finding a way to incentivize point-of-purchase retrofits, seems 
to me to be a really major investment with buildings consuming 
40 percent of our energy.
    Finally, a question. I am very concerned. You know, my 
state had--the last major nuclear investment in this country 
was in my state. We call it ``WPPSS'', the Washington Public 
Power Supply System. The assumption--and by the way, those are 
bankrupt and never completed with one sole exception but the 
rest of the towers standing there. They make great echo 
chambers. Some rock band is going to discover them, but it is 
not their original purpose. But this business that we are 
making loan guarantees, my belief is, we are investing, whether 
it is CCS in major coal plants or major nuclear plants, I think 
we are investing in antiquated computers, to be perfectly 
honest. When you go to the ARPA-E and other places around the 
world as I have had the privilege of doing, I think a 
distributed energy scientist like Daniel Serra or some other 
bright person working on it is going to obviate a lot of this. 
And so what we are doing is making this big loan guarantee and 
investment for something that may not be necessary. If we cut 
consumption by 20 percent behaviorally, right there we obviate 
a whole lot of nukes. If we invest distributed energy 
technology, we further do it. What is your thought on that? I 
worry we are putting a lot of money in antiquated technology.
    Secretary Chu. Well, actually, I agree with you 100 percent 
on the gains on energy efficiency. Many of the things you had 
suggested I like so much that we actually started the ball 
rolling on them about half a year ago. So we are starting to 
talk with HUD, is it possible to try to get the FHA to ask for 
a year's energy bill? You know, motivate homeowners to putting 
those energy retrofits and, you know, here is the zip code, 
this is the energy use in this home, this is the energy use for 
this square footage in this entire region, so it is like a 
refrigerator label. We are also recognizing that, you know, 
people live differently. Some people like it very warm at 78, 
not 70, or I happen to keep our house at 65 but I don't think 
many people like to do that.
    Mr. Baird. My wife and I have the same discussion.
    Secretary Chu. So we are also trying to develop a mechanism 
within the Department of Energy, a means of rating the home 
itself so you have what the real usage is, you know, like an 
EPA mileage of the house. So we are doing all those things. In 
terms of the best time to do the home is during a turnover, I 
absolutely agree with that. So HUD has energy mortgages but 
only like 1,000 a year so we are trying to figure out how to 
get it so it is tens of thousands or hundreds of thousands a 
year. You know, we have 130 million homes. Average turnaround 
time is seven years. So if we can start doing major retrofits, 
you can start to turn over the stock of homes in a major way 
but you have to make it very painless to the homeowner that 
they have confidence, that the added little bit more you put in 
your mortgage, which is a nice long-term loan, low interest 
rate, you will recover in energy savings on a monthly basis so 
you are not out of pocket and in fact you are making money. And 
so these are many of the programs we want to do. Gas mileage, 
higher mileage standards is another thing. So the only thing I 
disagree with you is, I don't think it is 20 percent, I think 
it can be 50 percent.
    Mr. Baird. I would agree. I am thinking 20 percent in 20 
weeks.
    Secretary Chu. Oh, well, OK.
    Mr. Baird. Thank you.
    Chairman Gordon. Dr. Broun is recognized for five minutes. 
Oh, Ms. Biggert. Excuse me. Ms. Biggert is recognized for five 
minutes.

                   High-Performance Computing at DOE

    Ms. Biggert. Thank you, Mr. Chairman, and welcome, 
Secretary Chu.
    As a long supporter of the Department of Energy's Office of 
Science, I commend your efforts to increase the funding by 4.4 
percent, which is consistent with the COMPETES Act, and of the 
program increases, I am glad to see the Advanced Scientific 
Computing Research receive a boost, and considering the 
importance of that to DOE and the research community, do you 
have plans for a sustained investment in our leadership-class 
computing facilities, and more specifically, will the 
Department consider utilizing the advanced computing 
infrastructure across the programs in DOE to meet many of our 
energy challenges?
    Secretary Chu. The short answer is yes, we see a sustained 
program. We are finding out as the computers get more powerful, 
as the algorithms get more powerful, we can begin to simulate 
design in a real way, complex designs spanning the gamut 
between combustion in a diesel engine so you don't have to 
build another prototype and see what happens. The poster child 
of that is a collaboration with Cummins Diesel Engine and 
Sandia National Labs; they skipped the prototype part. They 
designed it on a computer. They do measurements on that and it 
worked according to the computer simulation. These are very 
complex simulations.
    Ms. Biggert. Do you see a role for the computing as 
facilitating solutions----
    Secretary Chu. Yes.
    Ms. Biggert. --to grid modernization or----
    Secretary Chu. Oh, well, the computer----
    Ms. Biggert. --fuel cycle?
    Secretary Chu. Everything. The grid modernization will 
absolutely require a very, very--the so-called smart grid will 
require a very deeply intelligent computer system so, you know, 
when the wind stops blowing, the sun stops shining, it will add 
to the robustness of our energy supply. It has to manage two-
way flows. I mean, right now in the United States distribution 
system, there are these regional sections, and if you want to 
go across, someone calls up the line and says hey, can you send 
me a little more juice? It is just like in the old-time movies, 
you know, the ship captain says all ahead, full steam. He goes 
down to the engine room and they start shoveling coal. We can't 
use that anymore going forward, computers will be an integral 
part of the distribution.
    Ms. Biggert. Thank you, and I have got a couple more 
questions so I have to rush, I guess.
    Secretary Chu. OK. Sorry.
    Ms. Biggert. In your testimony in 2006 before this 
Committee talking about funding ARPA-E--and I do congratulate 
the Chairman for the success of ARPA-E, and I am not going to 
eat crow. But it is critical--you said that it is critical that 
the funding not jeopardize the basic research supported by the 
Office of Science, and I am not sure from looking at the 
budget, is the $300 million for ARPA-E taken out of the Office 
of Science budget?
    Secretary Chu. No.
    Ms. Biggert. So that is a separate----
    Secretary Chu. The Office of Science budget is on a path to 
doubling the budget of the Office of Science and, you know, in 
this respect I believe in the old tradition, in the words ``do 
no harm.'' The Office of Science is a great part of the 
Department of Energy, and you want to keep it on a path of 
budget doubling.
    Ms. Biggert. And I congratulate you. Doubling that budget I 
think is very important.

                      Spent Nuclear Fuel Recycling

    And could you just talk a little bit about the evolution of 
DOE's R&D work on used fuel recycling over the past year and 
what is going to happen?
    Secretary Chu. Well, thank you for that question. There are 
two goals. Right now the fuel reprocessing technologies that 
exist today, for example, the one that Areva has, we believe is 
not economically viable as witnessed by the huge cost overruns 
in the recycling plant in Japan--almost a factor of three from 
$6 billion to over $20 billion. It is not proliferation 
resistant. And so these are real problems. You know, it doesn't 
make financial sense and it doesn't make nonproliferation 
sense. So we want to do research to see if we can get to a 
place where it makes both of those things. In addition to that, 
we are also looking at reactors in this $400 or $500 million 
range where right now you dig uranium out of the ground, you 
use less than one percent, it is like half a percent of the 
energy content of that mined ore and the rest becomes spent 
fuel, possibly waste. Wouldn't it be lovely if we could use 20 
percent, you know, once-through cycle? If you do that, you go 
from one percent to 20 percent. Then you have just reduced the 
waste by a factor of 20. But in addition to that, we also want 
to do research in fast neutron reactors designed to burn down 
the long-lived radioactive waste to reduce the lifetime. All 
these things will be factored into what the Blue Ribbon 
commission is being charged to anticipate what might happen in 
the next 50 years. That will totally rewrite what we are going 
to do with the back end of the fuel cycle. So there are all of 
these possibilities. It will take time because anything having 
to do with nuclear, because of the safety concerns, does take 
time, but we do have time and we have at least a half a century 
to do this. And so I feel very committed. Here is an 
opportunity to go forward. And by the way, like with small 
modular reactors, here is an opportunity to recapture an 
industry the United States started. The first nuclear reactor 
was built in the United States and it has now gone abroad. You 
know, France and Japan and Korea have more nuclear production 
capabilities for reactors than we do. So, you know, we want to 
bring that high-tech manufacturing back to the United States as 
well. We again want to be a leader in that for our prosperity 
as well as clean energy.
    Ms. Biggert. Thank you. I yield back.
    Chairman Gordon. Mr. Matheson is recognized.

            More on Yucca Mountain and Nuclear Waste Storage

    Mr. Matheson. Thank you, Mr. Chairman, and Dr. Chu, welcome 
to the Committee.
    You mentioned in your opening statement, or actually, I 
think it was in response to the Chairman's question in your 
discussion about high-level nuclear waste disposal and the 
decision to move away from Yucca. I actually agree with that 
decision to move away from Yucca. And when you were talking 
about it, you mentioned that as an interim measure with dry 
cask storage technology we have available onsite at operating 
power plants. To your knowledge, are there any space 
limitations for that type of onsite storage?
    Secretary Chu. To the best of my knowledge, no.
    Mr. Matheson. And you also mentioned that when the Congress 
passed the Nuclear Waste Policy Act back in the 1980s that we 
knew a lot less then than we now know. Is it your understanding 
that dry cask storage in terms of the capability for doing that 
was not very well understood back in the mid-1980s? Is that one 
example of where we have learned more since then?
    Secretary Chu. That is one example, but it goes much deeper 
than that. I think given, for example, in the proposed 
repository at Yucca Mountain, first it was for 10,000 years, 
then there was a Supreme Court ruling that says no, it is 
whatever--well, it turns out I knew the scientists doing a lot 
of the simulations for the water flows in Yucca Mountain, and 
the maximum leak out would be at a half a million years. Well, 
quite frankly, we haven't built--humans haven't built anything 
that has lasted a half a million years. Roman aqueducts come to 
mind, 2,000 years. And so what you really want to do is, you 
want to do something that is inherently natural deposit safe. 
So there are other geological repositories in that case. And 
also if you don't want to ever have access to it, for example, 
you might want to consider over the next few hundred years we 
could put it somewhere in some places where you want to have 
access but when the economic value is really spent down, then 
you can say, you know, we don't think we will ever have any 
more economic value and you reduce the amount of waste. Then 
you want to put it in a place that guess what, you never want 
it back. So we know of geological sites, for example, in salt 
domes, you put it in the salt dome. The salt oozes around it 
and you can't get--those things were rejected because maybe we 
need to get it back. Well, no, in this case we might not ever 
want to get it back. The beauty of those things is, they are 
radioactively dated and they have been around for tens of 
millions of years. So imagine the continents of the world 
drifting around, but this thing has been safe for ten million 
years. That is good. So again, we know a lot more. So it goes 
much deeper than--we can take a fresh look at this.
    Mr. Matheson. Right. I appreciate that. And I assume you 
will be engaged with this bipartisan commission in their 
discussion?
    Secretary Chu. Well, I mean, they are a very ``blue 
ribbon'' committee, and we stand by to offer them information 
but they are going to make recommendations to me, to the 
President and to Congress and they can form little 
subcommittees for points of technical information, but we 
really want their best advice.
    Mr. Matheson. Another question I wanted to ask you about, 
in terms of the NNSA's stockpile stewardship rule, over the 
past few years there was talk about coming up with a new 
generation of weapons. There was the Reliable Replacement 
Warhead program. And yet I believe it was just in the past year 
with the most recent JASON analysis of the existing stockpile 
and its projected life or longevity or viability, there was a 
certain confidence that this existing stockpile could be 
maintained for, in my opinion, a reasonably long amount of 
time. What is your view right now of the need to develop a next 
generation? Or do you think the existing stockpile stewardship 
program with the existing stockpile satisfies our needs for the 
next, I don't know, few decades?
    Secretary Chu. Well, first there is going to be a nuclear 
repository review that will be coming out hopefully in the next 
couple of weeks and that sets a tone for what we in the 
Department of Energy need to do. The JASON part I am aware of 
had to do with the pits----
    Mr. Matheson. Yeah, the pits.
    Secretary Chu. --the core of the nuclear device, the thing 
that starts it off, and in their view, the pits--themselves for 
a long period of time. Now, having said that, many of these 
devices were designed with vacuum tubes, and you can't even buy 
the vacuum tubes anymore. So merely by replacing vacuum tubes 
with integrated circuits, things of that nature that don't, in 
my mind, constitute a new weapon at all, it is just hey, you 
can't buy this stuff and replace it with something, modern 
electronics. It doesn't enhance any capability. I think those 
things need to be done and so you differentiate that from the 
pits. So what we are going to be doing is, we are going to be 
looking at these very complex issues and certainly wanting very 
much--recognizing what the President said in his speech, where 
we want to go towards eventual elimination of nuclear warheads 
around the world, but as long as other countries have them, we 
are going to have them, but so far from my knowledge from where 
we are today, we can extend the lifetime of these weapons.
    Mr. Matheson. Thank you. I appreciate that.
    Chairman Gordon. Dr. Broun is recognized for five minutes.
    Mr. Broun. Thank you, Mr. Chairman.

                         More on Nuclear Waste

    Mr. Secretary, my comments and questions today focus on how 
the Department makes it decisions and whether or not the 
American people trust those decisions. To be candid, recent 
decisions have me befuddled. Case in point, the record is 
fairly clear that you have supported unilaterally disarming our 
Nation's economy by advocating a carbon tax and a carbon 
tariff. Your rationale for this irresponsible policy is based 
on the claimed scientific consensus regarding the severity and 
impacts of anthropogenic climate change. As evidence of this 
consensus, you specifically cited the National Academy of 
Sciences. Setting aside the recent issues revealed by the 
Climate Research Unit's leaked e-mails, the almost daily 
revelations of errors in IPCC reports and the numerous 
investigations related to the process by which that consensus 
was reached, I am a little confused by why you selectively 
embraced findings from these scientific bodies, why you 
embraced the consensus surrounding climate change.
    You ignore a report from the National Research Council on 
Yucca Mountain which states, ``There is a strong worldwide 
consensus that the best, safest, long-term option for dealing 
with high-level waste, HLW, is geologic isolation.'' One of the 
first acts of our Department was to essentially shutter the 
doors of Yucca Mountain, our Nation's only option for dealing 
with high-level waste, despite clear legal obligations after 
over 25 years of scientific study with billions of dollars at 
risk and no plan going forward. Georgia ratepayers have already 
paid into the Nuclear Waste Fund over $708.9 million. While two 
nuclear reactors are going to be built in Georgia, it has been 
three decades since a new nuclear plant has been built. Yet DOE 
terminates the license application for Yucca Mountain. You 
initiated a blue ribbon commission to look into storage options 
but their report won't be completed until the end of this 
Administration's term and after a certain Senator's reelection 
bid. Why not keep the program on track until you receive those 
recommendations, or why not spend the collection fees for the 
Nuclear Waste Fund--suspend the collection for the Nuclear 
Waste Fund until a storage solution is agreed to? How can you 
justify continuing the collections of hundreds of millions of 
dollars in fees from electricity consumers in these tough 
economic times? It is just not right. Right now, you are 
essentially kicking the can down the road all the while you 
defend our Nation's only existing storage option, a decision 
that appears to be politically motivated, not based on science.
    In order to understand the rationale behind these 
decisions, Ranking Member Hall and I along with Ranking Members 
Barton and Walden wrote to you last May with over 12 specific 
questions. Your response to the committees of jurisdiction was 
frankly laughable. In fact, Mr. Chairman, I would like to ask 
unanimous consent to enter the letters into the record from me 
and the Ranking Member as well as the response from Secretary 
Chu.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Gordon. With no exception, so ordered.
    Mr. Broun. I once again wrote to you last month restating 
my concerns and questions, and also seeking information 
regarding the establishment of this so-called Blue Ribbon 
Commission. I have yet to hear back. Mr. Secretary, this 
Committee is an important responsibility to oversee your 
Department. I hope you will take our current request seriously 
and be more responsive to future inquiries.
    During the President's inaugural address, he stated his 
intention to ``restore science to its rightful place.'' 
Unfortunately, all we have seen from this Administration is 
rewarding of political allies, cherry picking scientific 
recommendations and obfuscation. The American people deserve 
more than empty rhetoric when it comes to scientific integrity 
and they deserve more than arrogance, ignorance and 
incompetence when it comes to making decisions.
    Mr. Chairman--I mean Secretary Chu, I would like to ask, 
what is the factual basis for seeking to withdraw the 
application on Yucca Mountain from the NRC?
    Secretary Chu. I would be glad to go into this, but in the 
limited time, I do believe we have much better options. There 
is no disagreement with the National Academy study that says 
geologic storage sites are the best option. The salt dome I was 
talking about was a geological storage site. If you have been 
to Yucca Mountain, there are issues with it. Its repository 
nature depends a lot on the assumed precipitation at that site 
over a million-year period. And so there are many issues like 
that. In terms of the BRC and the timing of the report, the 
time scale that is listed officially, both General Scowcroft 
and Congressman Hamilton actually want a much more accelerated 
time, and I am all in favor of that. Ideally, quite frankly, I 
don't want to box them in a corner, but they are targeting this 
year to get this first draft out. So there is no desire to kick 
any can down the road regarding the Blue Ribbon Commission.
    With regard to climate data and the understanding, I still 
believe very strongly that the overwhelming body of evidence--
well, let me stand back and say that the overwhelming body of 
evidence still is that the climate is changing, it is caused by 
humans, and although the uncertainties on what happens going 
forward are large, it is not an uncertainty as to whether it is 
happening or whether it is caused by humans, it is to the 
degree. The way science works is, sometimes there are 
occasionally bumps and warts, and what happens is, science 
investigates itself and tries to find out, and that is exactly 
what is happening, but as far as I know, there is a 
overwhelming body of evidence that still says--in fact, the 
more recent, especially the satellite data as it gets better 
and better is putting to rest concerns that we might have had 
10 to 20 years ago.
    Chairman Gordon. Thank you, Dr. Chu.
    Dr. Broun's views aren't unanimous but he certainly needs 
to have his letters responded to.
    [Additional material submitted for the record follows:]
                   Prepared Response of Secretary Chu
    I appreciate your interest, as expressed in your February 3, 2010, 
letter, in the decision regarding the Yucca Mountain project and the 
convening of the Blue Ribbon Commission. Expanding our Nation's 
capacity to generate clean nuclear energy is crucial to our ability to 
combat climate change, enhance energy security, and increase economic 
prosperity.
    An important part of a sound, comprehensive, and long-term domestic 
nuclear energy strategy is a well-considered policy for managing used 
nuclear fuel and other aspects of the back end of the nuclear fuel 
cycle. Yet the Nation's approach, developed more than 20 years ago, to 
manage spent nuclear fuel and high-level waste has proven ineffective. 
Fortunately, over the past two decades scientists and engineers in our 
country and abroad have learned a great deal about effective strategies 
for managing the back end of the fuel cycle.
    The Administration has decided that Yucca Mountain is not a 
workable solution. As a result, President Obama requested that I 
establish the Blue Ribbon Commission on America's Nuclear Future. The 
Commission will consider a broad range of technological and policy 
alternatives as well as the scientific, environmental, budgetary, 
economic, financial, and management issues surrounding each alternative 
it considers. The Administration remains fully committed to meeting its 
obligations for disposition of the nation's civilian and defense 
nuclear waste.

    Secretary Chu. I will do that.
    Chairman Gordon. Thank you.
    Mr. Broun. Thank you, Mr. Chairman.
    Chairman Gordon. Dr. Lipinski is recognized.
    Mr. Lipinski. Thank you, Mr. Chairman.

                      DOE Research Infrastructure

    Mr. Secretary, thank you for your contributions now to our 
Nation, what you are doing as Secretary. I was just out at 
Emeryville at JBEI, and they were speaking very highly of all 
that you did to help get JBEI started out there. The 
collaborative work, research and attempts to develop biofuels 
are very encouraging out there, and I think that was a great 
example of pulling together different institutions to do some 
really important work and a good example of what you have tried 
to do, and what you are trying to do right now, as Secretary. 
So I congratulate you and thank you for doing that.
    I am concerned to some degree about the--that many of our 
research facilities in this country are suffering from chronic 
underinvestment in deferred maintenance. As I am sure you know, 
the NSF's last survey of science and engineering facilities 
documented a problem at academic research facilities, a $3.6 
billion backlog in deferred repair and renovation, and I have 
heard anecdotally of problems at the national labs as well. And 
this concerns me in that we clearly understand we cannot lose 
our leadership in science and engineering, and I am concerned 
that we may not be able to lead and we might be having 
inefficient use of research dollars if we don't have the 
infrastructure that we need. So I wanted to ask you what your 
current--what is your impression of the current state of DOE 
facilities, especially the national labs? And I was intrigued 
in your statement, you had talked about $7 billion requested 
for upgrade of infrastructure, and if you could be--expound a 
little bit on what that is going to be for.
    Secretary Chu. Well, regarding the infrastructure in the 
national laboratories, it is uneven. There are some that are--
especially the new national laboratories I think are in a 
little bit better condition. Recovery Act money has been 
invested in a lot of that delayed maintenance, but going 
further than that, actually replacing the buildings. Once the 
laboratory buildings get to be 50, 60, 70 years old, it is hard 
to keep them going. It is better to start anew. It is more 
economical, in fact to start anew. And so that is an issue. 
Again, in my old laboratory, the oldest national laboratory in 
the complex, we had a fair fraction, I forget the exact number, 
but it was something like 40, 50 percent were over 50 years 
old. There is a section of old buildings, wooden buildings 
called Old Town. It was called Old Town when I was a graduate 
student there in 1970. It is still there. So at least there are 
plans to knock it down through Recovery Act money and it won't 
be done probably for another two or three, five years but--so 
yes, to your point, it is an issue.
    The infrastructure having to do with the NNSA labs are the 
fact that because of many budget stresses and other issues over 
a period of perhaps a decade, maybe a little longer but 
certainly over a period of a decade the amount of--the fraction 
of money spent for science and technology, and the 
infrastructure more important than anything else. It also 
includes the total assets of the lab, including the people, 
have been declining. The fraction of money spent on science and 
technology in those laboratories was going down steadily so 
that over a 10-year period it would have been cut in half and 
we were entering the ninth year of that 10-year period. So----

              Public Access of High-Performance Computers

    Mr. Lipinski. If I can--sorry to interrupt you. I want to 
get something else in before my time runs out. I would like to 
continue the discussion about what may be done about helping 
with improving the infrastructure at our national labs. The 
other thing following on what Ms. Biggert said, I am very happy 
to see the leadership computing facility at Argonne, the 
increase in funding requested. I am a little bit concerned 
about with high-performance computing that some of this has not 
been available, have not reached small manufacturers. They have 
not had the ability to take advantage of that. I was at Sandia 
also and what you were talking about earlier about what they 
are doing with Cummins. I saw that and was told about that. 
What are some ways that you look to helping, especially small 
manufacturers, but even Boeing, some of the supply chain for 
Boeing is having trouble being able to access and use--be able 
to use high-performance computers?
    Secretary Chu. Well, I think the major issue in very high-
performance computing is they have many, many processors, tens 
of thousands, going now up to 50,000, 100,000 processors. In 
order to use them all concurrently, efficiently, you have to 
have very, very skilled programming. So there is a program at 
DOE called INCITE which teams up applied mathematicians, 
computer scientists with the scientists because as you go to 
these very complex machines, most scientists don't have the 
technical expertise. You know, after you have ganged up 1,000 
of them, going from 1,000 to 10,000, it doesn't get 10 times 
better. And so it begins to waste a resource. So in the very 
highest leadership computing, we actually have these teams of 
scientists but the average small company doesn't have that 
expertise. One of the things that I am very interested in doing 
is developing what I would call automatic parallelization. You 
write some code in Fortran or C++ and it begins to 
automatically allow you to use thousands of processors. We 
don't have that yet, and that is what is the next logical step 
in order to bring high-performance computing to the average 
engineer, the average scientist.
    Chairman Gordon. Dr. Chu, I am afraid you are a victim of 
your own knowledge. We are getting close to votes, and I don't 
want to have to hold you. So I think Dr. Broun has a unanimous 
consent request.
    Mr. Broun. Thank you, Mr. Chairman. I would like to ask 
unanimous consent to insert a document at the end of my 
questioning period of Secretary Chu. It is called a Sustainable 
Energy Future: Essential Role of Nuclear Energy, dated August 
2008, and pay particular attention to the third bullet point 
here which says ``employing integrated approach''----
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Gordon. Without objection, we will make that a 
part of the record.
    Mr. Broun. Thank you, and I want to note that Secretary Chu 
signed this document.
    Chairman Gordon. Let me real quickly, I want to let you 
know the policy of the Chairman in terms of adding to the 
record. We want to keep a complete record, but if we have 
something that is 1,000 pages, we probably will not put it in 
the record but refer to it in the record and have it kept here. 
That is perfectly fine. But I don't want to surprise you at a 
later date if somebody has a thousand-page document. Part of it 
is just the expense of doing it.
    Mr. Broun. Thank you, Mr. Chairman.
    Chairman Gordon. Mr. Bilbray is recognized, and I think you 
all are going to try to work things out so we will all be----
    Secretary Chu. I will be very brief.
    Chairman Gordon. OK.

              The Government Tools for Reducing Energy Use

    Mr. Bilbray. Mr. Chu, again I want to say I was excited the 
President chose you. My biggest concern is making sure that 
your science does not get blocked by Washington's politics.
    We talk a lot around here about how people need to change 
their lifestyles and to reduce their emissions and conserve 
energy. Business has to change its operations. But the one 
thing we don't see talked about much is how government needs to 
change. We are right now burning dirty coal to generate 
electricity for this place, and, you know, we are talking about 
all these lofty ideas but the reform aspect--in fact, I think 
the term we always talk about energy is, we need a Manhattan 
Project. The fact is, Mr. Secretary, the Manhattan Project 
could not legally be done today. It would be illegal to do it 
because of regulations. Are we looking at--are there any 
studies being done in your department of what we need to do to 
change government regulations to make energy more efficient? I 
will give you an example. We talk about conservation of 
individuals but government control of traffic could reduce 
emissions and consumption by almost 22 percent. You know, Mr. 
Baird talked about slowing down. Nobody even talks about the 
fact that the problem is the fact that the law isn't enforced? 
Is there any study or any proposal to do a study to look at 
what government and governments can do to reduce the energy 
dependency and to clean up the environment?
    Secretary Chu. Specifically to your point, there probably 
are. I can't name the things, but let me just say very quickly, 
the Department of Energy does have a slight regulatory role. We 
do appliance standards, and those appliance standards have 
saved the country many billions of dollars. We are expanding 
those appliance standards because sometimes there is no price 
that will give it--oh, this is the best part. For the first 
time in history, the Department of Energy, we are enforcing 
them.
    Mr. Bilbray. I appreciate that, and I serve over the 
government reform, but my problem I have is that we--don't you 
believe that somebody who is looking at the scientific side of 
it needs--it needs to be from that perspective that we look at 
the government obstruction and barriers to get--a good example. 
I drove a natural gas car in the 1990s but most public utility 
commissions will not allow public utilities to rate base you 
home dispensing of clean gas for cars. It is a technology we 
have but the government regulation keeps you from doing that. 
We don't allow--the building code doesn't allow the use of a 
lot of renewable resources because of obstruction. Don't you 
agree that it is time that as scientists look at this and say 
look, we would love--these are barriers that we have. A good 
example, let me just say, the algae fuels discoveries in 
California, I met with the governor and pointed out our 
environmental regulations in California stopped the production 
of algae fuel in California for the next decade where the 
scientists at Scripps have to go to New Mexico to do it. Don't 
you think that it is time that we have scientists take a look 
at--you know, start speaking out and be able to have some voice 
to be able to say these barriers must be eliminated?
    Secretary Chu. Well, I think we are actually doing 
studies--there are many weatherization state energy grants. 
There are things like energy efficiency conservation block 
grants. There are NEPA requirements mandated by Congress. We 
are working through those things so that we can get--so we are 
trying to----
    Mr. Bilbray. I don't understand. We talk about spending 
money but we are not talking about asking government to do what 
we are asking business and individuals to do: change your 
operation, change your mindsets. And we are not doing that. You 
know, I take a look every time I stop at a stop sign. It could 
be a yield sign. It is five times more polluting than not 
having that sign there. But nobody calls the government down 
for that kind of emissions. It is out of sight and out of mind. 
Don't you think from a scientific point of view, especially 
when we talk about nuke, we talk about all these things, and 
government is in the way. The government answer is always, 
well, we will spend more money, and that is the big challenge I 
have there, and I appreciate. I am just raising this to please 
take a look at this. I look forward to working with your 
Department. I hope that we can do with nuclear power what we 
did with the interstate system and have your Department do more 
than just look at it and participate, but be the lead agency 
that is siting it. We couldn't build freeways and the 
interstate system in this country if we approached the 
transportation system the way we have approached our energy 
system. We would still be driving on two-lane roads. The 
private sector doesn't ask for a grant to site a freeway, to 
permit it. The government does that, and then we put it out to 
contract to the private. I would like to see us work together 
to be able to create that same dynamic when it comes to energy 
independence.
    Chairman Gordon. Thank you, Mr. Bilbray.
    Mr. Wilson is recognized.

                            Coal and the DOE

    Mr. Wilson. Thank you, Mr. Chairman. Welcome back, Mr. 
Secretary.
    The Department of Energy has a longstanding policy of 
refusing to provide loan guarantees to companies that are in 
litigation. What is frustrating to me is that environmental 
groups have taken advantage of this policy, filing thousands of 
frivolous lawsuits against the coal-related projects and 
holding them up in courts indefinitely. Companies with viable 
projects are unable to proceed on a basic level because they 
can't get loan guarantees from the Department. I know that Ohio 
Governor Strickland has been in contact with the Administration 
about this as well, and therefore I ask you, will you be 
considering reexamining your Department's policy in certain 
situations for coal?
    Secretary Chu. Well, in terms of loan guarantees, I don't 
think, to be quite candid, we can say we can give a loan 
guarantee to a company that is in litigation because we have a 
responsibility to taxpayers and sometimes the litigation puts 
the company at some uncertainty and financial risk. And so we 
have to certify again, ultimately, to the OMB that taxpayer 
dollars are protected. So when there is litigation, we have to 
say well, wait a minute, we can't do this until that is 
settled. So unfortunately, I think because of the constraints 
of the loan guarantee program, we can't do much about that.
    Mr. Wilson. It is unfortunate. Let me go on to my second 
question. Ohio coal supplies 87 percent of the electricity, and 
most importantly, a lot of jobs in our area of Ohio. To me and 
my constituents, it would appear that the Administration has 
declared a war on coal with the hopes of eliminating its use 
entirely. Yet I see no way that this country's energy needs can 
be met without coal. How does the Department of Energy intend 
to bridge the gap both in terms of energy needs and jobs 
between now and 10 years from now if the pursuit to end coal 
usage were to be successful?
    Secretary Chu. Well, we are investing quite a bit of money 
into learning how to use coal in a clean way so that we can 
continue to use it. As an example, through our programs and the 
Recovery Act, over $4 billion of Federal funds have been 
invested in clean coal technologies over the last several 
years. That is actually matched by industry of something like 
$6 billion or $7 billion. And so there is a very healthy 
partnership going on to develop better and better ways, 
economically viable ways, to capture the carbon and to prove 
that it is safe in geological sites in, I believe, six or seven 
sites around the country. So are very heavily invested in that.
    Mr. Wilson. And all due respect, Mr. Secretary, it looks 
like the Administration is saying one thing and then doing 
something entirely different. For example, on February 3rd, the 
President announced an Interagency Task Force on Carbon Capture 
and Storage. However, only two days earlier, the President 
revealed a budget with $85 million cut to fossil fuel research 
and development. Can you address this perception in a way that 
sheds light on the future for coal within the Department of 
Energy?
    Secretary Chu. Sure. Because of the investments we have 
been making in the Recovery Act, as I said, $4 billion over a 
couple years is not chicken liver, to use an old Chinese 
expression. So we have a lot of investments out there, and the 
Clean Coal Power Initiative is being led by the Department of 
Energy's Jim Markowsky, a super guy. I don't think they are 
mixed signals. If you look at the amount of investment that we 
have been making over the last couple of years, our goal is to 
develop this technology so it can be deployed routinely in 10 
years.
    Mr. Wilson. Can I ask then, what steps are being taken by 
the Department of Energy this year in regard to the stated goal 
of having five to ten carbon capture and sequestration 
demonstration projects by 2016?
    Secretary Chu. I would be glad to give you a detailed list 
of the projects we have invested in so you can see for 
yourself.
    [Additional material submitted for the record follows:]
                   Prepared Response of Secretary Chu
    Over $3.3B of the $3.4B the Office of Fossil Energy received in the 
American Recovery and Reinvestment Act and over $600M in appropriated 
Clean Coal Power Initiative funds will go toward demonstration 
projects. These projects will count toward meeting the President's goal 
of five to ten carbon capture and storage (CCS) demonstration projects 
by 2016. Additionally, on February 3, 2010, the President issued a 
memorandum establishing an interagency Carbon Capture and Storage Task 
Force to identify barriers to widespread CCS deployment. One of the 
topics the task force will investigate is the adequacy of the currently 
planned demonstration projects.
    Following is a list of projects currently underway or planned:

    Currently underway:

         FutureGen

         HECA--Hydrogen Energy California IGCC project

         Summit--Texas Clean Energy IGCC project

         Southern--Kemper County IGCC project

         Excelsior--Mesaba IGCC project

         AEP--American Electric Power Mountaineer Post Combustion with 
        Carbon Capture and Storage (CCS) project

         NRG--Post Combustion with CCS project

         Basin--Post Combustion with CCS project

         Neuco--Pegasus Software project

    Planned: 5 or 6 Industrial Carbon Capture and Storage (ICCS) 
projects (down-select coming in June, 2010)

    Mr. Wilson. I would appreciate that. Thank you, Mr. 
Secretary.
    Chairman Gordon. Mr. Smith is recognized.

                Smart Grid and Wind Energy Transmission

    Mr. Smith. Thank you, Mr. Chairman. In the interests of 
time, Nebraska wind transmission capacity--you know where I am 
going, the President's request for $144 million to research and 
develop smart grid technology. How might you think we would be 
able to capitalize on the wind resources of middle America and 
yet still lack the transmission capacity?
    Secretary Chu. I think we need both simultaneously. It is a 
very complex problem, as you well know. It goes across 
jurisdiction, FERC plus the Department of Energy. We need the 
cooperation of the states. The siting problem is the most 
vexing problem, siting and costing.
    Mr. Smith. Siting of turbines or----
    Secretary Chu. Sorry, the siting of the transmission lines. 
The turbines----
    Mr. Smith. What do you see as the primary obstacle to 
those?
    Secretary Chu. I think people don't like to see high-
voltage transmission lines in their backyard. They think, you 
know, bringing electricity to people is just fine, just don't 
put it in my backyard.
    Mr. Smith. And do you feel that that is a local issue or is 
it sometimes some outside groups who want to determine where 
something like that should go or shouldn't exist?
    Secretary Chu. I think it is both, but to be frank, I think 
there are a lot of people who really don't want these very high 
towers in their backyard. So we have to think of mechanisms in 
order to make that happen. But we don't have the answer now. 
The Green Cabinet has been meeting on this issue because we 
know it is a problem, but I have to say quite frankly, we don't 
have the clear solution yet.

                             Cap and Trade

    Mr. Smith. Shifting gears just a bit, on the cap and trade, 
I know that I have been contacted by numerous folks. One person 
suggested when I raised concerns about the rail industry, 
particularly in my district, she suggested that hauling wind 
turbines could replace hauling coal. Is that feasible? And if 
not, do you see it on the horizon?
    Secretary Chu. Well, I think you want to haul wind 
turbines, put them up and then I think there could be coal by 
wire if you--there are many, many opportunities. You don't 
haul, you generate the electricity, you can sequester the 
carbon where you mine it and then you transmit the electricity 
but, it depends on the commercial viability and those things. 
And so one is looking at all these ways of doing this.
    Mr. Smith. Thank you. And when it comes to the Energy 
Information Administration estimating how much energy prices 
might skyrocket under cap and trade, and to use someone else's 
words and description there, given their mission to analyze the 
information to promote sound policymaking and our 
responsibility to make sound policy decisions, can you comment 
on what that agency has done in terms of estimating the cost to 
the public?
    Secretary Chu. Sure. I don't remember the exact number but 
it is--you take the average family of four in a household, an 
average household. There was a range. I seem to remember it is 
somewhere between 30 and 45 cents per day, so multiplied by 365 
days, we are talking a couple hundred dollars a year added 
energy expense. Let me add, though, that if one 
simultaneously--which, you know, to some, that is significant, 
to others, it is not, but if you simultaneously develop 
programs to help the American homeowners weatherize their 
homes, make their homes tighter, more efficient, the bills 
could actually go down.
    Mr. Smith. OK. I know it sounds cliche in this town to 
thank you for your service but I am grateful for your service. 
Thank you.
    Chairman Gordon. Mr. Hall is recognized for just a few 
seconds.
    Mr. Hall. Thank you.

                  More on the Ultra-Deepwater Program

    Mr. Secretary, if you ever get around to answering all of 
Dr. Broun's questions, I hope you will come back to the one the 
I asked you about, section 999 of the Energy Policy Act of 
2005. It has been working, and you have a program to eliminate 
the Ultra-Deep program, how can you justify eliminating that. 
But loaning, whether it is the government or an entity, $2 
billion to Brazil to finance offshore deepwater Santos base in 
Rio de Janeiro. Try to find that for me. Thank you, sir, and I 
yield back my time.\1\
---------------------------------------------------------------------------
    \1\ See additional material submitted for the record in Discussion 
chapter ``The Ultra-Deepwater Program''.
---------------------------------------------------------------------------
    Chairman Gordon. The geographically flexible Mr. Diaz-
Balart is recognized.
    Mr. Diaz-Balart. Thank you, Mr. Chairman. Very well put.
    Thank you, Mr. Secretary. Thank you for your service. I 
have two questions. Really, one should be relatively quick. 
Yucca Mountain, specifically what scientific analysis was used 
to determine that scientifically that was no longer the place 
to do it and where is it? In other words, was there a deep 
scientific analysis, a group of scientists got together, they 
did a report, a study, where is it, who did it?
    Secretary Chu. No, I believe there was no--sorry. Let me 
rephrase that. I believe there is no scientific group that got 
together and did that.
    Mr. Diaz-Balart. There was no scientific analysis to 
determine that?
    Secretary Chu. No, there is scientific analysis, but 
specific to your question, there was no group that was formed 
that did that.
    Mr. Diaz-Balart. Well, what scientific analysis? Who made 
the--who did the scientific analysis to determine that and 
where is that analysis or was it--how was that decision made 
scientifically? I am talking about, what was the scientific 
analysis behind the decision? Remember, the President said he 
wanted to bring science into its rightful place, and I am 
paraphrasing. Where is the scientific analysis and who made it?
    Secretary Chu. Well, there are a number of things. As the 
project unfolded over the 25 years, there was growing 
realization that there were issues. The original design, for 
example, there was a realization--so bits of information were 
coming along at the time and so, for example, there was a 
realization that the natural geography wasn't enough, you 
needed a titanium shield that would be many, many billions of 
dollars more in order to protect the water influx into it. So 
these were things--so to the best of my knowledge, more and 
more mounting issues were growing.
    Mr. Diaz-Balart. Mr. Secretary, and again I apologize. I do 
have to rush because we are running out of time. I apologize. 
But here is the issue. I mean, look, there was a decision made 
to withdraw that application so where was the scientific 
analysis that determined that? Where is it? In other words, we 
know there are a million issues in all this stuff. There are a 
million issues on both sides. But there was a decision made to 
withdraw the application. Where is the scientific analysis to 
do that?
    Secretary Chu. I would be glad to give you some of the 
things over the period of years that were growing concerns, but 
in the end, as I said, let us look forward. There are, I 
believe, much better options today.
    Mr. Diaz-Balart. I understand that, but a decision was 
made, and what I am hearing from you, sir, is that there was no 
scientific analysis made, that things had been heard in the 
past and therefore hey, let us just do it. There was no 
specific scientific analysis made to make this decision is what 
I am hearing.
    Secretary Chu. Well, no. What you asked is, was there a----
    Mr. Diaz-Balart. Specific scientific analysis.
    Secretary Chu. Was there a specific committee formed and 
made the scientific analysis.
    Mr. Diaz-Balart. No. What--how was the scientific analysis 
made? I mean, is it because we have heard things in the past? I 
mean, you know, we now know that there are a lot of things that 
people heard in, you know, magazines and scientific decisions 
were made based on that. What was the scientific analysis and 
who made it to withdraw the application? It is a relatively 
simple question.
    Secretary Chu. There is no single report.
    Mr. Diaz-Balart. There is no scientific analysis?
    Secretary Chu. Well----
    Mr. Diaz-Balart. Was there a recent scientific analysis 
that showed something different?
    Secretary Chu. By analysis, you are talking about a written 
report?
    Mr. Diaz-Balart. Scientific analysis.
    Secretary Chu. Well, I would be glad to give you 
information on as time progressed what things were coming up. I 
would be glad to give you----
    Mr. Diaz-Balart. But there was no specific scientific 
analysis to make the decision to withdraw the application?
    Secretary Chu. Well, it depends. You have to define for me 
if you don't want a letter explaining what some of the reasons 
that made it look like perhaps not the wisest choice. I would 
be glad to supply you with that. But if that doesn't count as a 
scientific analysis, I am not----
    Mr. Diaz-Balart. Well, you tell me. Do you consider that 
scientific analysis to make a decision of this scope or do you 
expect more scientific analysis? If you can get back to me, 
because I am not seeming to get it now.
    [Additional material submitted for the record follows:]
                   Prepared Response of Secretary Chu
    As requested by Congressman Mario Diaz-Balart at the March 3, 2010, 
House Science and Technology Committee hearing, I am submitting 
information on the reasons for withdrawing the Department's license 
application to the U.S. Nuclear Regulatory Commission (NRC) for the 
Yucca Mountain repository.
    DOE is committed to meet the Government's obligation to take 
possession and dispose of the nation's spent nuclear fuel and high-
level nuclear waste. The Administration believes there are better 
solutions to our spent fuel and nuclear waste storage needs than Yucca 
Mountain. The science has advanced considerably since the Yucca 
Mountain site was chosen 25 years ago. That is why we have convened the 
Blue Ribbon Commission on America's Nuclear Future; it will provide 
advice and make recommendations on alternatives for the storage, 
processing and disposal of civilian and defense used nuclear fuel and 
nuclear waste. The Commission plans to issue an interim report in 18 
months and a final report within 24 months of its inception.
    The decision to withdraw the pending NRC application accords with 
these decisions and avoids wasting approximately $9 million per month 
on a licensing process for a project that is being terminated. It also 
ensures that the limited remaining funds available for the project are 
devoted to winding it down in a responsible manner that preserves 
scientific knowledge, retains employees with critical skills within the 
Department and minimizes harm to all affected employees.
    The Department of Energy's Motion to Withdraw before the NRC 
summarizes its rationale for moving to withdraw the Yucca Mountain 
license application.\2\
---------------------------------------------------------------------------
    \2\ Motion is included in Appendix 2: Additional Material for the 
Record.

    We talked a little bit about the stimulus. There is a thing 
today that I just saw on Politico which talks about the 
stimulus. It says a number of Democrats are--this is the 
article--furious that a majority of the grants from the clean 
energy program from last year's stimulus have been awarded to 
foreign companies including one project that they make specific 
mention to, 3,000 jobs created in China where a tenth of those 
created in the United States. You know, I mean, we have all 
heard about the stimulus. It has obviously been a dismal 
failure, and we have heard about the $18 million web pages and 
the millions of dollars for political consultants that helped 
individual candidates and millions of dollars going to 
Congressional districts that don't exist. This just seems to be 
another example of that. And if you wonder why the American 
people know, the reality is because here is just another 
example. I don't think it is in the published edition for all 
of you. It is on the web one. Mr. Chairman, again, it seems to 
be now another example of, if this happened in a different 
country, if money to create jobs went to Congressional 
districts that didn't exist, to projects that don't exist and 
to other countries, if this happened in a Latin American 
country, we wouldn't even call this waste. We know what we 
would call it. We would call it corruption.
    Chairman Gordon. Dr. Ehlers gets to have the last word.
    Mr. Diaz-Balart. Thank you, sir.
    Mr. Ehlers. Thank you, and if Mr. Diaz-Balart will remain a 
minute, I will give him my answer to his question but very 
briefly. I think the basic problem started in 1980 when 
Congress passed a bill which to me seemed rather absurd putting 
requirements on Yucca Mountain that in my mind could not 
possibly be met under any reasonable procedures and made it 
extremely costly. There are far better ways to deal with the 
nuclear waste than Yucca Mountain. And I don't want to waste my 
time by going into a lot of the details but I think the 
Department of Energy did the right thing, that Congress itself 
should have recognized that. I attempted when I first got here 
to try to write a decent law. The reaction from almost every 
Congressman I met was, oh, no, we don't want to touch that, we 
don't want to touch that, we don't want to touch it. And if you 
don't touch the law and change the law to deal with new 
discoveries and new situations, you can't make progress. So I 
think the decision was the right one.
    Mr. Diaz-Balart. Will the gentleman yield for 15 seconds?
    Mr. Ehlers. No. I have very little time and you have had 
more than enough time.

                           Energy Efficiency

    I just want to comment on a major issue that I think the 
Department should spend a lot more time on, and that is part of 
what Dr. Bartlett was talking about and Dr. Baird, and I would 
hope that we would put far more emphasis on energy efficiency 
than we have. We have put far more emphasis on educating the 
people about energy waste, what is efficiency. I find that most 
people, most laypeople, don't even know what energy is, let 
alone energy efficiency, and I would love to see the Department 
doing more. I think it is an indictment, and this is long 
before you got here, that the only government program that 
really helped on energy efficiency did not come out of the 
Department of Energy but from the EPA with their Green Lights 
program for businesses. They went around the country, talked to 
businesses, showed them what the payback time was to put in 
efficient lighting in their factories, their shops, their 
stores, and by George, it was about a year and a half, 
sometimes two years payback time. Any businessman would jump at 
an investment that gets paid off in that short a time, and I 
would really like to see the Department of Energy emphasize 
that much more and be a servant of the people in that way.
    I am delighted with what you are doing with the appliance 
standards, by the way. That is very good.
    Also, Dr. Baird had some good points too and I won't repeat 
that, but I support what he was suggesting too. So I think the 
word was that you should probably hire or have the White House 
hire Dr. Bartlett and Dr. Baird. I don't know about Dr. 
Bartlett. I think he plans to run again but Dr. Baird is not 
running again. I am not running again. But I don't want a job. 
I just would be happy to help in any way I can without pay. 
That is a standing offer. But there is so much to be done in 
the area of energy efficiency, energy sources and energy 
education that I really think a lot of effort should go into 
that, and I would be happy to--we are out of time here, but I 
would be happy to talk to you about that.
    Secretary Chu. I will take you up on that. There are not 
enough physicists in the Department of Energy. We would be 
happy to have one more.
    Chairman Gordon. Thank you, Dr. Ehlers.
    Mr. Ehlers. Even an unemployed one.

                                Closing

    Chairman Gordon. Dr. Chu, you are always a crowd pleaser, 
so thank you for being here.
    The record will remain open for two weeks for additional 
statements from members and the answers to any follow-up 
questions the committee may ask the witnesses. The witness is 
excused and the hearing is adjourned.
    [Whereupon, at 2:02 p.m., the Committee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
 Responses by Secretary Steven Chu, Secretary of Energy, U.S. 
        Department of Energy

Questions submitted by Representative Daniel Lipinski

Infrastructure Spending

Q1.  I would like to understand DOE infrastructure spending and plans. 
Your written testimony states that DOE has requested $7B to ``upgrade 
our infrastructure that has been allowed to decay in the past decade, 
support the cutting-edge work our National Labs, and recruit the 
skilled workforce we need.'' How much of this $7B is going to 
infrastructure support, including both equipment and facilities? How 
does this subtotal breakdown between science laboratories and NNSA 
facilities? How large is our deferred maintenance backlog at the 
National Labs?

A1. The $7 billion dollars to which you refer is the total requested 
for the Weapons Activities appropriation within the National Nuclear 
Security Administration to ensure the safety, security and 
effectiveness of our nuclear stockpile. Of the $7 billion, 
approximately $2.4 billion will provide infrastructure support. Within 
this amount, about $2.3 billion is for programs that predominately 
support equipment and facilities--Readiness in Technical Base and 
Facilities; Secure Transportation Asset; Facilities and Infrastructure 
Recapitalization Program; and Site Stewardship. The balance of the $2.4 
billion funds capital equipment, general plant projects and 
construction line items supporting other Weapons Activities program 
areas.
    Of the $2.4 billion in infrastructure support, approximately $1 
billion would be spent at the Livermore, Los Alamos and Sandia National 
Laboratories.
    As of the end of FY 2009, the deferred maintenance backlog at these 
laboratories was approximately $1.5 billion.

Q2.  I understand that the total Office of Science FY 2011 request for 
science laboratories infrastructure is $126 M, 1.3% less than FY 2010 
appropriations. Is this correct? How much do you project the Office of 
Science will need to maintain and modernize its physical plant over the 
next 10 years?

A2. The FY 2011 request reflects the completion of funding in FY 2010 
for the Interdisciplinary Science Building at Brookhaven National 
Laboratory, as well as increases in remaining ongoing projects and the 
initiation of two new projects at the Fermi and Jefferson laboratories. 
The net effect is a small reduction in the FY 2011 request relative to 
the FY 2010 appropriation. The Science Laboratories Infrastructure 
program includes construction projects that will modernize the Office 
of Science laboratory facilities and utility systems, ensuring that 
they are mission-ready and can fully support scientific discovery. 
Seven projects have started design, construction, or both, with two 
additional projects proposed for 2011 funding. The cost of the full 
portfolio of recapitalization projects for which we have tentatively 
identified a need is roughly $2.2 billion.

Questions submitted by Representative Paul D. Tonko

Q1.  During my review of the Electricity Delivery and Energy 
Reliability budget I noticed an increase of $26 million for energy 
storage technology research towards larger lithium ion batteries. My 
question is why is DOE requesting extra funding directed towards only 
larger lithium ion batteries, when there are many different types of 
batteries under development especially when it comes to stationary 
uses. Why not make the funding technology neutral?

A1. The Department's FY 2011 increase for energy storage supports 
investments in a range of energy storage technologies and electricity 
grid applications, not just lithium ion batteries. The $26 million 
increase will provide funding for a whole portfolio of research and 
field verifications, including advanced lead-carbon batteries, metal-
air batteries, ultra fast flywheels, ultracapacitors, compressed air 
energy storage technologies, as well as large scale lithium ion 
systems. Also included are analytical studies of storage costs and 
benefits, and ongoing collaborative projects with state energy agencies 
such as California and New York.

Q2.  I think most everyone on this committee is looking forward to the 
creation of the energy innovation hubs. I believe they will produce 
great outcomes for DOE and for our nation. Even through DOE is still in 
the process of setting up the first innovation hub, have there been any 
issues that have arisen thus far with implementation? Also, are there 
issues Congress can help resolve when it comes to streamlining and 
simplifying the application process for future hubs?

A2. The Department of Energy is in the process of establishing three 
Energy Innovation Hubs under the FY 2010 appropriations: Fuels from 
Sunlight; Modeling and Simulation for Nuclear Reactors; and Energy 
Efficient Building Systems Design. The Department coordinated 
development and issuance of the three Funding Opportunity Announcements 
(FOAs) for these Hubs. In each instance, applications are being 
evaluated according to the specific merit review criteria set forth in 
each FOA. The process is proceeding smoothly, and awards will be 
announced later this fiscal year. The application process for any 
potential future Hub will likely follow this same process.

Q3.  Do you support 100% fuel neutrality in the Clean Cities program to 
allow the best technology to come to market, instead of picking a fuel 
winner? If not, why not?

A3. Yes, the Clean Cites program has supported fuel neutrality to allow 
local and regional groups to choose which technologies and alternative 
fuels make the most sense for their specific situation. This policy 
accommodates regional diversity and practical considerations related to 
local economic, business case, and market conditions as well as 
technology performance issues (impacts of severe cold or hot weather, 
unusual vehicle duty cycles, local air quality regulations, etc.). For 
the Fiscal Year 2011 budget request, Clean Cities proposes a portion of 
the budget for focused activity in electrification infrastructure to 
facilitate the introduction of a number of electric drive models, as 
well as to supplement activity supported by the Recovery Act.

Questions submitted by Representative John Garamendi

Q1.  NERSC is no longer a part of the INCITE program, even though 
industry could often benefit more from the software expertise and 
computing capabilities of NERSC. Why is this the case and does the 
Department have a plan for utilizing the unique capabilities of NERSC 
for solving applied problems that may not need the massive computing 
power of the Leadership Class Facilities?

A1. Although NERSC is no longer a part of the INCITE program, the ASCR 
Leadership Computing Challenge (ALCC), created in 2009, allocates up to 
30 percent of the computational resources at NERSC and the Oak Ridge 
and Argonne Leadership Computing Facilities to scientists from 
academia, industry, other agencies, and the DOE applied programs. This 
allocation process is available year-round for high-risk, high-payoff 
simulations in areas directly related to the Department's energy 
mission, for national emergencies, and for broadening the community of 
researchers capable of using leadership computing resources. We believe 
that this is a more appropriate allocation mechanism for those industry 
and applied program research applications that may not need the massive 
computing power of the Leadership Class Facilities.

Q2.  The Department of Defense is the nation's largest single user of 
energy and the 2010 Quadrennial Defense Review recognizes the need for 
DOD to use alternative energy and improve energy efficiency to support 
its critical national security mission. In my District, Travis Air 
Force Base, the premier airlift facility on the West Coast, is taking 
steps to achieve greater energy efficiency and use energy from 
renewable sources, but they will need new technology to achieve their 
goals. As you know, my District is also home to two DOE national 
laboratories--Sandia and Lawrence Livermore. Therefore, what steps is 
the Department of Energy taking to partner with DOD to make sure that 
new energy technologies are being transferred and made available for 
the DOD to implement? Specifically, how are the capabilities of the DOE 
national laboratories being used to support the important DOD 
objective?

A2. Significant collaboration exists between the Department of Energy 
(DOE) National Laboratories and the Department of Defense (DOD) and DOE 
Lab capabilities are being used to help DOD achieve its alternative 
energy and energy efficiency goals.
    As an example of this support, the Federal Energy Management 
Program (FEMP) within the DOE's Office of Energy Efficiency and 
Renewable Energy used American Recovery and Reinvestment Act (ARRA) 
funds to issue a call for National Laboratory technical assistance (TA) 
services for Federal agency applicants. FEMP provided TA to DOD 
facilities through this call with the Navy, Army, Air Force, Marines, 
Pacific Command (PACOM), and Northern Command (NORTHCOM). While not all 
projects fit into one category, most projects involve retro-
commissioning, renewables, assessments, training, micro-grid/smart-grid 
analysis or some combination of these four activities.
    The PACOM technical assistance project funded through the FEMP ARRA 
TA call is one example of using an integrated team of DOE National Labs 
to address complex DOD energy objectives. To help meet energy 
challenges at PACOM, FEMP organized a multilaboratory team to use each 
labs area of expertise. The PACOM energy goal is to develop an 
integrated, expanded approach for military installations which will 
advance energy efficiency, renewable energy, energy manager training, 
and micro grid assessments. Instead of implementing individual 
projects, this systems approach maximizes energy savings by providing a 
framework for integrating the individual components into a logical 
whole.
    FEMP has also funded NREL to provide expertise on in-theater 
tactical energy use assessment trips with the Marine Corps and the Air 
Force. During these two trips, NREL experts helped identify potential 
energy efficiencies in a deployed environment
    DOD and the Services are also receiving lab expertise through the 
DOD-DOE Initiative Net Zero Energy Installation (NZEI) activity to 
address issues of energy security. Through this initiative, NREL is 
analyzing one installation from each service to determine the potential 
for it to become a net zero energy installation. The sites selected are 
MCAS Miramar (Marine Corps), Air Force Academy (Air Force), and 
Pohakuloa Training Area (Army). The Navy project identification is 
pending. Based on the MCAS Miramar project, NREL is creating a 
standardized NZEI process template for other military bases.
    In conclusion, the DOE National Laboratories are a resource for DOD 
facilities to achieve their energy goals. Dr. Dorothy Robyn, Deputy 
Under Secretary of Defense for Installations and Environment, supported 
this in her testimony before the House Armed Services Committee 
Subcommittee on Readiness, stating, ``With respect to facilities 
energy, the military's most valuable role will be as a testbed for next 
generation technologies coming out of laboratories in industry, 
universities and the Department of Energy \1\.'' DOE continues to 
interact with DOD to increase coordination and ensure that the DOD can 
increase its access to the DOE's National Laboratory System.
---------------------------------------------------------------------------
    \1\ Statement of Deputy Under Secretary of Defense for 
Installations and Environment Dr. Dorothy Robyn before the House Armed 
Services Committee Subcommittee on Readiness. February 24, 2010 http://
www.acq.osd.mil/ie/download/robyn<INF>-</INF>testimonyO22410.pdf

Q3.  I would like to thank you, Mr. Secretary, for your prompt 
attention to a letter my colleagues and I sent on February 1st 
requesting you to appoint a Technology Transfer Coordinator. This 
appointment is an important first step in the revitalization of a 
robust Technology Transfer program which will ultimately lead to 
additional U.S. jobs and reestablish the technology, leadership of the 
U.S. Mr. Secretary, I would like to know, now that the Coordinator is 
in place, how does the Department intend to find the funding needed to 
actually get money to our national laboratories to make technology 
---------------------------------------------------------------------------
transfer a reality?

A3. On February 23, 2010, I announced the selection of Dr. Karina 
Edmonds to serve as the Department of Energy's new Technology Transfer 
Coordinator. She will oversee a coordinated, strategic effort on behalf 
of the Department to increase the rate of successful technology 
transfers, create clean energy jobs, and provide more solutions to our 
energy and climate challenges. Dr. Edmonds will work directly with the 
Department's national laboratories to accelerate the process of moving 
discoveries and inventions from the laboratory to the private sector 
and ensure that America's scientific leadership translates into new, 
high-paying jobs for America's families.
    Dr. Edmonds is scheduled to join the Department in mid-April 2010. 
Among her first tasks will be visits to the national laboratories, to 
discuss opportunities for streamlining the technology transfer process 
and reducing transaction costs. This should make the Department a more 
responsive partner for both large and small companies, as well as 
nonprofit R&D institutions, venture capital, and other investors.

Question submitted by Representative Lincoln Davis

Q1.  The DOE energy programs conduct a significant part of the research 
at the Office of Science labs, drawing on the strong capabilities and 
tools that exist there. However, much of the infrastructure that 
supports these programs is aging and no longer state of the art. While 
the Recovery Act has provided an opportunity to renew DOE 
infrastructure, there may still be additional opportunities to create 
jobs by considering funding infrastructure at science labs conducting 
research for the Energy Efficiency and Renewable Energy program by 
using some of the remaining ARRA funding. Oak Ridge has been working on 
a Translational Research Building that is ready to go and would be on 
example of how job creation could be accelerated and future EERE 
research supported. Secretary Chu, do you think we need to be using 
funds across the complex to modernize and update all science lab 
facilities that conduct EERE R&D work? Furthermore, could Recovery Act 
funding for EERE be used to address some of the immediate 
infrastructure needs of the program across the national laboratory 
complex?

A1. The Department's Office of Energy Efficiency and Renewable Energy 
(EERE) works with a variety of national laboratories to accomplish our 
mission of strengthening America's energy security, environmental 
quality and economic vitality. Yes, we believe that utilizing funding 
across the complex to modernize all labs that conduct EERE R&D is a 
good idea. To that end, EERE has awarded over $258 million in Recovery 
Act funding to facilities projects that are largely directed to 
construct, upgrade, renew and modernize lab facilities and their 
infrastructure:

        <bullet>  Integrated Biorefinery Research Expansion--$13.4 
        million for the construction of a national facility that 
        provides continuous industrial scale research and development 
        process capability designed to accelerate the development of 
        advanced waste cellulose to ethanol production processes.

        <bullet>  Renewable Energy and Supporting Site Infrastructure--
        $86.8 million to acquire renewable energy capabilities to 
        replace electricity and gas purchased through the local 
        utility, increase security capability, provide ADA access 
        improvements, and provide enhanced site pedestrian access and 
        circulation to the National Renewable Energy Laboratory (NREL). 
        This project will develop a renewable energy strategy and 
        design renewable energy supply networks to power the NREL site 
        and buildings in pursuit of net zero energy.

        <bullet>  Lab Call for Facilities and Equipment--$104.8 million 
        to construct and/or buildout an existing facility to conduct 
        research on the systems design, integration and control of new 
        and existing buildings; construct highly flexible, highly 
        instrumented, pilot scale facilities needed to support new and 
        enhanced R&D into advanced energy storage technologies 
        (batteries, ultra-capacitors, asymmetric or hybrid ultra-
        capacitors) for automotive applications; and construct and 
        operate a highly flexible, highly instrumented low cost carbon 
        fiber technology demonstration facility for demonstrating and 
        evaluating new low-cost manufacturing processes and 
        technologies at pilot scale.

        <bullet>  National Wind Technology Center (NWTC) Upgrades--
        $10.0 million to provide the NWTC with two major upgrades to 
        existing facilities that support testing of wind turbines: 
        upgrades to the 2.5MW dynamometer facility to 5.0MW and 
        upgrades to the electrical distribution system.

        <bullet>  National Renewable Energy Laboratory (NREL) Ingress/
        Egress Project--$44 million for the parking, site access, and 
        roadway improvements necessary to efficiently and effectively 
        support development of the NREL campus and to maintain the 
        safety and security of NREL.

    For example, $54 million was competitively awarded to the Oak Ridge 
National Lab for infrastructure investments expected to create jobs and 
aid future research. The investments at Oak Ridge include a Net-Zero 
Energy Buildings Research Laboratory and a 20,000 square foot Carbon 
Fiber Technology Center to help develop the next generation of 
lightweight materials to improve vehicle efficiency. These investments 
address critical infrastructure needs as the labs continue to expand 
their portfolios of research. The Recovery Act investments at Oak Ridge 
and other national labs are key to advancing our R&D work as well as 
accomplishing our mission.

Question submitted by Representative Ben Chandler

Q1.  Secretary Chu, the Department of Energy, through the American 
Reinvestment and Recovery Act and other funding opportunities, has 
shown that advanced battery manufacturing technology is a priority for 
the Obama Administration. As you know, nearly all high-volume 
commercial production of advanced batteries occurs in Asia, where 
government investment has facilitated the rapid development and 
production of these technologies. The Commonwealth of Kentucky is 
attempting to help the United States become a leader in the development 
of this technology by establishing a Battery Manufacturing R&D Center.

          The center--a joint effort between the Commonwealth 
        (represented by the University of Kentucky and the University 
        of Louisville) and Argonne National Laboratory--will focus on 
        the development and integration of manufacturing technology for 
        new energy storage applications, and more specifically, the 
        research and development of new battery technologies for the 
        automotive sector.

          How does the work that this Center will perform mirror the 
        goals of the Obama Administration on advanced battery 
        manufacturing technology? Also, how does the President's budget 
        create or encourage research and development and/or 
        manufacturing opportunities to create a vibrant and globally 
        competitive Lithium-Ion industry in the United States?

A1. The President's budget places increasing importance on supporting 
research and development of battery technology. The American 
Reinvestment and Recovery Act created major opportunities for 
establishing domestic lithium-ion manufacturing facilities through 
competitive awards. In addition, the Advanced Technology Vehicles 
Manufacturing (AVTM) loan program and 48c tax credits support domestic 
manufacturers of advanced batteries. The combination of accelerated R&D 
and investment in manufacturing capabilities is expected to help create 
a vibrant and globally competitive advanced battery industry in the 
United States.
    The work the Battery Manufacturing R&D Center plans to perform 
supports the goals of the Administration to establish a domestic 
advanced battery manufacturing capability. Its emphasis on battery 
manufacturing technology could help to bridge the gap between existing 
competitively awarded battery research/development efforts and the 
industrial materials and processes that are needed for fabricating 
these batteries on a mass production scale and at a globally 
competitive cost.
    As you are probably aware, the Commerce Department's National 
Institute of Standards and Technology (NIST) recently awarded an $11.8 
million grant to the University of Kentucky Center for Applied Energy 
Research (CAER) to expand their laboratory facilities, including 
research into advanced battery technology for plug-in hybrid vehicles 
at the Kentucky-Argonne National Battery Manufacturing Research and 
Development Center. The new facility will include labs for process 
development, prototype manufacturing and testing to support applied 
research on batteries and capacitors.

Questions submitted by Ranking Member Ralph M. Hall

Office of Science Prioritization

Q1a.  In 2006 testimony before this Committee on behalf of the National 
Academies' Gathering Storm report, you said ``In funding ARPA-E, it is 
critical that its funding not jeopardize the basic research Supported 
by the Department of Energy's Office of Science. The committee's 
recommendations are prioritized and its top recommendation in the area 
of research is to increase the funding for basic research by 10% per 
year over the next seven years.'' [Source: http://science.house.gov/
commdocs/hearings/ful106March%209/Chu.pdf]

          The DOE budget requests $300 million for ARPA-E, but only 
        provides a four percent increase for the Office of Science 
        (after it received just a two percent increase in FY 2010). 
        This clearly violates the principle set forth in your 2006 
        testimony and the NAS Gathering Storm recommendations. What is 
        the basis for the Administration's decision to place a lower 
        priority on Office of Science funding?

A1a. The President's Plan for Science and Innovation commits to 
doubling the overall Federal investment in basic research at the Office 
of Science, the National Science Foundation, and the National Institute 
of Standards and Technology. The FY 2011 Office of Science request of 
$5.12 billion represents 41 percent growth over the FY 2006 
appropriation of $3.63 billion; this growth equates to an annualized 
growth rate of 7.1 percent, close to the annualized growth rate of 7.2 
percent required to double funding over ten years. While the 
President's Plan does not promise a specific growth rate for each 
individual agency, basic research funding in the Office of Science is 
on a strong growth path. Funding support for the Advanced Research 
Projects Agency-Energy has not jeopardized this growth path.
    In addition to the annually appropriated funds, the American 
Recovery and Reinvestment Act provided $1.6 billion for the Office of 
Science, which further supports the Office's basic science mission and 
the President's Science and Innovation Plan.
Q1b.  Related to this, your testimony stated that the budget ``sustains 
the President's commitment to double the budgets of three key science 
agencies,'' including the DOE Office of Science. However, the Office of 
Science is increased by just 4.4 percent, after receiving only a two 
percent increase last year. Do you intend to double the budget for the 
Office of Science and if so, over, how many years?

A1b. The FY 2011 request represents a 7.1 percent annualized growth 
rate since the FY 2006 appropriation. The White House Office of Science 
and Technology Policy released a document as part of the budget rollout 
entitled ``Doubling Funding at Key Science Agencies'' (available at 
http://www.whitehouse.gov/sites/default/files/
doubling%2011%20final.pdf), which shows the doubling profile is on 
track to be completed by FY 2017.

Q2a.  You stated in your testimony that ARPA-E ``is dedicated to the 
market adoption'' of new energy technologies. The statutory charge for 
ARPA-E, however, makes no reference to ``market adoption'' but instead 
says that ARPA-E's mission should be to ``overcome longterm and high-
risk technological barriers.'' Please reconcile this statement in your 
testimony in the context of ARPA-E's statutory charge.

A2a. Your statement is correct about the statutory mission given for 
the establishment of ARPA-E in the America COMPETES Act of 2007. The 
statute elaborates on the means to achieving this mission as 
``translating scientific discoveries and cutting-edge inventions into 
technological innovations'' and ``accelerating transformational 
technological advances in areas that industry by itself is not likely 
to undertake because of technical and financial uncertainty.'' Included 
among the responsibilities of the ARPA-E Director in achieving the 
goals of ARPA-E is through awards that target acceleration of 
``demonstration of technologies and research applications to facilitate 
technology transfer.'' We feel that the intent of the statute, though 
not completely explicit and at the same not entirely implicit, is for 
ARPA-E to overcome long-term and high-risk technological barriers that 
are preventing the translation of scientific discoveries and cutting-
edge inventions into technological innovations, and to facilitate the 
transfer of those technological innovations to the market.
    It is important to note that ARPA-E will not be picking the winners 
and deciding which technologies and associated products will be put on 
the market. Demand pull from the market and private companies will 
decide the winners. ARPA-E's role is simply to identify and fund 
research projects that will overcome the long-term and high-risk 
technological barriers that are preventing a promising potentially 
transformational technological innovation from getting to the stage 
where private investment will take over and turn the technology into a 
marketable product. Furthermore, ARPA-E will invest in multiple 
competitive approaches to reach technology targets, and then let the 
private sector pick those approaches that is best for business.

Q2b.  Related to this, the law establishing ARPA-E states that it 
should pursue ``high-risk'' technological advances ``in areas that 
industry by itself is not likely to undertake.'' This seems 
appropriate, and will presumably ensure that tax dollars don't compete 
with venture capital or other private equity, but rather are focused on 
advancing technologies through the ``valley of death'' that is too 
risky for private investment. Do you agree with this philosophy--
specifically that tax dollars should not be invested/spent on 
technologies where the risk is already low enough to attract private 
investment?

A2b. I do agree with the philosophy outlined in the ARPA-E authorizing 
legislation. ARPA-E has a rigorous process for evaluating and selecting 
proposals. For its first funding opportunity, ARPA-E evaluated over 
3,700 concept papers, and selected only 37 submissions for award. ARPA-
E does not fund applications that are deemed to have low 
transformational value, meaning incremental improvements on existing 
technology. ARPA-E does not seek to ascend existing learning curves; 
instead, ARPA-E seeks to create entirely new learning curves. These 
types of projects have high technical and/or market uncertainty, and 
are not being funded by industry.
    We meet and communicate regularly with venture capitalists and 
other private investors to get a sense of their appetite for risk and 
the types of projects they are funding and not funding. In addition, I 
have hired staff with background in the venture capital industry in 
order to make more precise determinations of the types of high risk 
projects that are appropriate for ARPA-E to fund.
    Let me also explain through the figure below. Office of Science 
funds research in basic science and, at times, feasibility of a basic 
idea or a concept. Private capital is generally available at Technology 
Readiness Levels when products can be made based on a technology, and 
customers are ready to buy such products. Therefore, from the concept 
feasibility stage to the product development stage, a big gap exists 
today where many good ideas perish because the concepts cannot be 
translated into technologies. When these technologies are disruptive 
and could make today's approaches obsolete, this translation of ideas 
to technology is too risky both for the private sector and the applied 
science offices in DOE, especially. ARPA-E's goal is to invest in 
translating such ideas and concepts into disruptive technologies and 
helping to make them market ready. Furthermore, ARPA-E will invest in 
multiple disruptive technological approaches to reach the same goal 
(e.g., high energy density, low-cost batteries for plug-in hybrid 
vehicles), and then let the private sector pick the winning technology 
based on what is best for business. Hence, ARPA-E's goal is to reduce 
technological risks at various stages of developing disruptive 
technologies.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q3.  Last week, investigative reporter John Stossell revealed that DOE 
awarded over $500,000 in Stimulus funding to a company whose top public 
policy executive is married to the DOE political appointee (Assistant 
Secretary for EERE Cathy Zoi) in charge of the program that made the 
award. While the Department has stated that the appointee officially 
recused herself from the award process, her subordinates were 
presumably aware of, and potentially impacted by, the connection 
between their boss in this company.

          What is your reaction to this story? Do you agree that it 
        presents conflict of interest concerns, if not legally then at 
        least perceptually? If so, how will you address these concerns? 
        What additional steps is the Department taking to ensure that 
        similar conflicts of interest are avoided as part of the 
        unprecedented ($27 billion) spending that it is carrying out 
        due to the Stimulus bill?

A3. The entire Obama Administration and the Department of Energy in 
particular are committed to the highest ethical standards, and we take 
very seriously allegations of misconduct or appearances thereof This 
Administration has been extraordinarily transparent and has put in 
place unprecedented ethics rules. With regards to this particular 
issue, the Department has taken concrete steps to maintain the 
independence of the merit review process. As the Committee knows, Ms. 
Zoi disclosed her husband's employment prior to her confirmation both 
to the Senate Energy and Natural Resources Committee and in her public 
financial disclosure report. The law requires her to recuse herself 
from acting on any particular matters that would have a direct and 
predictable effect on her husband's employer. She has fully complied 
with that recusal and voluntarily gone much further. She has completely 
recused herself from any DOE business regarding window manufacturing. 
The Office of Energy Efficiency and Renewable Energy has a screening 
mechanism in place to ensure that matters from which she is recused do 
not reach her desk. The matters she is recused from are handled by a 
senior career official and her principal deputy, and by the 
Undersecretary and the Deputy Secretary where appropriate. However, the 
bulk of issues that EERE is involved in do not affect her husband's 
employer. These procedures are in place throughout the Department and 
we are confident in our ability to avoid conflicts.

Tax Increases on Fossil Fuels and Dependence on Foreign Energy

Q4.  In your budget testimony to the committee last year, you 
emphasized reducing dependence on foreign oil and energy security as 
one of your top priorities. This year, you did not mention it, but you 
do note that the budget raises taxes on domestic energy sources and 
cancels oil and natural gas R&D programs. These measures will obviously 
raise the cost of production, increasing energy imports and our 
dependence on foreign oil, including that from hostile sources. Please 
reconcile these policy choices with your prior emphasis on energy 
security. Has the Department estimated how much impact these tax 
increases will have on domestic oil and gas production and, ultimately, 
energy prices? If not, why not?

A4. The Administration and the Department continue to emphasize the 
pressing need to reduce our dependence on oil as an essential matter of 
energy security. To promote this goal we are pushing forward with a 
wide range of initiatives including Vehicle and Fuel Cell Technologies 
to improve the efficiency with which we use energy as well as new 
alternative and ``green'' energy sources such as solar and biofuels. In 
addition, the President recently announced that the Department of the 
Interior can consider leasing oil and gas resources on the Federal 
Outer Continental Shelf off Virginia and other selected parts of the 
Atlantic seaboard and the Eastern Gulf of Mexico.
    With respect to the Administration's proposal to reduce some of the 
advantageous tax benefits for the domestic petroleum industry, we 
believe as a matter of good tax policy that the Federal Government 
should not provide incentives for the commercial production of oil and 
gas. The Department has not estimated what the impacts might be on 
domestic production from these tax changes.

Q5a.  What is DOE doing to ensure the NRC quickly establishes a 
licensing protocol for Small Modular Reactors? When do you envision the 
first design being licensed?

        b.  Please explain the evolution of DOE's R&D work on used fuel 
        recycling over the past year.

        c.  How much progress has been made in partnering with the 
        industrial community on development of the Next Generation 
        Nuclear Plant? What is the status of the project?

A5a. The DOE does not specify licensing protocol to the NRC for any 
reactor type. As an independent regulatory authority, the NRC 
establishes the licensing process for new nuclear power plants. The 
Office of Nuclear Energy (NE) has, however, been interacting with the 
NRC and attending forums and workshops with industry to consider the 
unique licensing requirements of small modular reactors (SMRs). These 
meetings and workshops are expected to help identify technical and 
potential regulatory questions such as differences in size, 
vulnerability and safety system requirements that are inherent to SMR 
designs. NE is also participating with NIST, NRC, vendors, and other 
relevant stakeholders to assure that the unique elements of SMRs are 
addressed in new or existing nuclear codes and standards. Improved 
licensing protocols and updated codes and standards are expected to 
benefit the licensing of large LWR plants and could help provide a 
basis for industry's eventual SMR design certification and plant 
licensing. It is possible that industry could submit design 
certification applications to the NRC for light water reactor-based 
SMRs as early as 2012, depending on the maturity of the technology. We 
anticipate the NRC review cycle for the Design Certification to take 
approximately three years, with the first SMR design potentially being 
certified in the 2015 timeframe.

A5b. During the past year, DOE's R&D work on used fuel recycling has 
shifted from a program in support of possible near-term implementation 
of evolutionary processes to a science-based research program seeking 
revolutionary approaches to recycling. The current program is designed 
to understand the fundamental mechanisms of the separation process and 
to develop advanced processes far beyond today's solvent extraction 
methods.

A5c. The Department has been working with private industry since the 
Next Generation Nuclear Plant (NGNP) project began. Industry has helped 
define the requirements that guide all NGNP research and development, 
has participated with the Department as we work with the U.S. Nuclear 
Regulatory Commission on gas-cooled reactor licensing, and has 
completed a number of trade studies and pre-conceptual design reports 
for the NGNP. Industry has also worked with the Department to identify 
end-users and to establish end-user requirements for the NGNP. On March 
8, 2010, the Department announced that it would cost share with 
industry for the conceptual design of the NGNP with teams led by 
Westinghouse Electric Co. and General Atomics. The status of the NGNP 
project was provided to Congress in the NGNP Report to Congress, which 
was submitted in March 2010.

Green Jobs

Q6.  Promoting ``Green Jobs'' or ``Clean Energy Jobs'' is clearly a 
priority for the administration as reflected in this budget, and 
President Obama has often noted that the cleans energy subsidies 
pursued in Germany and Spain provide a model that he would like the 
U.S. to follow. However, a growing body of data indicates that these 
models are inefficient and highly expensive. An authoritative study by 
one of Spain's leading universities found that the average subsidy cost 
for each ``green job'' created in Spain was $800,000, and that Spain's 
creation of 50,000 green jobs resulted in 110,000 lost jobs elsewhere 
in the country. A similar study in Germany found that wind and solar 
subsidization in Germany amounted to $244,000 per ``green job'' and 
added 7.5% to the cost of household electricity bills.

          Do you agree with and have you considered the studies' 
        conclusions that such subsidies hurt job creation and increase 
        energy prices in formulating your own green jobs agenda? How 
        does the administration's plan for subsidizing green jobs 
        compare to from the models employed in Europe and cited by 
        President Obama?

A6. I am not familiar with the studies you reference. While there are 
some initial costs to promoting the growth of green jobs, these up-
front costs can be viewed as ``down payments'' on a future workforce 
that will have the skills to complete globally in the clean energy 
sector. At present, not one American university offers a master's 
program in interdisciplinary energy studies that covers clean energy 
technology industries as well as business, economics, and other useful 
disciplines to create well-rounded energy entrepreneurs of the future. 
In addition, the American Association of Community Colleges estimates 
that less than ten percent of the nation's 1,700 community colleges 
have begun to develop curricula for renewable energy and energy 
efficiency career tracks, and these programs generally lack national 
standards and accreditation processes. As we transition to a clean 
energy economy, developing national standards, training a new workforce 
(including measures to ``train the trainer''), and improving quality 
and accountability are all important steps that take time and money to 
initiate. President Obama is committed to investing in clean energy 
jobs that cannot be outsourced. One example is in the home 
weatherization and retrofit market, which create jobs while saving home 
owners money on their utility bills. Moreover, through leveraging the 
investments made in the Recovery Act, the Federal Government plans to 
partner with state and local governments to help expand the nation's 
home retrofit market by supporting municipal energy financing and 
increasing the use of Energy Efficient Mortgages, among other measures, 
that will reduce retrofit costs to the homeowner and create good-paying 
weatherization jobs.

Q7.  EERE Budget documents state that the $50 million for RE-ENERGYSE 
will emphasize a ``communications/media campaign to promote energy 
efficiency to K-12 students.'' What specifically will this ``campaign'' 
entail? Is it appropriate for EERE and the Federal Government to invest 
tax dollars to behavioral-change activities at high schools? Given that 
energy efficiency measures typically include important tradeoffs (such 
as increased costs and lower convenience) and raise questions that 
students and other citizens should be free to decide upon on their own 
terms, how is such policy (and even political) activism an appropriate 
use of Federal tax dollars?

A7. The Department of Energy's newly proposed energy systems education 
and technical training program, RE-ENERGYSE, has been designed to 
create and enhance U.S. science, technology, engineering and math 
(STEM) education opportunities, and improve STEM and energy education 
resources for teachers and students; and is not intended at changing 
behaviors or inducing activism.
    Through the Department's FY 2011 Budget Request, $55M was included 
for RE-ENERGYSE ($50M administered by EERE and $5M administered by NE), 
which will educate and prepare today's students and workforce to enter 
and excel at professions in the low-carbon economy. The bulk of the RE-
ENERGYSE proposed funding ($46M) will support technical and research-
focused undergraduate, community college, graduate and post-doctoral 
education opportunities, with $9M of funding to support K-12 education 
and outreach. The K-12 and outreach activities will be aimed at 
inspiring the next generation of Americans to pursue careers in 
science, technology, engineering and math disciplines (STEM). Such 
activities could include: curricula development, competitions, teacher 
support and training, and communications/media campaigns that will 
harness a mix of technologies and innovative education methods such as 
videos, contests, and web interactivity. These activities will engage 
and attract students to STEM disciplines, and are critical to 
increasing the pipeline of students entering STEM and energy fields.
    The communications/media campaign key activity will achieve a two-
fold goal of communicating EERE's mission while simultaneously 
developing the next generation of scientists, engineers, energy 
entrepreneurs, and other energy professionals. To ensure the greatest 
impact, these funding opportunities will be awarded through a 
competitive grant process and will be made to schools, organizations, 
non-profits, etc., who can demonstrate the greatest ability to attract 
and engage K-12 students to STEM and energy disciplines using 
innovative education and communications methods.

Yucca Mountain

Q8a.  What is the scientific or technical basis, if any, for your 
decision that the proposed Yucca Mountain repository is ``not an 
option''?

        b.  How does your decision comport with the Department of 
        Energy's (DOE statutory obligations under the Nuclear Waste 
        Policy Act of 1982, as amended?

        c.  Prior to your public statements that Yucca Mountain 
        repository is ``not an option,'' was any analysis performed of 
        the potential taxpayer liabilities associated with such a 
        decision?

        d.  Please provide all documents relating to any legal, 
        technical, or scientific analyses that formed the basis for 
        your decision to re-evaluate nuclear waste disposal 
        alternatives to the proposed Yucca Mountain repository, 
        including, but not limited to, evaluations and recommendations 
        that led you to determine that Yucca Mountain was ``not an 
        option.''

        e.  What was the process for making your decision that Yucca 
        Mountain repository is ``not an option''? Please describe and 
        identify when and with whom you consulted, including, but not 
        limited to, a description and identification of attendees at 
        any public meetings, any Administration meetings, and any 
        consultations with States affected by the decision.

        f.  In reaching your determination that the Yucca Mountain 
        repository is no longer an option, did you consult with or 
        receive any briefings from the Nuclear Waste Technical Review 
        Board, DOE laboratory directors or personnel, or any DOE 
        scientists or technical personnel who performed work on the 
        Yucca Mountain project? Please describe when and with whom you 
        consulted, including, but not limited to, a description and 
        identification of attendees at any meetings.

        g.  Have you shared your rationale for determining that the 
        Yucca Mountain repository is ``not an option'' with the Nuclear 
        Waste Technical Review Board or the Nuclear Regulatory 
        Commission?

        h.  Have you or your staff prepared any analyses of the 
        potential impact that failing to pursue the Yucca Mountain 
        repository may have on the construction of new nuclear plants, 
        which are essential to providing clean and reliable energy in 
        the future? If so, please provide any such analyses.

        i.  How do you believe the Administration's decision to scale 
        back the Yucca Mountain project will affect DOE's 
        responsibility to develop, construct, and operate repositories 
        for disposal of spent nuclear fuel and high-level radioactive 
        waste under the Nuclear Waste Policy Act of 1982, the Nuclear 
        Waste Policy Amendments Act of 1987, and the Energy Policy Act 
        of 1992?

        j.  If a repository at Yucca Mountain is not pursued, what does 
        the Administration propose to do with the billions of dollars 
        that have been collected from ratepayers for the Nuclear Waste 
        Fund?

A8a. Scientific and engineering knowledge on issues relevant to 
disposition of high-level waste and spent nuclear fuel has advanced 
over the 20 years since the Yucca Mountain project was initiated. And, 
the Administration believes we can find a better solution that achieves 
a broader national consensus. That is why we have convened the Blue 
Ribbon Commission on America's Nuclear Future; it will provide advice 
and make recommendations on alternatives for the storage, processing 
and disposal of civilian and defense used nuclear fuel and nuclear 
waste. The Commission plans to issue an interim report in 18 months and 
a final report within 24 months of its inception.

Ab. DOE is acting in a manner consistent with the Nuclear Waste Policy 
Act (NWPA) and the Atomic Energy Act (AEA), as amended. The AEA gives 
the Secretary broad authority to carry out the Act's purposes, 
including the authority to direct the Government's ``control of the 
possession, use, and production of atomic energy and special nuclear 
material, whether owned by the Government or others, so directed as to 
make the maximum contribution to the common defense and security and 
the national welfare.'' This power was not limited in any relevant way 
by the NWPA. On the contrary, under the NWPA, the NRC proceeding as to 
Yucca must be conducted ``in accordance with the laws applicable to 
such applications . . . .'' NWPA Sec.  114(d), 42 U.S.C. Sec.  
10134(d). Those laws include the NRC's regulations governing license 
applications, including the provision authorizing withdrawal of 
applications, 10 C.F.R. Sec.  2.107(a).

Ac. The spent nuclear fuel litigation liability is currently estimated 
to be $12.3 billion. Depending on the alternative option adopted as the 
nation's policy on spent nuclear fuel and high-level waste that 
liability could increase or decrease. I look forward to receiving the 
Blue Ribbon Commission's forthcoming recommendations on ways to proceed 
with the disposal of spent nuclear fuel and high-level waste.

Ad. As noted above, I believe that the scientific and engineering 
knowledge has advanced considerably over the past two decades and that 
those advances, as reviewed and evaluated by the Blue Ribbon 
Commission, should inform our choice of a solution to the nuclear waste 
disposal issue.

Ae. As the Secretary of Energy, I am responsible for this decision.

Af. Please see my answers above.

Ag. I have not shared my views with the Nuclear Waste Technical Review 
Board. DOE's Motion to Withdraw before the NRC summarizes its rationale 
for not proceeding with the Yucca Mountain application.

Ah. The Department is confident that the decision not to proceed with 
the development of the Yucca Mountain repository will not have an 
impact on the construction of new nuclear power plants. Spent nuclear 
fuel can be stored at nuclear facilities for many more decades. We will 
have recommendations from the Blue Ribbon commission by the end of 2011 
or early 2012. The Department and Congress will thus have ample 
opportunity to move forward with a better approach to these issues in a 
manner informed by the Commission's recommendations.

Ai. Please see answer to subquestion (b) above.

Aj. The Administration will utilize the monies in the Nuclear Waste 
Fund to fulfill its responsibility for the disposal of spent nuclear 
fuel and high-level radioactive waste. The specific path that the 
Administration takes will be informed by the recommendations of the 
recently constituted Blue Ribbon Commission.

Questions submitted by Representative Bob Inglis

Yucca Mountain and Nuclear Considerations

Q1.  What is the factual basis for seeking to withdraw the Yucca 
Mountain application from the NRC? Is this a decision grounded in 
science or in political ideology? Has DOE conducted any analysis of the 
science and engineering behind the site or design to substantiate this 
decision?

A1. In my judgment the scientific and engineering knowledge on issues 
relevant to disposition of high-level waste and spent nuclear fuel has 
advanced over the twenty years since the Yucca Mountain project was 
initiated. I believe future proposals for the disposition of such 
materials should thus be based on a comprehensive and careful 
evaluation of options supported by that knowledge, as well as other 
relevant factors, including the ability to secure broad public support, 
not on an approach that has not proven ineffective over several 
decades.

Yucca Mountain and Nuclear Considerations

Q2.  Why is this application being withdrawn before the NRC has 
completed its safety and environmental reviews of the Yucca Mountain 
site?

A2. As stated previously the Administration has determined that Yucca 
Mountain is no longer a workable option. At this point, it no longer 
makes sense to expend limited resources on the licensing of the Yucca 
Mountain repository.

Q3.  Do you agree that this decision is in violation of the Nuclear 
Waste Policy Act?

A3. No, I do not agree that this decision is in violation of the 
Nuclear Waste Policy Act (NWPA), as amended, or any other provision of 
Federal law. The Atomic Energy Act gives the Secretary broad authority 
to carry out the Act's purposes, including the authority to direct the 
Government's ``control of the possession, use, and production of atomic 
energy and special nuclear material, whether owned by the Government or 
others, so directed as to make the maximum contribution to the common 
defense and security and the national welfare.'' Exercise of this power 
in connection with the NRC proceeding was not limited in any relevant 
way by the NWPA. On the contrary, under the NWPA, the NRC proceeding as 
to Yucca must be conducted ``in accordance with the laws applicable to 
such applications . . . .'' NWPA Sec.  114(d), 42 U.S.C. Sec.  
10134(d). Those laws include the NRC's regulations governing license 
applications, including the provision authorizing withdrawal of 
applications, 10 C.F.R. Sec.  2.107(a).

Q4.  Without Yucca Mountain, what do you plan to do with the DOE-spent 
fuel and high level waste accumulating at the Environmental Management 
Sites at Savannah River and elsewhere? Do you expect these sites and 
their surrounding communities to continue to bear the risk of temporary 
waste storage?

A4. DOE spent nuclear fuel and high-level waste will continue to be 
safely stored at the Department's sites until an alternative method of 
meeting the Federal Government's obligation to dispose of high-level 
waste and spent nuclear fuel is identified. The Office of Environmental 
Management will work with our stakeholders to assure them we intend to 
continue our tank waste projects as planned and in accordance with our 
compliance agreements, as reflected in the FY 2011 Budget Request.

Q5.  The Blue Ribbon Commission is directed to review all alternatives 
for the storage, processing, and disposal of civilian and defense spent 
fuel and high level waste. Will the Commission review Yucca Mountain as 
an option for permanent disposal? If the Commission finds geologic 
storage to be the optimal decision for securing nuclear waste over the 
long term, will the Administration renew efforts at Yucca Mountain?

A5. The Commission will not review Yucca Mountain as an option for 
permanent disposal. The Blue Ribbon Commission to focus on alternative 
methods of meeting the Federal Government's obligation to dispose of 
high-level waste and spent nuclear fuel.

Q6.  How do you reconcile the Administration's decision to terminate 
the Yucca Mountain Project with their commitment to bringing more 
clean, reliable nuclear energy on-line? Are you confident that the 
nuclear industry will be able to attract investment without a clear 
solution for long-term waste storage?

A6. The Administration remains committed to fulfilling its obligations 
to dispose of the Nation's spent nuclear fuel and high-level 
radioactive waste. I am confident that the nuclear industry will be 
able to attract investment and the decision to terminate the Yucca 
Mountain repository will have no bearing on the ability of the industry 
to attract investment. Spent nuclear fuel is safe in on-site storage 
for many decades, and, during that time, I am confident that, working 
together, we can devise better solutions for the long-term disposal of 
spent nuclear fuel.

Q7.  Is DOE currently working with the NRC to streamline the 
application process to bring new nuclear reactors to market quicker?

A7. As an independent regulatory authority, the Nuclear Regulatory 
Commission (NRC) establishes the licensing process for new nuclear 
power plants. There is a working relationship between NRC and DOE in 
certain contexts but, owing to the distinctly different roles, 
missions, and responsibilities of the two agencies, DOE is not directly 
involved in the licensing process. DOE and NRC are cooperating on 
technical issues that may affect the overall licensing process. The two 
agencies are working on the implementation of the Next Generation 
Nuclear Plant (NGNP) Licensing Strategy, contained in the report 
submitted to Congress in August 2008. Periodic discussions are held on 
technical and procedural issues, including R&D needs, regulatory gaps, 
emerging technical issues, and requirements for a licensing application 
for NGNP. NRC and DOE have also been interacting on small modular 
reactors (SMR), together looking at technical issues and clarifying 
process points for the SMR vendors.

Fossil Energy

Q1.  The United States has considerable reserves of clean-burning 
natural gas both on-land and off-shore. These resources are 
significantly more energy secure than domestic petroleum resources 
because they are less exposed to price fluctuations dictated by foreign 
suppliers. Do you agree that these resources can buy us time as we 
transition to new sources of energy? Do you agree that these resources 
can start reducing energybased pollution in the short term?

A1. The U.S. has an abundant supply of secure, domestic natural gas 
that has significant environmental benefits over other fossil fuel 
sources. Compared to coal-fired power generation, natural gas produces 
half the CO<INF>2</INF> and almost no sulfur oxide. For this reason, 
natural gas can play an important role in cutting greenhouse gas 
emissions. Natural gas can also be an important support to greater use 
of renewable energy sources such as wind and solar--variable-output 
natural gas electric plants can balance the electric grid when paired 
with solar and wind plants that supply intermittent power. These 
benefits are available now and can quickly expand because of the 
existing natural gas delivery and power generation infrastructure and 
the low capital costs for new natural gas power generation.

Hydrogen

Q1.  This budget increases resources for research into solar, wind, and 
geothermal energy, but cuts hydrogen and fuel cell funding. Why does 
the administration continue to reduce investment in hydrogen? Does the 
Administration recognize the potential of hydrogen as a transportation 
fuel?

A1. The Department's reduction of the Hydrogen and Fuel Cell 
Technologies (HFCT) budget by $37 million, allows a balanced portfolio 
of transportation solutions and continued focus on battery and advanced 
vehicle approaches for more near term impact. However, the Department 
will also maintain a strong effort in key areas of hydrogen and fuel 
cell research and development. In addition to $137M in the EERE HFCT 
program, DOE has requested $50M for the Solid State Energy Convention 
Alliance (SECA) Program and expects to maintain funding levels at 
approximately $38M through the Office of Basic Energy Sciences for 
long-term and crosscutting R&D in hydrogen and fuel cells.
    The Department does recognize the long term potential of hydrogen 
as a transportation fuel. The hydrogen fuel cell vehicle is one of many 
transportation technologies being pursued by the Department including 
plug-in hybrid and battery electric vehicles.

Q2.  In your opinion, how will we break free from our dependence on 
foreign oil if we do not pursue investments in multiple transportation 
fuel alternatives?

A2. We will not break free from our dependence on foreign oil without 
pursuing all viable options. This must include electric drivetrains 
(powered by renewable electricity for GHG reduction) for light-duty 
vehicles, biomass-derived liquid fuels that are compatible with 
existing fuel infrastructure for legacy light-duty vehicles and heavy-
duty trucks, and mode-shifting from road transportation of freight to 
rail or barge/ship. There is also a substantial role to be played by 
domestic alternative fuels such as compressed and liquefied natural gas 
for road vehicles (especially buses and heavy-duty trucks). 
Improvements in efficiency of engines for future vehicles also 
represent an important opportunity for reducing foreign oil dependence.
    The Department has a portfolio of programs to develop 
transportation alternatives including: programs addressing plug-in 
hybrid vehicles, advanced battery research for vehicle applications, 
the use of biofuels in transportation, and the development of hydrogen 
fuel cell vehicles.

Questions submitted by Representative Adrian Smith

Q1.  Section 228 of the Energy Independence and Security Act of 2007 
(P.L. 110-114) directed ``Not later than 90 days after the date of 
enactment of this Act, the Secretary shall submit to the Committee on 
Science and Technology of the House of Representatives and the 
Committee on Energy and Natural Resources of the Senate, a report on 
the progress of the research and development that is being conducted on 
the use of algae as a feedstock for the production of biofuels,'' 
specifically, ``identify continuing research and development challenges 
and any regulatory or other barriers found by the Secretary that hinder 
the use of this resource, as well as recommendations on how to 
encourage and further its development as a viable transportation 
fuel.'' Although a draft of this report has been made available to the 
committee, the final report has been held up so the Department of 
Energy can seek peer review. When can we expect a final report to be 
made public? What, if anything, do you expect to be changed from the 
draft? Is it the Department's position all scientific research should 
be peer reviewed before it is published or applied in rulemaking?

A1. A Report to Congress titled ``Microalgae Feedstocks for Biofuels 
Production'' in satisfaction of the EISA 2007 Section 228 requirements 
was provided to members of the House Committee on Science and 
Technology and the Senate Committee on Energy and Natural Resources on 
May 1, 2009. During the preparation of the Report to Congress, DOE 
convened a stakeholder meeting with algae researchers, technology 
developers, investors, and government officials to draft a more 
inclusive report intended for public release. The report, entitled The 
National Algal Biofuels Technology Roadmap, surveys a broader 
technology landscape than the original Report to Congress. DOE released 
a draft of the Roadmap to the public in June 2009 as part of a Request 
for Information (RFI) process, and used comments it received in the 
editing process. The Roadmap is currently being reviewed through our 
concurrence process. It is the Department's position to ensure the 
quality of all scientific documents and reports to be disseminated to 
the public, and to abide by the guidelines set forth by the Final 
Information Quality Bulletin for Peer Review (Bulletin) as prescribed 
by the Office of Management and Budget (OMB). The initial Report to 
Congress was to be distributed on a limited basis within government, 
therefore it was not required to be reviewed. In contrast, The National 
Algal Biofuels Technology Roadmap will be peer reviewed in accordance 
to the DOE Information Quality policy based on the OMB guidelines.

Q2.  Please address current research to improve and commercialize small 
hydropower--anything less than one megawatt, including both tidal and 
small moving water sources. What efforts are underway to improve and 
commercialize this technology? What can this committee do to expedite 
research in this area?

A2. The Department of Energy supports the small water power industry in 
the design and development of devices and components, as well as the 
deployment and testing of those devices in the laboratory or in-water 
settings. The Department supports the development and testing of a wide 
variety of hydrokinetic systems and components, from earliest-stage 
proof-of-concept studies through full-scale demonstration projects, as 
well as certain small hydropower projects. Projects are typically 
funded through competitive awards, which are designed to help devices 
progress toward commercial readiness along well-defined technology 
readiness levels. The testing of these devices and components in a 
variety of settings allows the Department to determine baseline costs 
and performance attributes for different water resources and technology 
types. The Department is also investigating technological innovations 
that will reduce the cost of generation at sites appropriate for small 
hydropower development.
    While the energy contained in small hydropower resources like 
tides, rivers and streams is vast, the exact amount of extractable 
energy has not been well quantified. The Department has funded projects 
to conduct resource assessments for in-stream and tidal energy 
resources.
    The Department awarded funds to national laboratories during FY 
2009 to conduct basic and applied research and development projects. 
Laboratory projects are developing essential tools and methods for the 
engineering, design, and testing of marine and hydrokinetic 
technologies, such as tidal power; and they will identify, analyze, 
predict and prioritize environmental impacts from marine and 
hydrokinetic energy production to minimize the time, costs, and 
potential environmental risks associated with siting and deploying 
these systems. Together these efforts will help accelerate the 
commercialization of small hydropower systems.
    Finally, the committee may expedite research in the area of 
hydrokinetic commercialization by supporting our FY 11 budget request 
which will continue the initiatives listed above.

Questions submitted by Representative Mario Diaz-Balart

Q1.  Secretary Chu, what is the factual basis for seeking to withdraw 
the application from the NRC? What new facts do you have or have you 
considered, as Secretary of Energy, to determine that you should 
withdraw the application? Under what statutory authority are you 
withdrawing the application? Please provide the citation for the 
record?

A1. Scientific and engineering knowledge on issues relevant to 
disposition of high-level waste and spent nuclear fuel has advanced 
over the 20 years since the Yucca Mountain project was initiated. And, 
the Administration believes we can find a better solution that achieves 
a broader national consensus. That is why we have convened the Blue 
Ribbon Commission on America's Nuclear Future; it will provide advice 
and make recommendations on alternatives for the storage, processing 
and disposal of civilian and defense used nuclear fuel and nuclear 
waste. The Commission plans to issue an interim report in 18 months and 
a final report within 24 months of its inception.
    The Atomic Energy Act (``AEA'' or Act) gives the Secretary broad 
authority to carry out the Act's purposes, including the authority to 
direct the Government's ``control of the possession, use, and 
production of atomic energy and special nuclear material, whether owned 
by the Government or others, so directed as to make the maximum 
contribution to the common defense and security and the national 
welfare.'' AEA Sec.  3(c), 42 U.S.C. Sec.  2013(c). Exercise of this 
power in connection with the Nuclear Regulatory Commission (NRC) 
proceeding was not limited in any relevant way by the Nuclear Waste 
Policy Act. In fact, the NWPA is clear that after the Secretary submits 
the license application for the Yucca Mountain repository, 
consideration of that application is to proceed in accordance with the 
laws applicable to such applications. NWPA Sec.  114(d), 42 U.S.C. 
Sec.  10134(d).
    These laws include the AEA and the regulations adopted by NRC to 
implement the AEA. The regulations permit an applicant to withdraw an 
application. 10 C.F.R. 2.107.

Q2a.  The Copenhagen ``accord'' requested countries voluntarily submit 
by January 31, 2010, individual pledges to reduce greenhouse gas 
emissions. As I understand it, each nation determined its own target 
for reducing greenhouse gas emissions and this accord is only 
``politically'' binding in nature. The world views the U.S. and China 
as the greatest emitters, although I believe the Chinese surpassed our 
levels and India's emissions continue to grow. China pledged to limit 
emissions as a share of its growing economy and the U.S. pledged 
reductions from historic levels.

          Are you concerned that at a time when the U.S. economy is in 
        a recession and China's economy is growing, that committing the 
        United States to such a reduction will place our country's 
        economy farther behind?

A2a. There is a burgeoning clean energy market worldwide and commitment 
to climate change action can be a foundation for future economic 
strength. Since 2005, clean energy investments have increased 230 
percent, reaching a total investment of $162 billion worldwide by 2009, 
according to a March 2010 report by The Pew Charitable Trusts, ``Who's 
Winning the Energy Race? Growth, Competition and Opportunity in the 
World's Largest Economies''. China leads global clean energy 
investment, with $34.6 billion, compared to the U.S. at $18.6 billion. 
Comprehensive long-term U.S. climate change policy would provide clear 
market signals to help the U.S. clean energy technology industry 
compete in this growing global market.

Q2b.  The Copenhagen ``accord'' requested countries voluntarily submit 
by January 31, 2010, individual pledges to reduce greenhouse gas 
emissions. As I understand it, each nation determined its own target 
for reducing greenhouse gas emissions and this accord is only 
``politically'' binding in nature. The world views the U.S. and China 
as the greatest emitters, although I believe the Chinese surpassed our 
levels and India's emissions continue to grow. China pledged to limit 
emissions as a share of its growing economy and the U.S. pledged 
reductions from historic levels.

          Since this ``politically'' binding accord is unenforceable, 
        what steps would the United States take if China does not 
        comply with the pledges it has made in the accord? When you 
        testified before this Committee last year, you indicated that 
        the U.S. might be forced to place tariffs on Chinese good if 
        the Chinese were not willing to reduce greenhouse gas 
        emissions. Would you still consider this an option?

A2b. The international community took a meaningful step forward during 
the United Nations Framework Convention on Climate Change climate 
negotiations in Copenhagen. The resulting Copenhagen Accord represents 
the first time that all major economies, including China, pledged to 
reduce greenhouse gas emissions relative to projections. This is an 
important step forward. China has already taken significant actions to 
address climate change and to reduce the greenhouse gas intensity of 
its economy and we expect that it will fulfill its commitments under 
the Accord. The Administration is closely monitoring the steps China 
and other major emitters are taking in line with the Copenhagen Accord. 
As appropriate the Administration will also review the need for trade-
related measures in domestic energy and climate legislation. We look 
forward to working towards an effective global climate agreement that 
serves our economic, national security, and environmental interests.

Questions submitted by Representative Brian P. Bilbray

Nuclear

Q1.  You've made statements that commercially available used fuel 
recycling technology is not proliferation resistant. Could you detail 
for the Committee your definition of a ``proliferation resistant 
technology?'' If such a proliferation technology is developed, would 
you have any objections to exporting such a technology to other 
countries, irrespective of their proliferation history or credentials?

A1. The International Atomic Energy Agency (IAEA) defines proliferation 
resistance as ``that characteristic of an NES (nuclear energy system) 
that impedes the diversion or undeclared production of nuclear material 
or misuse of technology by the Host State seeking to acquire nuclear 
weapons or other nuclear explosive devices.'' However, the U.S. 
Government has not and should not embrace a single definition of 
proliferation resistance or a specific level of proliferation 
resistance as acceptable or not acceptable. We view proliferation 
resistance as a matter of degree, rather than as an absolute. Our 
review of the concept of proliferation resistance shows that it cannot 
be applied in a vacuum without considering other critical factors when 
making technology choices on a nuclear energy system. In other words, 
there is no ``silver bullet'' technology that satisfies all of our 
proliferation concerns.
    Regarding the transfers of technology directly or indirectly 
related to the recycling of used nuclear fuel, the Atomic Energy Act 
requires a number of considerations, including a determination of 
whether the action will constitute the transfer of sensitive nuclear 
technology to the recipient. Other criteria for consideration are what 
the recipient learns or derives from the export for development of 
similar systems, the use of the exported system itself, and the 
disposition pathway for recovered fissile materials. Decisions about 
nuclear systems exports must be made on a case-by-case basis weighing 
many factors.

Q2.  Nonproliferation is a goal we all share. I think it is important 
that we distinguish between proliferation resistant technologies and 
proliferation resistant systems. As Secretary of Energy, you have a 
great deal of responsibility in securing this nation's sensitive 
technologies and materials. Is it your position that the United States 
cannot design systems safeguards that would allow for the near-term 
recycling of used fuel in this country, given all the sensitive 
materials and technologies that your Department already successfully 
secures? If this is not possible, what are the obstacles we need to 
overcome to create such a system of safeguards? Why haven't you 
included any R&D in your budget request that would address these 
obstacles?

A2. The deployment of nuclear fuel recycling technology in the United 
States or in any of the other Nuclear Weapons States (NWS) does not 
constitute proliferation because the NWS already have nuclear weapons 
and the technology and knowledge to build weapons. However, nuclear 
weapons proliferation by nation states and the terrorist threat are 
separate and distinct issues. While proliferation of nuclear weapons is 
not a concern in NWS, the issue of physical security is a significant 
concern that must be addressed when deploying new technologies or 
recycling facilities. The United States will always attempt to develop 
and deploy nuclear technologies that are as easy to safeguard and 
effectively secure as possible, no matter where they are deployed.
    In developing safeguards systems, the United States looks to the 
IAEA for guidance and also relies upon its own expertise with the 
nuclear fuel cycle. Our funding to the national laboratories for the 
Next Generation Safeguards Initiative (NGSI) and the Fuel Cycle 
Research and Development program support continued advances in state-
of-the-art safeguards concepts, as well as techniques and equipment for 
deployment not only in the United States, but also in other countries 
at existing and planned reprocessing/recycling facilities. The budget 
request includes $7.8 million for Material Protection, Accountancy, and 
Controls Technology within Fuel Cycle Research and Development. This 
will continue the work started in fiscal year 2010 to develop 
technologies and analysis tools to enable next generation nuclear 
materials management for future U.S. nuclear fuel cycles to prevent 
diversion or misuse, thereby, reducing proliferation risks and 
enhancing confidence and acceptance of nuclear energy.
    Future decisions about the recycling of used fuel in this country 
in the long term will depend on many factors in addition to 
nonproliferation and security issues. Economics, waste management, 
policy considerations and environmental factors are also very 
significant considerations, as well as the international ramifications 
of domestic decisions. The Blue Ribbon Commission on America's Nuclear 
Future will examine these issues along with many others and I look 
forward to their advice and recommendations.

Q3.  Why aren't we moving forward aggressively with proven reprocessing 
technologies since we know that eventually that will be required to 
implement real clean air policies?

A3. The Department has a science-based research program on reprocessing 
technologies underway that is focused on identifying advanced 
reprocessing concepts that would be more efficient, safer and less 
expensive than current conventional processes. This research program 
will be able to inform future decisions on commercial reprocessing.

Q4.  Mr. Secretary--Following the announcement at the American Chemical 
Society regarding low energy nuclear reactions (LENR), commonly known 
as ``cold fusion,'' international press accounts in the New Scientist 
and the economist reported upon this new, energy technology 
breakthrough. According to the reports, if this technology is validated 
and can be commercialized, it would provide a clean, CO<INF>2</INF>-
free, abundant energy source that could replace oil and gas. This would 
have a positive and significant impact on U.S. foreign policy by 
potentially reducing our dependence upon foreign energy sources. It 
would also contribute to minimizing nuclear waste material. Would the 
Department of Energy be willing to investigate and research this 
technology to determine its efficacy?

A4. The Office of Science supports basic energy research and R&D on 
related applications, subject to peer review in accordance with Federal 
regulations. The Office of Science considers all proposals submitted 
within its competitive solicitations and evaluates all in terms of 
merit according to established guidelines and procedures for research 
proposals.

Algae Biofuels Questions

Q1.  The FY 2010 E&W Appropriations conference report directed the 
Department to ``provide not less than $35 million for a comprehensive 
research, development, and deployment strategy focused on algal 
biofuels.'' It is my understanding that to date, the Department has 
allocated roughly $10 million of these funds. Please elaborate as to 
how the Department has spent or is spending the $10 million, and how it 
plans to utilize the remaining $25 million, for algae fuels RD&D as 
specifically directed by Congress.

A1. The Department is directing $35 million Fiscal Year 2010 Energy and 
Water appropriations toward comprehensive research, development, and 
deployment of algal biofuels. DOE is planning to direct $25 million to 
three alternate consortia that were competitively selected and peer-
reviewed from the funding opportunity announcement, DE-FOA-0000123. The 
Department is allocating the remaining $10 million in FY 2010 funds to 
support three additional categories of efforts: capacity building 
projects at the National Laboratories through a competitive and peer-
reviewed process; projects aimed at determining the resource potential 
of land, water, CO<INF>2</INF>, and other nutrients to sustainably 
support commercial-scale algae production; and lifecycle analyses 
projects at universities and the National Laboratories to develop the 
Greenhouse Gases, Regulated Emissions and Energy Use in Transportation 
(GREET) modules for algae and to enhance international collaborations. 
The Biomass Program has begun spending on some of these projects, 
including components of the algae resource assessments and life cycle 
analyses, while other efforts are in the procurement and negotiation 
process.

Q2.  The President recently announced his administration's new national 
biofuels plan that emphasizes a change in focus from second generation 
(ethanol) to third generation (dropin) transportation fuels. How will 
the DOE change its current funding and R&D resource allocations from 
focusing so overwhelmingly on second generation cellulosic biofuels, to 
following the president's lead in focusing on third generation drop in 
fuels, such as algae based fuels?

A2. In May 2009, to further his Administration's commitment to advance 
biofuels research and commercialization, President Obama established 
the Biofuels Interagency Working Group.\2\ In February 2010, the 
Working Group released its Growing America's Fuel strategy, which 
provides direction on several areas across the supply chain that 
support what are considered first, second, and third generation 
biofuels. In addition, the interagency Biomass Research and Development 
Board has committed to working closely with the Working Group as it 
defines a range of research and development coordination activities 
that will support the nation's transition toward developing greater 
volumes of sustainable cellulosic and hydrocarbon renewable fuels.\3\
---------------------------------------------------------------------------
    \2\ The Working Group is comprised of representatives from the 
Departments of Energy (DOE), Agriculture (USDA), and the Environmental 
Protection Agency (EPA).
    \3\ The Biomass Research and Development Act of 2000 established 
the Board, which was continued under the Food Conservation and Energy 
Act of 2008. DOE and USDA co-chair the Board, which is comprised of 
members from DOE, USDA, EPA, the National Science Foundation, the 
Department of the Interior, the Office of Science and Technology 
Policy, and other agencies the Board invites, such as the Departments 
of Transportation and Defense.
---------------------------------------------------------------------------
    It is crucial the Department of Energy (DOE) carry out its 
cellulosic ethanol investments, which are central to technology and 
industry growth as well as meeting Renewable Fuel Standard 
requirements. Our R&D and integrated biorefinery results will enable 
DOE and its national laboratory, academic, and industry partners to 
leverage and inform comparable technology developments for hydrocarbon 
biofuels. For example, Table 1 shows that many pilot, demonstration, 
and commercial-scale projects selected from 2007 through 2009 are 
scheduled to come on line over the next three years; \4\ the total 
multiyear Departmental investment toward these projects is more than 
$723 million--including appropriated funds as well as American Recovery 
and Reinvestment Act funds with a total non-fed cost share of over $1.6 
billion.\5\ The execution of these projects will provide critical data, 
lessons learned, and ideas for improvement-all of which could 
noticeably increase production efficiencies and reduce fuel costs going 
forward.
---------------------------------------------------------------------------
    \4\ For example, as of April 1, 2010, one demonstration-scale 
partner is now operational; a commercial-scale partner has initiated 
construction. We expect four additional projects to move into their 
construction phases later this fiscal year.
    \5\ See Energy Policy Act of 2005 section 932, and increases to FY 
08 and FY 09 authority through the Energy Security and Independence Act 
of 2007.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    DOE's Biomass Program has also taken substantial steps to 
accelerate hydrocarbon biofuels research, development, and 
demonstration (RD&D) in the past few years. We have annually evaluated 
the states of biofuels technologies to ensure work is progressing 
sufficiently. Since 2008, we have selected or awarded more than $465 
million toward hydrocarbon fuels in FY 08, FY 09, and FY 10 funds as 
well as American Recovery and Reinvestment Act funds-to multiple RD&D 
projects. These projects include six pilotscale, two demonstration-
scale, and one commercial-scale \6\ integrated biorefineries as well as 
two advanced and algal biofuels consortia. We believe a balanced 
portfolio of investments is needed to develop both second and third 
generation biofuels.
---------------------------------------------------------------------------
    \6\ This integrated biorefinery project was originally awarded 
under a demonstration-scale solicitation; however, plans are for a 
facility large enough to be considered commercial-scale.
---------------------------------------------------------------------------
    Our planned RD&D commitments for FY 11 will continue to shift 
toward supporting hydrocarbon biofuels activities while maintaining our 
commitments to cellulosic ethanol RD&D. Considerably more hydrocarbon 
biofuels RD&D is required over the next several years-and our consortia 
and integrated biorefinery activities are absolutely critical to 
achieving success. In this regard, we have developed internal targets 
for 2017 to focus our partners' efforts related to renewable gasoline, 
diesel, and jet fuels.

Q3.  The Joint Genome Institute (JGI) can play a significant role in 
algae-based fuel development by helping the algae industry develop a 
library of sequenced: algal strains. Is this something that the 
Institute (JGI) sees as a priority on its own, and is willing to work 
on, or something that requires more attention and direction from 
Department of Energy to achieve?

A3. The Department and the Joint Genome Institute recognize the 
important role that algae can play in renewable biofuel development. 
JGI has provided genomic information on many algal species including 
green algae, diatoms, and cyanobacteria, as well as metagenomic 
information on algal blooms and environmental algal mats. JGI 
encourages high-throughput DNA sequencing and analysis projects in 
support of the DOE mission and national priorities to develop abundant 
sources of clean energy, control greenhouse gas accumulation in the 
atmosphere (especially carbon dioxide), and clean up contaminated sites 
for which DOE has ownership or stewardship responsibilities. Priority 
for proposed projects is established according to the JGI review 
process guidelines. JGI is encouraging the algae industry to submit 
proposals for consideration for the current Community Sequencing 
Program (CSP) 2011 call, especially relating to the development of 
clean energy sources.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

Nuclear Regulatory Commission Motion To Withdraw Yucca Mountain License 
                              Application
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                   

</pre></body></html>
